U.S. Department of Agriculture
  Office of Inspector General
        Southwest Region
          Audit Report



          Farm Service Agency
   Jackson County Office Operations
                Arkansas




                      Report No.
                      03006-18-Te
                      September 2000
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250



DATE:          October 3, 2000

REPLY TO
ATTN OF:       03006-18-Te

SUBJECT:       Jackson County Office Operations in Arkansas

TO:            Keith Kelly
               Administrator
               Farm Service Agency

ATTN: T. Mike McCann
             Director
             Operations Review and Analysis Staff


This report presents the results of our audit of Office Operations in Jackson County, Arkansas.
The Farm Service Agency (FSA) response to the draft report, dated August 15, 2000, is included
as exhibit Q with excerpts and the Office of Inspector General’s position incorporated into the
relevant sections of the report.

The written response contained sufficient information to reach management decisions on
Recommendations Nos. 7, 13, and 16. Follow your internal agency procedures in forwarding final
action correspondence to the Office of the Chief Financial Officer.

Additional information is needed to reach management decisions on Recommendations Nos. 1,
2, 3, 4, 5, 6, 8, 9, 10, 11, 12, 14, and 15. The information needed to reach agreement is set forth
in the sections of the report marked "OIG Position." We ask that FSA delay any relief from
collection of overpayments from individual producers until results of an OIG investigation and
possible criminal or civil remedies are known.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective action taken or planned and the timeframes for implementation of each
audit recommendation. Please note that the regulation requires management decisions to be
reached on all findings and recommendations within a maximum of 6 months from report
issuance, and final actions to be taken within 1 year of the management decisions.

We appreciate the courtesies and cooperation extended to us by members of your staff during
the audit.

/s/
ROGER C. VIADERO
Inspector General

Attachments
                         EXECUTIVE SUMMARY
               JACKSON COUNTY OFFICE OPERATIONS
                     REPORT NO. 03006-18-Te


                                             We performed this audit of Jackson County,
            PURPOSE                          Arkansas,   Farm Service Agency (FSA) Office
                                             operations at the request of FSA National Office
                                             officials. A special FSA County Operations
            Review (SCOR) indicated Jackson County, Arkansas, FSA Office (CO) employees
            and/or producers violated or took deliberate actions to circumvent farm program
            provisions. The objective of the audit was to expand on findings of the SCOR to
            determine the validity and extent of reported problems with program administration
            at the CO.

                                           The audit generally confirmed the SCOR findings
      RESULTS IN BRIEF                     and   identified serious problems in program
                                           administration. Widespread program abuse and
                                           irregularities existed, including improper planted
         and considered planted (P&CP) and disaster credit; improper farm reconstitutions;
         unauthorized crop acre base (CAB) and yield increases; and unsigned, incomplete,
         and/or backdated program documents. The total improper payments resulting from
         these actions were over $8.5 million. (See exhibit A for a summary of these
         monetary amounts.) We attributed most of these problems to the willingness of
         the CO staff, including [        County Agricultural Official (CAO)] and county
         committee (COC), to accommodate producers’ requests and to disregard FSA
         procedures in order to maximize Government benefits to producers. The extent
         of irregularities and abuse was so pervasive that we concluded the CO operations
         were mismanaged and that State office (STO) oversight and supervision were
         inadequate. Specifically, responsible STO program specialists, [                State
         Agricultural Official(SAO)], and a county office reviewer did not identify and correct
         long standing irregularities.

            The joint review identified farm reconstitutions used to divide farms but retain the
            CAB’s on certain acres, while splitting off other acreage to build additional CAB’s.
            This allowed full program participation on the divided farm(s) that received CAB(s),
            while building CAB(s) on the divided farm(s) that did not receive CAB(s). Also, the
            COC established rice yields on farms where CAB’s were built substantially higher
            than the established yields on the parent farms. Most of the farms that benefited
            from those actions were operations having connections to a large farming
            operation in the county, producer 2.




USDA/OIG-A/03006-18-Te                                                                   Page i
                                    SEPTEMBER 2000
            Further, someone at the CO, without justification or authorization, changed the
            contribution percentages in the automated system for four reconstitutions during
            the period 1992 through 1995 involving farms with ties to producer 2. This allowed
            improper shifting of CAB’s among the resulting farms. In one case, the parent
            farm’s entire rice CAB of over 1,800 acres was allocated to only one of nine
            resulting farms with the other farms used to build CAB’s. Program benefits on
            PFC contracts accruing to subsequent farms, resulting from this one reconstitution,
            totaled almost $3.3 million, of which about $384,000 went (or was scheduled to go)
            to [ CAO] and a relative.

            The CO also allowed P&CP credit for rice behind wheat (RBW) on those farms
            where rice CAB’s were built. Usually, this consisted of credit for rice that was self-
            certified failed or prevented from being planted. Thus, P&CP credit was given, and
            rice CAB’s were established on land where rice was never actually produced.
            These increases should not have been allowed because double cropping RBW
            was not normal for the area. The P&CP credit was also given for rice considered
            planted behind a failed wheat crop, commonly referred to as ghost acres (P&CP
            credit is not permitted for both crops since it is given for the first crop, and had that
            first crop not failed the second crop would not have been planted). The SCOR
            identified improper credit for 6,384.6 ghost acres during 1993 to 1995 that were
            used to build rice CAB’s.

            Because of these irregularities, FSA adjusted bases and yields on 64 farms which
            reduced fiscal years (FY’s) 1998 through 2002 production flexibility contract (PFC)
            payments that had not yet been made by over $4.7 million. However, FSA has not
            initiated any action with regard to PFC overpayments that had already been made
            for FY’s 1996 and 1997 amounting to about $1.6 million. Nor has FSA taken any
            action with regard to ineligible payments that resulted from these same errors
            under the 1993 through 1995 Acreage Reduction Programs (ARP). Further, FSA
            has not taken action regarding over $335,000 in payments resulting from improper
            P&CP credit for RBW that did not involve ghost acres, and for over $186,000 in
            payments resulting from improper P&CP credits for initial prevented planted (PP)
            rice that we do not consider justified because evidence showed the losses were
            not disaster related.

            We also questioned over $637,000 in disaster payments because the producers’
            disaster claims included (1) failed or PP rice on acreage having little or no history
            of producing rice, (2) reported PP losses due to excessive moisture when weather
            and other data did not support such claims, and (3) losses for PP rice by
            producers who previously reported they intended to double crop soybeans behind
            wheat. Producers also received P&CP credit on these disaster acres self-certified
            as PP or failed RBW that were used to build rice CAB’s. For example, producers
            on one farm received 1993 disaster payments of $118,381 for PP rice on the total




USDA/OIG-A/03006-18-Te                                                                       Page ii
                                     SEPTEMBER 2000
            1,130.4 cropland acres even though the farm did not have any prior history of
            producing rice. Another loss claim was filed for the entire acreage in 1994.
            Although the disaster claim was denied, the farm was given P&CP credit for both
            years, which built a rice CAB that generated over $980,000 in 1996 through 2002
            PFC payments on a farm that had no history of raising rice. We also questioned
            disaster payments, as discussed in more detail below, because producers who
            received them had no previous connections with the farming operations.

            Of the adjustments FSA made to the CAB’s and yields on 64 farms, which
            involved about $6.3 million in questioned payments, most of the overpayments
            occurred on 39 farms with rice CAB’s. Of the 39 farms, 15 farms with about
            $5.9 million in questioned payments had connections with producer 2. Producer
            2 also benefited by over $3 million (of which $2 million was included in the $5.9
            million) when someone in the CO made unauthorized and unjustified computer-
            generated increases in 1992 rice yields (2,000 pounds on one farm and 1,000
            pounds on another) and 1993 CAB increases of 1,300 total acres on four other
            farms. We also noted that farm tenants having connections to producer 2, but no
            prior interests in operating 22 farms (of 24 identified involving this situation),
            received only the disaster payments for PP rice while the original tenants who
            leased the land continued their interests in the planted crops. We contacted the
            owner of one of these farms. He was not aware that rice disaster payments had
            been paid on his farm since rice had not been produced on it in several years. He
            was also not aware that the tenant who received the disaster payments had any
            interest in crops being produced on his farm. Although he leased his farm on a
            crop-share basis, he did not receive any of the disaster payments.

            Of the $8.5 million in questioned payments identified during this review, over $7.7
            million involved the operations of the entities associated with producer 2. During
            this audit, many of these entities were reorganized into 33 new corporations to
            replace the corporate or individual cash rent tenants on farming units that received
            the questioned payments. Similar reorganizations occurred after FSA established
            debts of about $2.8 million against the payment entities as a result of a prior audit,
            and subsequent payments were made to the new entities without offset. However,
            in that case a former FSA Administrator subsequently forgave the entire debt. The
            FSA now has procedures to hold new entities liable if the reorganizations were
            done to avoid offsets.

            [ CAO] and a relative also benefited from improper rice CAB and yield increases
            in that they received or were scheduled to receive about $490,000 in questioned
            payments on farms owned by corporations controlled by producer 2. Additionally,
            [ CAO] did not report all financial interests, as required by FSA procedures, so
            that FSA could make informed decisions concerning potential conflict-of-interest
            situations. Further, [ CAO] approved farm reconstitutions for farms in which [
            CAO] and a relative had interests. These actions, together with the widespread
            irregularities and abuse disclosed by the SCOR and this audit, raise serious
            questions concerning the operations of this office for which [ CAO] and COC
            must be held accountable.




USDA/OIG-A/03006-18-Te                                                                    Page iii
                                    SEPTEMBER 2000
            The task force found that required eligibility documents were not on file for
            171 producers scheduled to receive payments. We also identified problems with
            COC minutes, dates, and signatures; incomplete documents; questionable
            activities to evade debt offset; and the improper processing of payments or checks.
            These problems and the aforementioned abuse demonstrated deficient program
            administration by the office staff. There was also a problem with a followup review
            of CO operations by an Arkansas County Operations Reviewer (ACOR) that
            neither confirmed problems identified by the task force nor disclosed any of the
            problems identified in this report.

            The FSA has initiated administrative actions regarding the irregularities disclosed
            by this joint review. Information about the unauthorized CAB and yield increases
            has been referred to OIG-Investigations.

            Included as General Comments are items questioned by the SCOR and joint
            Office of Inspector General (OIG)-FSA reviews that have since been corrected or
            need no additional corrective action.

                                         We recommend that FSA determine ARP
  KEY   RECOMMENDATIONS                  overpayments     that resulted from improper CAB
                                         and yield adjustments and recover them. We also
                                         recommend recovery of $1,555,706 in 1996 and
          1997 PFC overpayments resulting from the improper base and yield increases
          identified by the FSA task force. Further, we recommend that rice CAB’s be
          corrected for improper P&CP credit for other than ghost acres and that questioned
          PFC payments of $522,445 be recovered or adjusted. In addition, we recommend
          recovery of $637,316 in 1993 and 1994 disaster payments issued for failed or PP
          rice. Further, FSA needs to determine appropriate administrative actions.

                                            The
                                              FSA is in agreement that there were
     AGENCY RESPONSE                     improper CAB and yield adjustments, but will not
                                         pursue collection of the ARP and the 1996 and
                                         1997 PFC overpayments because of the apparent
         involvement of CO personnel. The response shows that the CAB’s for other than
         ghost acres detailed in exhibit E have been corrected, and FSA also will not
         pursue collection of those overpayments because of the involvement of CO
         personnel. They do not plan to pursue collection of the questioned 1993 and 1994
         disaster payments for the same reason. The FSA has taken administrative actions
         against some CO employees, and after future review will decide if administrative
         actions should be taken against responsible State officials.




USDA/OIG-A/03006-18-Te                                                                 Page iv
                                   SEPTEMBER 2000
                                             We need information showing that the CAB’s and
         OIG POSITION                         yields have been adjusted for other than ghost
                                              acres, as detailed in exhibit E. If collection of
                                              overpayments cited in the report is not pursued,
                                              we need additional documentation to fully explain
            the rationale behind FSA’s decisions to forego collections of overpayments.
            Because the reported unauthorized CAB and yield increases are under
            investigation, we ask that FSA delay any action relative to these payments until the
            investigation and related civil and criminal remedies are completed.




USDA/OIG-A/03006-18-Te                                                                  Page v
                                    SEPTEMBER 2000
TABLE OF CONTENTS

EXECUTIVE SUMMARY                                                .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . i
 PURPOSE . . . . . . . . . . . . .                       .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .      i
 RESULTS IN BRIEF . . . . . .                            .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . i
 KEY RECOMMENDATIONS                                     .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .    iv
 AGENCY RESPONSE . . . .                                 .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .    iv
 OIG POSITION . . . . . . . . . .                        .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .     v


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
 BACKGROUND .            .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .    1
 OBJECTIVE . . . .       .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .    6
 SCOPE . . . . . . .     .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .    7
 METHODOLOGY             .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .    8


FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . 10
 CHAPTER 1
 BASES AND YIELDS MANIPULATED TO INCREASE
 PROGRAM BENEFITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

 FINDING NO. 1
 FARM RECONSTITUTIONS USED TO CIRCUMVENT
 REGULATIONS AND INCREASE CROP ACREAGE BASES
 AND YIELDS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

 RECOMMENDATION NO. 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

 FINDING NO. 2
 RICE BEHIND WHEAT WAS INELIGIBLE FOR ACREAGE CREDIT . . . . . . . . . 19

 RECOMMENDATION NO. 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

 RECOMMENDATION NO. 3 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

 RECOMMENDATION NO. 4 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25




USDA/OIG-A/03006-18-Te                                                                                                                                                                                   Page vi
                                                                 SEPTEMBER 2000
TABLE OF CONTENTS



 FINDING NO. 3
 UNAUTHORIZED CHANGES TO AUTOMATED FARM
 RECORDS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

 RECOMMENDATION NO. 5 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

 RECOMMENDATION NO. 6 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

 CHAPTER 2
 DISASTER PROGRAM MANIPULATED TO INCREASE BENEFITS . . . . . . . . . 35

 FINDING NO. 4
 IMPROPER DISASTER CLAIMS SHOULD HAVE BEEN DETECTED . . . . . . . . 36

 RECOMMENDATION NO. 7 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47

 RECOMMENDATION NO. 8 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 48

 RECOMMENDATION NO. 9 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 48

 FINDING NO. 5
 PREVENTED PLANTED ACREAGE USED TO BUILD CROP
 ACREAGE BASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49

 RECOMMENDATION NO. 10 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49

 CHAPTER 3
 DEFICIENT PROGRAM ADMINISTRATION AND INADEQUATE OVERSIGHT . 51

 FINDING NO. 6
 COUNTY OFFICE ACTIONS IMPROPER . . . . . . . . . . . . . . . . . . . . . . . . . . . . 52

 RECOMMENDATION NO. 11 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 59

 FINDING NO. 7
 STATE OFFICE OVERSIGHT INADEQUATE . . . . . . . . . . . . . . . . . . . . . . . . . . 59

 RECOMMENDATION NO. 12 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 61




USDA/OIG-A/03006-18-Te                                                                                 Page vii
                                            SEPTEMBER 2000
TABLE OF CONTENTS



 FINDING NO. 8
 PROCESSING OF PAYMENTS AND COMMODITY CREDIT
 CORPORATION CHECKS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 62

 RECOMMENDATION NO. 13 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 63

 FINDING NO. 9
 OVERPAYMENT OF PROMPT PAYMENT INTEREST . . . . . . . . . . . . . . . . . . . 63

 RECOMMENDATION NO. 14 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 64

 FINDING NO. 10
 KNOWN IMPROPRIETIES TO EVADE DEBT OFFSET . . . . . . . . . . . . . . . . . . . 64

 RECOMMENDATION NO. 15 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 65

 FINDING NO. 11
 PROBLEMS WITH PERSON DETERMINATIONS AND
 RELATED COMPUTER DATA ENTRIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 66

 RECOMMENDATION NO. 16 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 68


GENERAL COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 69


EXHIBITS

 EXHIBIT A -       SUMMARY OF MONETARY RESULTS . . . . . . . . . . . . . . . . . 71
 EXHIBIT B -       CO EMPLOYEES’ AREAS OF RESPONSIBILITY . . . . . . . . . . 72
 EXHIBIT C -       NET PAYMENTS TO PRODUCERS BY PROGRAM,
                   1992 THROUGH 1997 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 73
 EXHIBIT D -       PFC OVER/UNDERPAYMENTS BASED ON
                   TASK FORCE REVIEW . . . . . . . . . . . . . . . . . . . . . . . . . . . . 74
 EXHIBIT E -       PFC OVERPAYMENTS FOR IMPROPER P&CP CREDIT
                   THAT INCREASED RICE CAB’S . . . . . . . . . . . . . . . . . . . . . . 79


USDA/OIG-A/03006-18-Te                                                                    Page viii
                                       SEPTEMBER 2000
TABLE OF CONTENTS


 EXHIBIT F -         1993 THROUGH 1995 RBW THAT WERE GHOST ACRES
                     AND/OR FAILED OR PP . . . . . . . . . . . . . . . . . . . . . . . . . . . . 80
 EXHIBIT G -         SUMMARY OF 1989 THROUGH 1995 RBW HISTORY IN
                     JACKSON COUNTY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 86
 EXHIBIT H -         EFFECT OF UNAUTHORIZED RICE CAB INCREASES
                     IN 1993 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 87
 EXHIBIT I -         EFFECT OF UNAUTHORIZED RICE YIELD
                     INCREASES IN 1992 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 88
 EXHIBIT J -         EFFECT OF UNAUTHORIZED UPCN YIELD INCREASES . . . 89
 EXHIBIT K -         IRREGULARITIES IN FAILED RBW AND PP RICE CLAIMS
                     FOR 1993 AND 1994 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 90
 EXHIBIT L -         FAILED RBW AND PP RICE THAT RECEIVED
                     DISASTER PAYMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . 93
 EXHIBIT M -         OFFICIAL 1993 AND 1994 RAINFALL DATA
                     FROM NOAA WEATHER STATIONS IN AND AROUND
                     JACKSON COUNTY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 95
 EXHIBIT N -         RICE HISTORY AND WHEAT RICE ACRES FOR
                     1993 AND 1994 FARMS WITH FAILED RBW
                     AND/OR PP RICE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 97
 EXHIBIT O -         IRREGULARITIES IN REPORTED RICE INTERESTS . . . . . . 100
 EXHIBIT P -         CERTIFICATION AND APPLICATION DATES FOR 1993
                     AND 1994 FAILED RBW AND PP RICE AND FOR OTHER
                     CROPS FARMED ON THE SAME ACREAGE . . . . . . . . . . . . 102
 EXHIBIT Q -         FSA RESPONSE TO THE DRAFT REPORT . . . . . . . . . . . . . 105


ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 111


FORM NUMBERS AND DESCRIPTIONS . . . . . . . . . . . . . . . . . . . . . . 112




USDA/OIG-A/03006-18-Te                                                                                 Page ix
                                           SEPTEMBER 2000
TABLE OF CONTENTS



GLOSSARY OF TERMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 113




USDA/OIG-A/03006-18-Te                                                                 Page x
                                     SEPTEMBER 2000
                               INTRODUCTION


                                            The FSA delivers Federal farm programs at the
         BACKGROUND                         local level under the administration of COC’s.
                                            The COC hires [ CAO                  ] the day-to-
                                            day operations of the local FSA office for all FSA
            programs administered by the office. [   CAO] provides guidance and assistance
            to program technicians (PT’s) who perform the day-to-day CO operations. The
            STO oversight of COC’s is handled through a State FSA Committee (STC), State
            Executive Director (SED), program staff at the STO, and [SAO] who provide
            supervision and oversight to CO’s. [ SAO] are responsible for supervising and
            training CO employees and for coordinating and implementing National and State
            procedures at the local levels to COC’s and CO employees. State offices also
            employ county operations reviewers (COR’s) to conduct periodic onsite reviews of
            CO operations.

                                                1990 Act

            The Food, Agriculture, Conservation, and Trade Act of 1990 (FACTA), as
            amended by the Omnibus Budget Reconciliation Act of 1990, and technical
            corrections legislation, authorized disaster and ARP payments.

                                          Disaster Payments

            The FACTA authorized PP and reduced-yield disaster payments for crops
            damaged because of weather or related conditions.

                                     Acreage Reduction Program

            The FACTA provided authority to reduce acreage planted to crops when supplies
            were projected to be excessive. To qualify for payments, a farmer had to plant
            within the permitted acres on a participating farm. Plantings on nonparticipating
            farms did not affect eligibility on participating farms.

            For wheat, feed grains, rice, and cotton, income support payments were provided
            during years of depressed prices. These "deficiency payments" were based on the
            difference between a "target price" set by law and the higher of either the basic
            loan rate or the national average market price.




USDA/OIG-A/03006-18-Te                                                                Page 1
                                   SEPTEMBER 2000
            Maximum Payment Acreage (MPA) for deficiency payments for each program crop
            was 85 percent of the CAB established for the program crop, less the acreage
            which was required to be devoted to conserving uses (CU’s) under the ARP.
            Deficiency payments were based on MPA, multiplied by the deficiency payment
            rate, multiplied by the program yield.

            For wheat and feed grains, the CAB was calculated for each crop by averaging the
            acreage P&CP to the program crop in the immediately preceding 5-year period.
            For upland cotton (UPCN) and rice, the CAB was the average of the P&CP from
            the immediately preceding 3-year period. A producer participating in the
            production adjustment program was forbidden to build or increase any of the
            CAB’s for the farm.

                                            1996 Farm Bill

            The 1996 Farm Bill (the Agricultural Market Transition Act (AMTA)) removed the
            link between income support payments and farm prices. Under AMTA, farmers
            could enter into 7-year PFC’s and receive a series of fixed annual "transition
            payments." Contracts generally began with the 1996 crop and extend through the
            2002 crop. A farm was eligible for enrollment if it had a wheat, corn, sorghum,
            barley, oats, UPCN, or rice CAB established for 1996. Once the farm was
            enrolled, the CAB became contract acreage.

            For each contract, the amount to be paid for a contract commodity each FY
            equaled the product of 85 percent of the contract acreage, multiplied by the
            payment yield, multiplied by the payment rate.

                                      Jackson County FSA Staff

            [               SAO] for Jackson County has been [     SAO
                               SAO] (who served Jackson County [                  ] continues
            to serve other Arkansas counties since Arkansas FSA district lines were redrawn.
            The Jackson COC was composed of three members. The CO staff consisted of
            [ CAO] eight permanent employees. Areas of employee responsibility are shown
            in exhibit B.

                                 Employee Misconduct Investigation

            At the request of FSA’s Southeast Area Office in December 1997, a United States
            Department of Agriculture (USDA) Employee Misconduct Investigator conducted
            investigations into the alleged misconduct of employees at the Jackson FSA CO.


            The investigations were conducted in late 1997 and early 1998 and reported to the
            FSA National Office that evidence was found to support allegations that:




USDA/OIG-A/03006-18-Te                                                               Page 2
                                   SEPTEMBER 2000
            •      one employee was involved in activities which posed a conflict of interest,
                   conducted personal business during duty hours, used Government phones
                   to conduct personal business, and made threatening statements to FSA
                   customers;

            •      another employee may have altered documents;

            •      another employee used sick leave to attend a meeting;

            •      a fourth CO employee backdated documents for producers’ benefits; and

            •      [     CAO] knowingly approved sick leave for an employee to attend a
                   meeting, allowed producers to report crop acreages for deceased owners,
                   and accepted for payment acreages that were never planted or intended
                   to be planted.

                                              SCOR Review

            In an attempt to identify the specific program irregularities brought to light during
            the employee misconduct investigation, the National office directed a team of three
            COR’s from other States to conduct a SCOR review of operations at the CO. The
            SCOR reviewed AMTA transactions, unsecured checks (forms Commodity Credit
            Corporation (CCC)-184, CCC Check), farms associated with employee 1 or [
            CAO], deceased landowners that may have been receiving payments, 1993
            disaster claims for farm 102, misuse of sick leave, the 1995 failed acreage report
            and subsequent deficiency payment for wheat on farm 134, and payment limitation
            and disaster claims for 1994. The SCOR reported in March 1998 the following.

            •      Employee 3 inappropriately used sick leave.

            •      A $1,174 check dated January 23, 1998, made payable to FSA by a
                   producer was not properly deposited and was left unsecured on
                   employee 2’s desk on February 27, 1998.

            •      Six checks (forms CCC-184) totaling $10,579, prepared by employee 2 on
                   February 12, 1998, were not properly signed, counter-signed, or issued and
                   were left unsecured on employee 2’s desk on February 27, 1998.

            •      No memoranda of understanding were on file for four reconstitutions to
                   support use of the owner designation method of division.

            •      On 10 reconstitutions, CO employees did not obtain producers’ signatures
                   requesting and agreeing to the reconstitutions, and there was no
                   documentation in the Jackson FSA COC minutes to indicate the COC
                   initiated the reconstitutions.




USDA/OIG-A/03006-18-Te                                                                   Page 3
                                    SEPTEMBER 2000
            •      [   CAO] approved three reconstitutions for farms in which the [       CAO]
                   had interests.

            •      In one case, a cash-rent tenant participated on a farm for which the
                   landowner of record was deceased.

            •      The COC approved a 1995 failed acreage report for wheat on a farm
                   although a note to the file stated there was no evidence of seeding.

            •      There was no documentation on file for one producer to support an
                   actively-engaged-in farming (payment eligibility) determination.

            •      P&CP credit was erroneously given for ghost acres on five farms.

            •      On one farm, PP credit was erroneously given for ghost acres.

            •      There were two farms approved in 1993 for disaster credit on wheat where
                   the [employee 5] initially annotated there was no evidence of seeding but
                   then redated and initialed the notes without explanation.

            The SCOR also reported the following concerns and observations.

            •      [ CAO] involvement with a landlord (producer 2) may have constituted a
                   conflict of interest.

            •      Producer 2’s apparent sales of land to himself and to close family members
                   resulted in farm reconstitutions which allowed tenants to participate in farm
                   programs on existing CAB’s while building CAB’s on the farms’ excess
                   cropland.

            •      It was questionable whether measurements for farms operated by [
                   CAO] were actually completed because all determined acreage was equal
                   to reported acreage.

            •      Rice yields established for new rice farms resulting from reconstitutions
                   were significantly higher than the existing rice yield on the parent farm.

            An informational copy of the SCOR report was provided to the Arkansas SED, and
            the SCOR discussed the results of its review with the SED and [SAO].

                                             ACOR Review

            As a result of the SCOR review, the SED instructed an ACOR to conduct a
            followup review of the SCOR’s concerns and observations. The ACOR reported
            in April 1998:




USDA/OIG-A/03006-18-Te                                                                  Page 4
                                   SEPTEMBER 2000
            •      [ CAO] had no apparent conflict of interest concerning involvement with
                   producers with whom there was close personal business, and

            •      there were no reconstitution errors out of the ordinary.

            Based upon the ACOR review, the Arkansas FSA SED determined no further
            review was warranted.

                                           Request for Audit

            Due to the conflict between the findings of the ACOR and the findings of the
            employee misconduct investigation reports and SCOR report, in June 1998, FSA
            National Office officials requested that OIG perform an audit of the 1992 through
            1996 disaster programs and farm reconstitutions at the CO. The officials stated
            disaster benefits may have been extended to acreage not planted or intended to
            be planted and farm reconstitutions had been used to increase the rice CAB’s on
            some farms.

                                           Prior OIG Audits

            Audit No. 03097-4-Te, Maximum Payment Limitations in Jackson and Woodruff
            Counties, Arkansas, released in July 1989, revealed producer 2 used as many as
            29 relatives, employees, and business associates to evade payment limitation in
            1986 and 1987. Producer 2 controlled the entire farming operation through various
            family entities. The producers’ financial records and farming bank accounts were
            maintained by the family entities, and the producers’ FSA benefits and other farm
            income were turned over at or near the date of receipt to a custom farming entity
            (wholly owned by producer 2) or to other entities controlled by producer 2 or his
            immediate family. The true nature of the farming operations was concealed or not
            accurately reported to FSA so producer 2 and his family could obtain improper
            farm program payments totaling about $2.8 million. The producers subsequently
            reorganized to evade the indebtedness and, in November 1992, the (former)
            agency administrator forgave any remaining debt.

            The audit also revealed [     CAO] violated landlord-tenant provisions of the 1986
            program. [       CAO] paid a landlord as rent a percentage of the FSA program
            payments but reported a cash lease arrangement to FSA, so 100 percent of the
            FSA benefits were issued to [        CAO]. As a result, [       CAO] was issued
            excessive payments (including the landlord’s share) totaling about $32,000 on a
            farm with ties to producer 2.

            Audit No. 05600-5-Te, Crop Year 1991 Crop Insurance Claims, released in
            September 1993, although not an audit of FSA payment limitation provisions,
            showed producer 2 and his family-owned entities continued essentially the same
            modus operandi disclosed in the 1989 audit. The family-owned entities controlled
            producers’ financial records and farming bank accounts. The audit identified
            numerous unexplained financial transactions among producers/insureds and



USDA/OIG-A/03006-18-Te                                                                Page 5
                                   SEPTEMBER 2000
            entities controlled by producer 2 and his family, including a seed and grain
            company, a fertilizer company, and an insurance agency which wrote crop
            insurance contracts for a reinsured company.


                        Definition of Entities Associated with Producer No. 2

            During the 1998 crop year, producer 2 and/or his family members were
            stockholders in 4 entities that owned during the 1998 crop year 14 farms
            containing over 27,000 acres of cropland, about 9 percent of the county cropland.
            Producer 2 was also the 100-percent owner of another entity that was the
            producer on several farms. In recent years, producer 2 has not received program
            payments as an individual. However, he received program payments through the
            ownership interests in various corporations which were presented in records at the
            CO as the entities performing the actual day-to-day farming operations or owners
            or operators of the farmland. Our review of financial records of eight of the
            farming corporations showed that corporations owned by producer 2 and his family
            members received a majority of the program benefits paid to the farming
            corporations. The program payments were generally paid to the family-owned
            corporations, in which producer 2 had interests, as charges for farm operating
            expenses, land rental payments, and other undocumented reasons. The farming
            corporations cash leased farmland from the family-owned corporations.

            For audit purposes, we defined the following as having ties with producer 2.

            ·      The farmland was owned by corporations in which producer 2 or his family
                   members owned corporate stocks.

            ·      The farm operator was an individual or corporation that was an employee
                   or agent of one or more of the referenced family-owned corporations.

            ·      One or more tenants or the operator on the farm granted a power of
                   attorney to producer 2, a family member of producer 2, or an individual
                   who was an employee or consultant of one of the family-owned
                   corporations.

            ·      The farm operator was a corporation for which one of the above-referenced
                   individuals acted as agent for the corporation in signing FSA farm program
                   documents.

                                            The objective of the joint review by OIG and FSA
           OBJECTIVE                        was to expand on the SCOR findings to
                                            determine the extent and validity of reported
                                            problems with program administration at the
            Jackson FSA CO.




USDA/OIG-A/03006-18-Te                                                                Page 6
                                   SEPTEMBER 2000
                                            The    audit was initiated in June 1998 with the
              SCOPE                          fieldwork completed in February 2000. The audit
                                             was performed at the CO in Newport and at the
                                             Arkansas STO in Little Rock, and generally
            included transactions related to the 1992 through 1995 ARP, the 1993 and 1994
            disaster programs, and the AMTA program participation beginning in 1996 (it
            continues through 2002).

            Where applicable, we used system queries of computer-based data to identify
            program universes. We established data reliability through our reviews of the
            selected physical files. Exhibit C details CO payments to producers by program
            for calendar years 1992 through 1997.

            Based on our preliminary confirmation of the SCOR findings on ghost acres (acres
            planted after a failed crop which are not eligible for P&CP credit) and
            reconstitutions, the FSA National Office detailed to the CO an FSA task force
            which reviewed rice P&CP credit for 1993 through 1995 and reconstitutions for
            1992 and later years. (P&CP credit for 1993 through 1995 affected CAB’s for
            1994 and 1995 and contract acreage for 1996 and future years.) The task force
            also reviewed 1998 PFC payment eligibility. The task force determined whether
            basic eligibility documents were on file at the CO for each of the 1,013 producers
            who shared in the 1998 PFC payments.

            Based on our confirmation of the SCOR findings, the work performed by the task
            force, and other conditions that came to our attention during the audit, we
            expanded our coverage to include a review of

            ·      all reported 1993 and 1994 crop year failed and PP acres of rice double
                   cropped behind wheat (see exhibit F);

            ·      person determinations for the 1998 and 1999 crop years that involved 76
                   corporations with majority stockholders having 50-percent or greater
                   interests in the corporations;

            ·      1996 and 1997 crop year payment limitation records for eight producers
                   having ties with one family group (producer 2);

            ·      seven 1996 peanut quota transfers;

            ·      indicated actions by one producer to evade debt offset from program
                   payments that he was scheduled to receive;

            ·      about 14,000 CCC-issued checks between September 1, 1996, and
                   July 10, 1998, to determine the extent such checks had not been
                   processed or negotiated;




USDA/OIG-A/03006-18-Te                                                                Page 7
                                   SEPTEMBER 2000
            ·      complaints by one producer that he did not receive a 1993 disaster
                   payment for reported losses on soybeans, another complaint that the
                   farming activities of [ CAO] conflicted with [ CAO] duties in the CO;
                   and

            ·      the preparation and distribution of COC minutes for 1993 through June
                   1998.

            This audit was conducted in accordance with Government auditing standards
            issued by the Comptroller General of the United States. Accordingly, the audit
            included such tests of program and accounting records as considered necessary
            to meet the audit objective.

                                             OIG Investigations assisted us with our entrance
        METHODOLOGY                         into the CO to help secure the office and records
                                            for our unhampered review of CO operations and
                                            program administration.        The SCOR’s were
            present and cooperated with OIG during the audit to provide technical expertise
            for the areas under review and to facilitate correction of documentation for current
            program participation.

            The OIG initially controlled access to the CO and its records during the audit. In
            cooperation with the FSA National Office, the CO locks were changed, and OIG
            retained custody of the keys. The CO personnel were afforded reasonable access
            to the files, but were required to list the files removed as well as the dates, times,
            and reasons why they accessed the files, and the dates and times the files were
            returned. Auditors generally initialed and dated the list to certify the removals and
            returns of files. The list was retained in the working papers.

            Neither the STO nor the CO was notified of the audit prior to the beginning of
            fieldwork, since knowledge of the audit could have impaired audit evidence or
            otherwise encumbered the audit process. Additionally, when we commenced
            fieldwork at the CO, FSA National Office officials detailed [ CAO] and employee
            1 away from the CO.

            We reviewed employee misconduct investigation reports and the SCOR and
            ACOR reports as well as records maintained by the CO and STO. We interviewed
            CO and STO personnel, the COC members, and current and former [SAO] as well
            as the personnel who had performed the special and Arkansas COR’s at the CO.

            Based on preliminary audit findings, FSA detailed to the CO a task force to correct
            errors found or to perform actual reviews of program operations. The FSA
            National Office officials subsequently detailed the remaining CO employees away
            from the CO and detailed other (acting) employees, [
            CAO], to the CO to continue services to producers. All members of the task force,
            acting CO staff, and SCOR were FSA personnel from out-of-State, until November
            1998, when FSA employees from Arkansas were detailed to the CO to perform
            day-to-day CO operations.



USDA/OIG-A/03006-18-Te                                                                    Page 8
                                    SEPTEMBER 2000
            Also, as necessary to accomplish the audit objective, we interviewed producers
            and third parties, reviewed financial records of producers associated with producer
            2, and reviewed crop insurance claim records maintained by crop insurance
            companies.

            On February 2, 1999, FSA issued a report (Jackson County, Arkansas, Special
            Report) which compiled FSA findings at the CO. The information in the report
            concentrated mainly on the issues of reconstitutions and P&CP acreage problems.




USDA/OIG-A/03006-18-Te                                                                 Page 9
                                   SEPTEMBER 2000
            FINDINGS AND RECOMMENDATIONS



  CHAPTER 1 - BASES AND YIELDS MANIPULATED TO INCREASE PROGRAM
              BENEFITS


            The FSA task force review confirmed that farm reconstitutions were used to build
            CAB’s on nonparticipating farms. It also reported that P&CP credit was
            erroneously given for failed or PP rice reported after a failed wheat crop (such
            acreage should have been considered ghost acres). We also noted farms were
            erroneously given P&CP credit for failed or PP rice double cropped behind
            harvested wheat. In both of these situations, P&CP credit should not have been
            given because double cropping RBW was not a normal practice for the area. The
            improper P&CP credit was often used to build CAB’s on farms that had been
            reconstituted (divided) from parent farms. The parent farms retained the CAB’s
            and participated in programs while the new nonparticipating farms were used to
            build CAB’s. In most cases where new CAB’s were established, the COC
            established yields for the new CAB’s that were substantially higher than the
            established yields on the parent farms.

            The improper P&CP credit was given because the COC did not properly determine
            whether rice was normally double cropped behind wheat in the area and accepted
            producers’ self-certifications of intentions to plant. The FSA task force also
            identified six farms for which 1992 rice yields or 1993 rice CAB’s were increased,
            without authorization or justification, in the automated system. In addition, the task
            force found the COC had erroneously increased 1996 UPCN yields for 18 of 23
            UPCN farms participating in the 1998 farm programs. As a result of the improper
            actions, 1996 through 2002 PFC payments made or scheduled to be made were
            overstated by about $6.3 million (see exhibits A and D). While the task force
            adjusted payments for ghost acres (failed or PP rice behind failed wheat), it did not
            adjust payments for failed or PP rice behind harvested wheat. Ineligible payments
            totaling $335,818, as detailed in exhibit E, resulted from these improper actions.
            Deficiency payments during 1992 through 1995 for the affected farms also would
            have been overstated, but we did not determine the amount other than on six
            farms where unauthorized base and yield increases were made.




USDA/OIG-A/03006-18-Te                                                                  Page 10
                                    SEPTEMBER 2000
             Most of the manipulation of program requirements that resulted in improper actions
             to increase program benefits, as detailed herein, ultimately accrued to entities
             associated with one large producer in the county, producer 2. Over 93 percent of
             the overpayments identified in exhibit D (about $5.8 of $6.3 million) and about
             48 percent of the overpayments in exhibit E ($252,685 of $522,445) were made
             for operations on farms having connections to entities associated with producer 2.
             (See page 6 of the Background section of this report for a discussion of how we
             identified such entities and their ties to producer 2.)

             [    CAO] and a relative also benefited from these actions. Beginning in 1994,
             they leased rice land from landowners associated with producer 2 on which CAB’s
             had been built primarily through self-certified failed and PP rice acres on
             nonparticipating farms. These farms were subsequently combined with other
             farms, and some of them were used to build additional CAB’s while others were
             enrolled in farm programs under which [    CAO] and a relative received, or are
             scheduled to receive, about $490,000 in payments.

                                             Records
                                                   indicated manipulation of farm history
                                         data during farm reconstitutions permitted
 FARM RECONSTITUTIONS USED               producers to build rice CAB’s on new farms,
   TO CIRCUMVENT PROGRAM                 while full program benefits were paid on the
  REGULATIONS AND INCREASE               parent farms’ previously established CAB’s. Also,
   CROP ACREAGE BASES AND                the COC established rice yields for new farms,
                                         resulting from the reconstitutions, that were
             YIELDS
                                         substantially higher than rice yields on the parent
                                         farms.    The resulting improper CAB’s and
                                         increased yields were the basis for subsequently
         FINDING NO. 1                   overstated deficiency and PFC payments. The
                                         overstated PFC payments are detailed in
          exhibit D. Owners and operators made extensive use of farm reconstitutions to
          evade program regulations prohibiting CAB and yield increases on farms
          participating in farm programs. The CO personnel did not deter this practice
          because they did not follow program regulations for processing reconstitution
          requests and because they believed the reconstitutions were proper.

             The ultimate outcome of many of the reconstitutions was that CAB’s associated
             with individual farms in Jackson County were incorrect. As a result, both
             deficiency and PFC program payments (based on the CAB’s) were incorrect. The
             FSA National Office instructed the task force to make a complete review of 1992
             through 1995 reconstitutions and to correct PFC acreages and yields on the
             current (1998) farms as applicable for reconstitutions lacking required signatures,
             using the wrong methods of division, or otherwise completed in manners not
             consistent with reconstitution procedures.




USDA/OIG-A/03006-18-Te                                                                 Page 11
                                    SEPTEMBER 2000
                    As shown in exhibit D, CAB corrections for one crop sometimes affected the CAB
                    of another crop. When the reconstitutions were initially processed, the total CAB’s,
                    based on normal cropping history, could not exceed the farm’s total cropland.
                    Generally, FSA corrections resulted in lowering the rice CAB and increasing the
                    wheat or grain sorghum CAB that had been reduced when the rice CAB, generally
                    associated with double cropping P&CP credit, exceeded the farm cropland.

                    The CO employees and COC considered the reconstitutions properly processed
                    according to agency procedures, in spite of the fact that agency procedures
                    prohibited approving reconstitutions when the primary purposes were to increase
                    program benefits. Complacency on the part of the CO staff and COC members
                    permitted, or at least failed to stop, this practice. The complacency was illustrated
                    by the fact that often the agency Form ASCS-155, Request for Farm
                    Reconstitutions (ASCS-155), used to request a reconstitution of a farm(s) was not
                    signed and/or dated by the farm owner or operator; nor were verbal requests
                    documented in the file.

                    The reconstitution process generally divided the parent farm into new farms with
                    the rice CAB of the parent farm being segregated to a specific farm (or farms)
                    where cropland was sufficient to accommodate it. The other new farms received
                    no rice CAB’s and subsequently built CAB’s through P&CP rice credit based on
                    the farm operator’s self-certification of failed and PP cropping activity. (The
                    questionable nature of P&CP credit via the farm operator’s self-certification of crop
                    losses is further discussed in Finding No. 2.)

                    A reconstitution may be initiated by the farm operator, an owner, or by the COC.1
                    Owners may designate the manner in which the CAB’s are divided,2 although
                    building CAB’s is prohibited on participating farms.3 Generally, farms are to be
                    combined if they are under common ownership4, but farms under separate
                    ownership may be combined if all owners agree in writing.5 A farm division may
                    be required if part of the farm is sold. A multiple-ownership farm may be divided
                    whenever an owner requests in writing that the owner’s land no longer be included
                    in the farm.6



   1
       Forms ASCS 155, initiated by the COC, are not required to have owner or operator signatures unless farms are under different
ownership. Title 7, Code of Federal Regulations (CFR) 719.5, January 1, 1992, edition; FSA Handbook 2-CM (Revision 3), paragraph
70 A, dated December 5, 1991.

   2
        7 CFR, part 719.8 (c)(4), January 1, 1992, edition; FSA Handbook 2-CM (Revision 3), paragraph 122A, dated December 5,
1991.

   3
        FSA Handbook 5-PA (Revision 10), paragraph 726 B, dated October 23, 1992.

   4
        FSA Handbook 2-CM (Revision 3), paragraph 88 B, dated December 5, 1991.

   5
        FSA Handbook 2-CM (Revision 3), paragraph 89 B, dated December 5, 1991.

   6
        7 CFR 719.3 (d)(3), January 1, 1992, edition; FSA Handbook 2-CM (Revision 3), paragraph 112 A, dated December 5, 1991.




USDA/OIG-A/03006-18-Te                                                                                                 Page 12
                                                    SEPTEMBER 2000
                    Land properly constituted is to remain so constituted until a change in operation
                    or ownership occurs that requires reconstitution.7 The COC is required to
                    annually determine whether land is properly constituted and initiate action to
                    properly constitute all land that is improperly constituted.8 Farms are to be
                    reconstituted as soon as it is determined that a change has occurred that requires
                    the land to be reconstituted, and, to the extent practicable, is to be based on the
                    facts and conditions existing at the time the change requiring the reconstitution
                    occurred.9

                    Notwithstanding these provisions, a reconstitution is not to be approved if the COC
                    determines the primary purpose of the reconstitution is to increase program
                    benefits or to circumvent any other program provision.10 If the farm was
                    reconstituted because of a misrepresentation (including knowingly taking actions
                    to defeat program purposes), the farm is to be properly reconstituted, and the
                    effective date of such reconstitution for all purposes is to be retroactive to the date
                    the farm was improperly constituted.11 Descriptions of the five methods of
                    division follows.12


                       PRIORIT
                          Y          METHOD OF
                       ORDER          DIVISION                                    DESCRIPTION

                           1         Estate             The division of CAB’s and P&CP for a parent farm among the
                                                        heirs in settling an estate.

                           2         Designation by     The division of CAB’s and P&CP in the manner agreed to by
                                     Landowner          the parent farm owner and purchaser or transferee.

                           3         Contribution       The division of CAB’s and P&CP in the same proportion that
                                                        each tract contributed to the parent farm at the time of
                                                        combination.

                           4         Cropland           The division of CAB’s and P&CP in the same proportion that
                                                        the cropland for each tract or resulting farm relates to the
                                                        cropland on the parent tract or farm.

                           5         History            The division of CAB’s and P&CP according to the operation
                                                        normally carried out on each tract during the base period.



   7
        7 CFR 719.3(a), January 1, 1992, edition; FSA Handbook 2-CM (Revision 3), paragraph 69 A, dated December 5, 1991.

   8
        FSA Handbook 2-CM (Revision 3), paragraph 70 B, dated December 5, 1991.

   9
        7 CFR 719.7(a), January 1, 1992, edition; FSA Handbook 2-CM (Revision 3), paragraph 71 A, dated December 5, 1991.

   10
        7 CFR 719.3 (d)(9), January 1, 1992, edition; FSA Handbook 2-CM (Revision 3), paragraph 69 B, dated December 5, 1991.

   11
        7 CFR 719.7 (b)(3), January 1, 1992, edition; FSA Handbook 2-CM (Revision 3), paragraphs 75 A and B, dated December 5,
1991.

   12
        7 CFR 719.8, January 1, 1992, edition; FSA Handbook 2-CM (Revision 3), paragraphs 120 through 125, dated December 5,
1991.




USDA/OIG-A/03006-18-Te                                                                                            Page 13
                                                    SEPTEMBER 2000
                                Crop Yields Inappropriately Increased

            Crop yields on newly established (reconstituted) farms were higher than the yields
            that existed on the parent farms. These increased yields resulted in increased
            program payments under 1996 through 2002 PFC contracts. For example, under
            1992 reconstitution A20033, the parent farm’s rice payment yield was 3,216
            pounds per acre on a CAB of 75.1 acres.                After several subsequent
            reconstitutions, the resultant farm was enrolled in the 1996 through 2002 AMTA
            program with a rice payment yield of 5,165 pounds per acre on a CAB of 406.6
            acres.

            When the entire CAB and associated payment yield was given to only one of
            several farms divided from a parent farm, the other farms were used to build rice
            CAB’s usually though the use of failed or PP rice. The COC would then establish
            a payment yield by selecting three farms which were represented to be similar in
            nature. Generally, the three similar farms had established crop yields substantially
            higher than the parent farm had prior to the reconstitution. In essence, the
            reconstitution process was used to increase rice yields that could not otherwise
            have been increased.

            [CAO] and a Relative Benefited from Reconstitutions and Building CAB’s

            [ CAO] and a relative were the beneficiaries of the reconstitution process where
            cropland in excess of the CAB was split from the parent farm to build new rice
            CAB’s (generally at higher yields than the parent farm) and to use PP and failed
            rice to get P&CP credit. It started in 1992 when farm 68 was divided into nine
            farms with farm 100 receiving the entire 1,847.7 rice CAB, while the other eight
            farms received no CAB’s. The newly created farms should have received the
            same proportion of CAB that each tract contributed to the parent farm; however,
            someone in the CO, without authorization or justification, changed the contribution
            percentages in the automated computer system. The other farms were used to
            build CAB’s. One of these other farms, farm 95, had 327.8 acres of failed rice in
            1992 from which, during reconstitution A30048, farm 111 received a 36 CAB (farm
            112 received the remaining 73.3 CAB). Farm 111 was combined with farm 120
            to make farm 121 with a 36 rice CAB. The farm manager for producer 2 certified
            for 1993 that the farm had 68.5 acres PP rice and 134 acres failed rice resulting
            in a new rice CAB of 103.5 acres (68.5 plus 134 divided by 3 plus 36).

            With reconstitution A40079, farm 121 was divided into farms 130 and 131 with
            CAB’s of 12.1 and 91.4 acres, respectively. Farm 112 (having previously received
            73.3 CAB from farm 68 and having 327.8 acres of failed rice in 1993) was divided
            into four farms in 1994, two of which were farms 137 and 138 with CAB’s of 115.9
            and 69.9, respectively. For 1994, farm 137 with its 115.9 CAB was combined with
            farm 141 which had received the entire 91.4 CAB from farm 131 to form farm 143
            with a 207.3 CAB. This farm, owned by a corporation associated with producer
            2, was enrolled in the 1994 ARP by [      CAO] relative (41 percent) and a




USDA/OIG-A/03006-18-Te                                                                 Page 14
                                    SEPTEMBER 2000
            corporation equally owned by [ CAO] and a relative (59 percent), who certified
            the farm had 178.3 acres of failed or ghost rice. They were paid $36,910. [
            CAO] relative also participated in the 1994 ARP and received $12,443 on farm 145
            (owned by a corporation associated with producer 2) with a 69.9 CAB, all of which
            were certified failed. (Farm 138 with 69.9 CAB and farm 142 with no CAB
            combined to make farm 145.) During 1994, [        CAO] relative (69 percent) and
            a corporation owned equally by [        CAO] and a relative (31 percent) certified
            nonparticipating farm 144 (owned by a corporation associated with producer 2),
            which had a 0 CAB, had 209 acres of failed rice. This established a 69.7 CAB
            (209 divided by 3) that was transferred via reconstitution A50008 to farm 149.

            Via reconstitution A50010, which [     CAO] approved despite having interests in
            the farms, farms 143, 148, and 149 were combined into farm 152 (owned by a
            corporation associated with producer 2) with a 312.9 CAB that was enrolled in the
            1995 ARP and received $43,830 by [        CAO] relative and a corporation equally
            owned by [      CAO] and a relative. The corporation owned by [      CAO] and a
            relative also received $12,298 under the 1995 ARP on farm 153 (owned by a
            corporation associated with producer 2), which had an 86.3 CAB acquired via
            reconstitution A50011, also improperly approved by [ CAO] who had an interest
            in the farm, combining farms 145 and 150. Also, during 1995, [     CAO] relative
            planted 92 acres of rice on nonparticipating farm 151 which had no rice CAB.

            In 1996, via reconstitution A60061 approved by the COC, farms 151, 152, and 153
            were combined into farm 163 (owned by a corporation associated with producer
            2) with a 506.1 CAB. Part of the farm was enrolled by [    CAO] relative (.3184
            share) and the corporation equally owned by [       CAO] and a relative (.5435
            share) in the 7-year AMTA program under which they will earn about $384,338.
            The remaining .1381 share was enrolled by a corporation related to producer 2.

            In summary, [ CAO] and a relative were the primary beneficiaries of a series of
            farm reconstitutions occurring over a 5-year period that built CAB’s primarily
            through the use of PP and failed rice acres on nonparticipating farms that were
            subsequently combined with other farms and enrolled in the programs. As a result
            of these actions, [    CAO] and a relative have received, or are scheduled to
            receive, about $490,000 in 1994 and 1995 ARP and 1996 through 2002 PFC
            payments that resulted from their leasing of farms owned by corporations
            associated with producer 2.

                              Purported Land Sales to Family Members

            In 1994, farm 112 was reconstituted as farms 136, 137, 138, and 139 using the
            owner designation method. Farm 112 was owned by corporation 38, whose
            president and secretary-treasurer were husband and wife. The corporation sold
            274 of the 382 acres that constituted farm 112. The CO records contained copies




USDA/OIG-A/03006-18-Te                                                               Page 15
                                   SEPTEMBER 2000
            of recorded warranty deeds that were used to justify the owner designation method
            used to process the reconstitution and distribute the rice CAB, as follows.


                                              ACRES OF
                                   FARM       FARMLAND        RICE CAB

                                    136                81.0           0.0

                                    137               128.0         115.9

                                    138                77.0          69.9

                                    139                96.0           0.0



            Farm 136 was sold to an unrelated party. Farm 137 was divided to the
            corporation’s president (husband); farm 138 was divided to the secretary-treasurer
            (wife); and farm 139 was retained by the corporation. These transfers among the
            corporation’s stockholders allowed the entities to build rice CAB’s and increase
            program benefits as the entities earned deficiency payments in 1994 and 1995 on
            the two farms with rice CAB’s and built a rice CAB on the third. These improper
            CAB’s were also enrolled in AMTA program PFC’s. As previously discussed (see
            bottom of page 14), [ CAO] and a relative were the ultimate beneficiaries of the
            rice CAB’s allocated to farms 137 and 138 in that they enrolled the resulting farms
            in farm programs after they were subsequently combined with other farms.

            Another reconstitution (A20033) involving farm 50 was processed in 1992 using
            the owner designation method based on the reported sale of land to a husband
            that was previously owned jointly by the husband and his wife. The CO was
            provided with a copy of a quitclaim deed that was used as justification for
            approving the reconstitution. There were seven subsequent reconstitutions
            between 1992 and 1994, with the last one consolidating all the previously created
            farms into one, as shown in the following diagram.




USDA/OIG-A/03006-18-Te                                                                Page 16
                                   SEPTEMBER 2000
            As shown, the husband and wife received rice deficiency payments in 1992 and
            1993 on the original 75.1 acres of CAB while building CAB’s on other new farms
            that did not receive rice CAB’s. Through the use of reconstitutions and P&CP
            credit for planted and failed rice, the producers increased the 1992 rice CAB of
            75.1 to 406.6 acres as of 1996 when the CAB’s were enrolled in AMTA. The rice
            yield also increased from 3,216 pounds in 1992 to 5,165 pounds in 1996.

            During the audit, FSA reduced the rice CAB from 406.6 acres to 366.2 acres. The
            questionable increase in yield from 3,216 pounds to 5,165 pounds was not
            corrected by FSA during the review.

            The FSA adjustments on this case involved CAB’s created through improper P&CP
            credit on the nonparticipating farms, but FSA did not address the issue of



USDA/OIG-A/03006-18-Te                                                             Page 17
                                   SEPTEMBER 2000
            reconstitutions using land sales among family members when the only effect on
            operations was to increase program benefits. In accordance with aforementioned
            program regulations, the farm sales between the family members and resulting
            farm divisions should not be allowed. Accordingly, the rice CAB should be
            reduced to the original 75.1 acres CAB, and starting in 1994, all program benefits
            earned on CAB’s in excess of 75.1 acres should be recovered. The difference
            was substantial since in 1996, farm 125 was paid $74,178 in PFC payments based
            on a CAB of 406.6 acres and a yield of 5,165 pounds but would have been paid
            only $8,526 had it been based on a 75.1-acre CAB and a yield of 3,216 pounds,
            a difference of about $460,000 for the 7-year life of the AMTA program (($74,178 -
             $8,526) x 7).


                    COC Did Not Adequately Evaluate Reconstitution Requests

            The CO [                                ] told us that land sales among either family
            members or corporations and their stockholders were not questioned. The [
              ] considered a recorded deed sufficient evidence that a land sale occurred. [
              CAO] was of like mind and told us there was nothing wrong or illegal with
            reconstitutions initiated as a result of land sales. [       CAO] and the COC said
            that when they approved the reconstitutions, they did not make determinations as
            to whether the reconstitutions were designed to increase program benefits. As
            previously stated, such determinations are required, and if the COC so determines,
            the reconstitution is not to be approved. We concluded that if the requests
            involving land sales to family members had been adequately evaluated, a prudent
            person should have questioned whether the reconstitution was designed to
            increase program benefits.

                         FSA Corrected Farm Records for Some But Not All
                                          Irregularities

            Of the reconstitutions illustrated as examples, all but one involved entities
            associated with producer 2. The FSA adjusted all CAB’s created by improper
            P&CP credit for ineligible ghost acres. However, FSA did not address the validity
            of the reconstitutions involving land sales among family members and/or
            corporations and their stockholders. We concluded that the primary effect of those
            reconstitutions was to increase program benefits, which was prohibited by agency
            procedures. The resulting CAB’s and yield increases corrected by FSA are
            reflected in the adjustments shown in exhibit D. These adjustments involving
            ghost acres, together with our recommended corrective action for improper P&CP
            credit for other than ghost acres, should correct the improper CAB’s on farms
            where FSA did not question the validity of the reconstitutions.




USDA/OIG-A/03006-18-Te                                                                  Page 18
                                    SEPTEMBER 2000
   RECOMMENDATION NO. 1


            Verify that rice CAB’s, yields, and payments for farms associated with [     CAO]
            (farms 143, 144, and 145 for 1994; farms 151, 152, and 153 for 1995; and farm
            163 for 1996 through 2002), with reconstitution A20033 involving land sales
            between a husband and wife (parent farm 50, and farms 88, 107, and 125) and
            with the cited corporations involving land sales to family members (farms 137, 138,
            and 139) are properly adjusted as part of the corrective action taken on
            Recommendations Nos. 2, 3, and 4.

            FSA Response

            The FSA determined the correct rice CAB’s and program payment yields for these
            and all farms subject to COR and audit review. The corrections were carried
            forward which resulted in the revision of the PFC’s effective for years 1998 through
            2002. The contract payment acres and payment yields reflected these corrections.

            OIG Position

            We are in agreement with the corrective action that has been taken; however, to
            reach a management decision, we need evidence that the overpayments relating
            to reconstitution A20033 have been collected or forgiven. During the audit, as
            shown in exhibit D, the rice CAB for farm 125 (resultant farm of reconstitution
            A20033) was reduced from 406.6 to 366.2 acres, but the 5,165 pound rice yield
            was not adjusted. We have since received information from the CO showing the
            rice CAB and yield have been adjusted to levels that existed on parent farm 50
            (75.1 acres CAB and 3,216 pound yield) before the reconstitutions.

                                             The Jackson COC improperly approved P&CP
                                           and/or disaster credit for 11,279.4 acres of RBW
    RICE BEHIND WHEAT WAS                  for 1993 through 1995. The P&CP credit included
    INELIGIBLE FOR ACREAGE                 8,289.9 acres of failed or PP rice and 6,384.6
              CREDIT                       acres of ghost rice (of which 3,398.1 acres were
                                           duplicated as failed and PP acres) as detailed by
                                           individual farms in exhibit F. This occurred
                                           because the COC did not properly determine
          FINDING NO. 2                    whether it was normal to double crop RBW and
                                           whether RBW was PP or failed because of natural
           disaster conditions. The improper P&CP credits for ghost acres, plus the
           unauthorized CAB and yield increases reported on this finding and Finding No. 3,
           resulted in overstated PFC payments made, or scheduled to be made, of
           $6.3 million as shown in exhibit D.




USDA/OIG-A/03006-18-Te                                                                 Page 19
                                    SEPTEMBER 2000
                                                      Doublecrop Must Be Normal

                   For cases of PP or failed program crop acreage on which any later different crop
                   will be planted, acreage is considered planted to the crop according to the
                   following table.13


                     IF...                           AND...                                  THEN...

                     Form ASCS-574 is                the second crop is not an               the later crop acreage shall be
                     approved for the first crop     allotment or poundage quota crop        ghost acres and not be considered
                     and the first intended crop                                             planted for P&CP credit, deficiency
                     was not harvested                                                       payments, or price support loans.
                     because of PP or failed
                     conditions

                     the producer elects to          the second crop is normally             the later crop acreage shall be
                     receive planted acreage         planted in a doublecropping             considered planted to the second
                     credit for the second           situation in the area after the first   crop and eligible for P&CP credit,
                     crop                            crop is taken to harvest                deficiency payments, and price
                                                                                             support loans.
                                                     Exception: If the second crop
                                                     has been planted in a
                                                     doublecropping situation after the
                                                     first crop was harvested during 3
                                                     of the past 5 years, the second
                                                     crop may be considered planted.


                   For disaster purposes, the historical cropping pattern on a farm and the cropping
                   pattern for the area determine whether a second different crop is a normal
                   doublecrop and eligible for disaster benefits. The COC must determine whether
                   the second crop was planted with the intent to harvest and if the farm has a
                   doublecropping history. A farm is considered to have a doublecropping history
                   when the following apply.

                             ♦         The specific first and second crops are normally planted in a
                                       doublecropping situation in the area, and

                             ♦         any crops were planted as doublecropped on the farm in either:

                                       •           the year prior to the disaster year or the corresponding year
                                                   in the rotation, or

                                       •           3 of the 5 years preceding the disaster year or the
                                                   corresponding year in the cropping rotation.14



   13
        FSA Handbook 5-PA (Revision 10), paragraph 1609 B, dated January 30, 1992, and December 22, 1994.

   14
      FSA Handbook 1-PAD (Revision 2), paragraphs 126 A and B, dated December 18, 1992 (applicable to the 1993 disaster
program). Handbook 1-PAD (Revision 3), paragraphs 148 A and B, dated November 23, 1994 (applicable to the 1994 disaster
program).




USDA/OIG-A/03006-18-Te                                                                                                  Page 20
                                                    SEPTEMBER 2000
                   The COC was not to approve PP or failed acreages claimed on Forms ASCS-574,
                   Application for Disaster Credit, unless the PP or claimed loss of production (in the
                   case of failed acreage) was due to a disaster rather than managerial decision.15

                                            Normalcy of RBW and Cause of Loss

                   The CO employees, COC, and producers maintained that RBW was a normal
                   practice in Jackson County, but could not provide any conclusive evidence to
                   support that contention. Although [  CAO] could not remember documenting in
                   the COC minutes that RBW was a normal practice, [ CAO] considered it normal
                   because it was "possible." We discussed the normalcy of farming RBW with each
                   of the CO employees, COC members, crop consultants, producers, and the county
                   extension agent.

                   As evidence of the feasibility of RBW, the county extension agent, current
                   extension (rice) agronomist, and a crop consultant16 presented a University of
                   Arkansas fertilizer recommendation for rice following wheat. However, we found
                   the fertilizer recommendation (in the University’s Rice Production Handbook) is
                   specific to rice which follows wheat "in rotation," that is, in a fixed order of
                   succession, not necessarily in the same crop year. The county agent interpreted
                   the fertilizer recommendation to apply to either rice following wheat in rotation or
                   to rice double cropped behind wheat. However, we noted the same paragraph in
                   the Rice Production Handbook includes fertilizer recommendations for rice
                   following rice "in rotation," rice following cotton "in rotation," and rice following grain
                   sorghum "in rotation." Even the county agent and crop consultant acknowledged
                   rice cannot be double cropped behind those crops. Therefore, we concluded the
                   University’s fertilizer recommendation was not specific to rice double cropped
                   behind wheat.

                   Another crop consultant provided a signed statement characterizing the practice
                   of double cropping RBW as a "common and acceptable practice," but later
                   admitted that RBW was "not a real common practice, but it was acceptable."
                   However, the crop consultant would not recommend it because it was a more
                   difficult practice to manage. The crop consultant said producers run the risk of cool
                   weather "on the backside" when the rice is flowering and have to use the right
                   agronomic practices to "bring the rice along."

                   During the audit, 57 producers attested that rice had been grown behind wheat in
                   Jackson County for several years and was considered to be a common practice,
                   but only 19 of the 57 producers provided affidavits that they had personally farmed
                   RBW. A total of 25 producers (including the 19) provided affidavits of their
                   histories of planting RBW for at least 1 year, but only 8 of the producers claimed




  15
       FSA Handbook 5-PA (Revision 10), paragraphs 1607 D and E, and 1608 A, dated January 30, 1992, and June 21, 1994.

  16
       A local seed plant manager.




USDA/OIG-A/03006-18-Te                                                                                        Page 21
                                                SEPTEMBER 2000
                   to have farmed RBW in 3 or more years. (The affidavits did not specify the year(s)
                   in which the producers farmed RBW or the numbers of acres or farm numbers on
                   which they farmed RBW.) We did not verify the producers’ claimed RBW histories.

                   The SCOR compiled CO records of the history and relative success of RBW in
                   Jackson County for 1989 through 1995. Information about the total rice acreage
                   in comparison to RBW acreage and the relative success of that practice is shown
                   in exhibit G. The SCOR specifically reviewed farm histories for 1992 through 1995
                   and found there were no farms during that 4-year period for which RBW was
                   reported for 3 or for all 4 years, and only 5 farms showed RBW in 2 of the 4 years.
                   The average RBW acreage for the 5 farms was 46 acres. As shown in exhibit G,
                   for each of the years 1989 through 1995, only a small percentage (no more than
                   about 7 percent) of the total rice in Jackson County was reported as following
                   wheat, and then, even less RBW was reported as a successful doublecropping
                   situation.

                   In addition, the SCOR performed a review of RBW in Woodruff County, Arkansas,
                   for 1992 through 1995, to determine if RBW was a normal practice in that adjacent
                   county. (Woodruff County adjoins the south side of Jackson County.) The review
                   disclosed that less than 1 percent of the rice in Woodruff County was reported as
                   having been double cropped behind wheat for each year reviewed.17 In each of
                   the 3 years, less than 500 acres were reported as double cropped RBW.

                   Further, in at least two different cases, the STC determined RBW was NOT a
                   normal practice in Jackson County:

                   •         A December 15, 1995, STO letter to Jackson County producer 16 (as
                             agent for producer 12) stated

                                       RBW requires favorable weather conditions during May and
                                       June to make the practice work. It is a management
                                       decision to try and make this practice work. There are very
                                       few RBW acres in Arkansas because producers know that
                                       it is a risky practice and does not bud itself in most years to
                                       plant due to normal Arkansas weather conditions.

                             Producer 12 was denied 1994 disaster benefits on farm 132 for
                             656.7 acres of PP RBW. This determination was upheld through a
                             National Appeals Division (NAD) hearing officer determination.




    17
       Like the Jackson COC, the Woodruff COC improperly approved P&CP credit for "ghost" rice (behind failed or PP wheat).
However, the SCOR determined such improper approvals did not adversely affect the Woodruff County farms’ P&CP credit. According
to the SCOR, with the exception of two farms (one in 1992 and one in 1995), the farms in Woodruff County were participating in FSA
production adjustment programs and were thus subject to other provisions which protected the farms’ P&CP rice acreages.




USDA/OIG-A/03006-18-Te                                                                                                Page 22
                                                   SEPTEMBER 2000
            •      An August 30, 1996, STO letter to Jackson County producer 27 (as a fee
                   basis agent for producer 38) stated

                           The STC also noted that the planting of RBW is not done
                           on a large basis across Arkansas. The reason is that it
                           takes ideal weather conditions for the double cropping
                           practice of wheat and rice to work. It is totally a
                           management decision to try and use this practice since it
                           can only be done under the very most ideal weather
                           conditions and wheat varieties that mature early must be
                           used. * * * Since this is a risky management decision the
                           practice is only used on a very limited basis by rice
                           producers in Arkansas.

            Producer 38 was denied 1994 disaster benefits on farm 37 for 981.7 acres of PP
            RBW. This determination was upheld by a NAD hearing officer and by a NAD
            Director’s review.

            As shown in exhibit G, the reported successful doublecropping of RBW increased
            during 1995 (1,812.8 acres compared to less than 400 acres in any of the prior 3
            years). The producers reported to FSA that both wheat and rice crops had been
            successful on the 1,812.8 acres. Although, the number of doublecropped rice
            acres increased in 1995, they still represented a nominal percentage (2.77) of total
            rice planted in Jackson County. We found that Federal Crop Insurance
            Corporation indemnity payments were paid on about 38 percent of the rice
            acreage (700.3 divided by 1,812.8) that was reported to the CO as double cropped
            behind wheat. These two facts further illustrate that doublecropping RBW was not
            a normal farming practice for Jackson County.

            Based on our collection and analysis of data from various sources, we concluded
            RBW was a limited practice not normal for the Jackson County area and the loss
            of rice in such situations was attributed to the management decision to plant in that
            manner. Thus, the COC generally should not have approved P&CP or disaster
            credit for RBW.

            The inappropriate approval of P&CP credit for ghost rice behind failed or PP wheat
            resulted in a total overstatement of 6,384.6 acres rice P&CP credit for 1993, 1994,
            and 1995 on 75 farms. (Exhibit F shows the affected acreage by farm for each
            year.) The CO should have considered the ghost acres ineligible for P&CP credit,
            deficiency payments, or price support loans. The SCOR determined the CO
            issued deficiency payments on almost all acreage that should have been
            considered to be ghost acres, but FSA did not take action to collect any of the
            deficiency payments or the 1996 and 1997 PFC payments based on the improper
            P&CP credit. Instead, FSA corrected the acres prior to the computation of 1998’s
            and subsequent years’ PFC payments.




USDA/OIG-A/03006-18-Te                                                                  Page 23
                                    SEPTEMBER 2000
                    During the audit, the FSA task force and SCOR recalculated contract acreage for
                    PFC purposes; they reduced 1993, 1994, and 1995 rice P&CP for ghost rice
                    behind failed or PP wheat, except for those participating farms with sufficient CU
                    acres for P&CP and flex acres to protect the CAB.18 The PFC payments for 1998
                    and future years will be based on the corrected contract acreage.

                    Of the 64 farms in exhibit D, there were 39 farms with rice CAB and/or yield
                    adjustments that received, or were scheduled to receive, erroneous PFC payments
                    of $6.1 million. Of the 39 farms, 15 were associated with entities having
                    connections to producer 2 and would have received about 96 percent ($5.8 million)
                    of the total overpayments. Also, FSA has not taken action to adjust CAB’s and
                    yields for the remaining 4,912.8 acres (total RBW of 11,297.4 less 6,384.6 ghost
                    acres) of P&CP credit for failed or PP RBW. Such adjustments will result in
                    questioned PFC payments of $335,818 on 15 farms, as shown in exhibit E.
                    Because of subsequent reconstitutions and rice CAB adjustments by the task force
                    for ghost acres, our computed adjustment in exhibit E did not include all farms
                    detailed in exhibit F. We did not attempt to quantify the monetary offset of these
                    adjustments under the 1993 through 1995 ARP, but are making appropriate
                    recommendations herein for FSA to do so.



       RECOMMENDATION NO. 2


                    Determine the amount of crop years 1993 through 1995 deficiency overpayments
                    that resulted from improper CAB and yield adjustments and recover these
                    payments for farms listed in exhibits D and E.

                    FSA Response

                    The FSA agreed with OIG’s finding that there were improper CAB and yield
                    adjustments. However, because of the apparent involvement of CO personnel, the
                    decision was made that collection of overpayments for 1993 through 1995 would
                    not be pursued unless criminal activity is determined by OIG.

                    OIG Position

                    Criminal and civil remedies are still being pursued. Our position on these
                    overpayments will be communicated to FSA after the investigation and legal
                    processes are completed. To reach a management decision, we will need
                    documentation to fully explain the rationale behind FSA’s position to forego
                    collection for cases where collection of the overpayment will not be pursued. We
                    request that no action be taken on the overpayments listed in exhibits H and I until
                    the investigation and legal processes are completed.


  18
       The task force also reduced rice P&CP for ghost rice behind failed or PP oats.




USDA/OIG-A/03006-18-Te                                                                         Page 24
                                                   SEPTEMBER 2000
   RECOMMENDATION NO. 3


            Obtain refunds of crop years 1996 and 1997 PFC overpayments of $1,555,706 for
            the farms identified in columns 8 and 9 of exhibit D. (Note: During the audit, 33
            entities associated with producer 2 created new corporations to replace those
            receiving PFC payments, many of which were identified as receiving overpayments
            in this report. If this was done to avoid offset of these identified overpayments,
            FSA needs to initiate appropriate action to hold the new entities liable for the past
            overpayments.)

            FSA Response

            The FSA agreed with OIG’s finding of overpayments on these farms. However,
            because of the apparent involvement of CO personnel in making improper
            payments, the decision was made that collection of PFC overpayments for 1996
            though 1997 would not be pursued unless criminal activity is determined by OIG.

            OIG Position

            Our position is the same as that stated for Recommendation No. 2. To reach a
            management decision, we need documentation to fully explain the rationale behind
            FSA’s decision to forego collection of the overpayments.



   RECOMMENDATION NO. 4


            Reduce 1993, 1994, and 1995 rice P&CP credit for PP or failed RBW other than
            ghost acres, adjust the improper CAB’s/contract acreage as applicable, and make
            the appropriate adjustments of $335,818 in the PFC payments for the 15 farms
            listed in exhibit E. Also recover 1993 through 1995 overpayments for those same
            farms.

            FSA Response

            The FSA verified and corrected 1993 through 1995 P&CP for all affected crops on
            the farms which were the subject of the COR and audit review. The corrections
            and CAB revisions were carried forward to the resultant PFC payment acres. In
            regard to the recovery of overpayments, FSA determined not to initiate collection
            unless criminal activity is determined by OIG because of the apparent involvement
            of CO personnel in making the improper payments.




USDA/OIG-A/03006-18-Te                                                                  Page 25
                                    SEPTEMBER 2000
            OIG Position

            The information we obtained from the task force showed that adjustments for rice
            P&CP credit for PP or failed RBW were not made if it did not involve ghost acres.
            For us to reach a management decision, we need evidence that CAB adjustments
            were made for the improper P&CP credit for the 15 farms listed in exhibit E. Also,
            we need additional documentation to fully explain the rationale behind the decision
            to forego collection of the overpayments.

                                            The FSA task force’s reviews of rice P&CP credit
                                          for 1993 through 1995, and reconstitutions for
  UNAUTHORIZED CHANGES TO                 1992 and later years, identified six farms for
  AUTOMATED FARM RECORDS                  which 1992 rice yields or 1993 rice CAB’s were
                                          increased in the automated system without
                                          authorization or justification. Also, unauthorized
                                          changes were made in the computer system that
        FINDING NO. 3                     allowed the rice CAB’s to be improperly
                                          distributed among divided farms. In addition, the
        task force found UPCN yields had been increased without authorization in 1996
        for 18 of 23 farms with existing UPCN CAB’s. The COC approved the UPCN yield
        increases when regulations prohibited such increases.

            As a result of the above actions, about $3.2 million in program benefits have been,
            or were scheduled to be, overpaid on the farms affected by the unauthorized CAB
            and yield changes (see exhibits H, I, and J). Further, benefits of almost $3.3
            million occurred to subsequent farms associated with one improper 1992
            reconstitution where contribution percentages were changed in the automated
            system. These overpayments pertaining to the 1996 through 2002 AMTA program
            are included in exhibit D. (There was some duplication in the two monetary
            amounts.)

            Specifically, we noted the following unauthorized changes were made to
            automated farm records.

            ·       Rice CAB’s were increased on four farms in 1993, increasing program
                    benefits by an estimated $2,021,068 from 1993 through 2002. (See exhibit
                    H.)

            ·       Rice payment yields were increased on two farms in 1992, increasing
                    program benefits by an estimated $1,002,244 from 1992 through 2002.
                    (See exhibit I.)

            ·       Cotton yields were increased on 18 of the 23 farms with a cotton CAB in
                    1996. Although such yield increases were not authorized by program
                    regulations, this action increased benefits on these farms by an estimated
                    $173,349 for 1996 through 2002. (See exhibit J.)




USDA/OIG-A/03006-18-Te                                                                Page 26
                                    SEPTEMBER 2000
                   ·        Changes were made in the contribution percentages used to allocate the
                            CAB of a parent farm (farm 68) to nine resulting farms. Producers on the
                            farms resulting from this reconstitution, and subsequent divisions and
                            combinations of the related farmland, have or would have received
                            increased total program benefits estimated at $3,280,424 for 1996 through
                            2002.

                   An "original" CAB can only be changed by an automated reconstitution or by
                   updating P&CP credit in the system.19 A CAB correction was to be documented
                   on Form ASCS-480, Documenting Corrections for CAB’s, and in the COC minutes.
                   The COC was to document how the error occurred, who was responsible for the
                   error, how the error was verified, and correct any incorrect data.20

                   Current year program payment yields are not based on actual yield data or proven
                   yields.21 Generally, the current year yield will be the 1990 program payment
                   yield,22 but may be updated for COC adjustments, to establish a new yield, or
                   due to an appeal.23 A change to the yield was made through the automated farm
                   crop record.

                   The entire questioned amounts associated with the unauthorized rice CAB and
                   yield changes ($2,021,068 and $1,002,244, respectively), discussed below, apply
                   to farms associated with producer 2. An additional amount ($27,093 of the
                   $173,349 total) pertaining to unauthorized cotton yield increases was also
                   applicable to farms associated with producer 2. Further, the unauthorized change
                   in contribution percentages involving the 1992 reconstitution of the original farm
                   68 involved farms associated with producer 2, with [ CAO] ultimately having an
                   interest in the rice on some of these farms. [     CAO ] relative and corporations
                   owned equally by [       CAO] and a relative received, or are scheduled to receive,
                   about $490,000 in deficiency and PFC payments on these farms (see Finding No.
                   1). Thus, the primary beneficiaries of the unauthorized changes discussed in the
                   subsection that follows were associated with producer 2, including [ CAO] and
                   a relative.

                                       Unauthorized Rice Yields and CAB Increases

                   Without justification or authorization, rice yields for two farms were increased in
                   1992, and rice CAB’s for four farms were increased in 1993. This occurred



  19
       FSA Handbook 3-CM SCOAP (Revision 1), paragraph 143 C 3, dated March 15, 1991.

  20
       FSA Handbook 5-PA (Revision 10), paragraphs 113 D and E, dated January 30, 1992.

  21
       FSA Handbook 5-PA (Revision 10), paragraph 142 A, dated January 30, 1992.

  22
       FSA Handbook 5-PA (Revision 10), paragraphs 144 A and 147 A, dated January 30, 1992.

  23
       FSA Handbook 3-CM SCOAP (Revision 1), paragraphs 145 A and C, dated April 24, 1992.




USDA/OIG-A/03006-18-Te                                                                        Page 27
                                                SEPTEMBER 2000
                   because someone accessed the CO automated system and arbitrarily increased
                   the established yields and CAB’s. These unauthorized changes went undetected
                   because controls designed to detect such errors were not functioning as intended.
                   As shown in exhibits H and I, overpayments totaling $2,021,868 resulted from the
                   CAB increases, and overpayments totaling about $1,002,244 resulted from the
                   yield increases, respectively. Rice yields or CAB’s were increased on six farms
                   in 1992 and 1993 as shown in the following table.


                                                                                           UNAUTHORIZED
                                        FARM          PER CO            PER REVIEW           INCREASE

                                                           1992 YIELD (POUNDS/ACRE)

                                            80                5,816                3,816               2,000

                                            87                5,238                4,238               1,000

                                                                1993 CAB (ACRES)

                                           115                975.5                775.5               200.0

                                           117                943.0                643.1               299.9

                                           118              1,528.6              1,228.6               300.0

                                           119              1,686.4              1,186.5               499.9

                                         Total              5,133.5              3,833.7              1,299.8




                   Automated computer transaction records for 1992 increased rice yields were not
                   available at the time of our review. Thus, while we could confirm from CO records
                   that the changes were made and that the changes were unauthorized, we could
                   neither determine the computer terminal used to affect the changes or the person
                   responsible, and no one admitted having made the changes. Likewise, for the
                   1993 unauthorized increased rice CAB’s for four farms, no one admitted making
                   the unauthorized transactions. However, we were able to document the dates,
                   times, and nature of the changes, along with the identification of the computer
                   terminal used to complete the changes.

                   Each of the four unauthorized CAB increases was affected on April 13, 1993,
                   when someone changed the farms’ P&CP histories for 1988 through 1992 in the
                   automated system, triggering an automatic recalculation of the 1993 CAB.24 The
                   individual signed onto the system using the communications’ User ID. (The
                   communications’ User ID was not assigned to any one individual. It was to be
                   used only to perform start- and end-of-day routines and backups, to initialize tapes
                   and diskettes, and to transmit data.) All CO employees reasonably had access to
                   the communications’ User ID password.



   24
      For rice, the CAB was the average of the P&CP from the immediately preceding 3-year period. A producer participating in the
production adjustment program for any crop on the farm was forbidden to build or increase any of the CAB’s for the farm.




USDA/OIG-A/03006-18-Te                                                                                               Page 28
                                                   SEPTEMBER 2000
                   The unauthorized increases were accomplished at the workstation assigned to
                   employee 3, who was out of the office, on April 13, 1993, the date when such
                   increases were affected. Employees 1, 2, 5, 6, 7, and 8 were in the office on April
                   13, as were two temporary employees. ([            CAO] was at the STO.) The
                   unidentified individual accessed the records for farm 117 at 1:27 p.m., farm 115
                   at 1:29 p.m., farm 118 at 1:34 p.m., and farm 119 at 1:36 p.m. The speed with
                   which the user accomplished the changes was indicative of a practiced familiarity
                   with the process of CAB corrections.

                   Each of the employees denied having increased the subject CAB’s and yields,
                   although [               ] CAB and yield adjustments at the CO acknowledged
                   increasing other CAB’s and yields in the normal course of business. [
                   ] was not aware of any [       ] office employee who knew how to make such
                   changes.

                   [    SAO] was required to review current year CAB adjustments at least twice
                   each crop year; the first review was to be completed at least 2 weeks before the
                   basic ARP signup, and the second review was to be completed at least 2 weeks
                   before the final certification date.25 To complete each review, [     SAO] was
                   required to run an automated current CAB adjustment report which listed CAB
                   adjustments made on active farms and on current year deleted farms.26 [
                   SAO] was required to verify CAB adjustments were correct, authorized, and
                   approved,27 and the SED was required to ensure [       SAO] properly performed
                   the CAB adjustment reviews.28

                   [    SAO] CAB adjustment reports for 1992 and 1993 were not on file at the CO;
                   only a report for 1991 and a report for 1996 were on file. [           SAO
                         SAO] at the time of the unauthorized CAB and yield increases) relied upon
                   the CO employees to run [       SAO] CAB adjustment reports and to present the
                   reports for review; otherwise, [    SAO] may not have performed the reviews.
                   According to [     SAO], the completed CAB adjustment reports were maintained
                   at the CO.

                   [   CAO] stated such increases would not have gone undetected by producers.
                   We noted each of the affected farms was operated during 1992 through 1998 by
                   a producer affiliated with producer 2. During the audit, the FSA task force
                   corrected the contract acreage and yields which resulted in reduced (improper)
                   payments for 1998 and future years. However, no action has been taken to
                   correct and recover prior years’ overpayments.


  25
       FSA Handbook 5-PA (Revision 10), paragraph 31 E, dated January 30, 1992.

  26
       FSA Handbook 5-PA (Revision 10), paragraph 31 C, dated February 24, 1993.

  27
       FSA Handbook 5-PA (Revision 10), paragraph 31 D, dated January 30, 1992.

  28
       FSA Handbook 5-PA (Revision 10), paragraph 30 C, dated February 24, 1993.




USDA/OIG-A/03006-18-Te                                                                       Page 29
                                                SEPTEMBER 2000
                   Information about these unauthorized CAB and yield increases has been referred
                   to OIG-Investigations.

                                             Unauthorized Cotton Yield Increases

                   The UPCN yields were increased without basis on 18 farms for 1996 and future
                   years. This occurred because the COC did not adhere to prescribed procedures.
                   As a result, yields were overstated for 1996 and future years. Based on the
                   corrected yields determined by the task force (averaging about 440 pounds per
                   acre), we estimate overpayments totaling $173,349 for the 1996 through 2002
                   PFC’s (see exhibit J). Of the 18 farms, 6 had ties to producer 2, with questioned
                   payments of $27,093.

                   The FSA task force found 18 of the 23 participating UPCN farms for 1998 had
                   yields of 727 pounds per acre; the remaining 5 UPCN farms had yields of less
                   than 450 pounds per acre. The FSA task force confirmed that the established
                   UPCN yields had been increased to 727 pounds per acre in 1996. A note
                   approved by COC member 2 on December 19, 1995, stated [       SAO] requested
                   the COC use Monroe County, Arkansas, FSA yields to set the higher UPCN yields
                   (727 pounds) due to low yields in Jackson County. The note listed nine yields
                   from Monroe County, ranging from 511 to 754 pounds per acre; the 727-pound
                   yield was the simple average of the three highest Monroe County yields.

                   The FSA procedures provide that three similar farms may be used to establish
                   program payment yields. If three similar farms are not available in the county,
                   yields are to be based on three similar farms in other counties, as determined by
                   the STC representative, i.e., [ SAO]. The yields established using three similar
                   farms, the farms receiving the yields, and the farms used to establish the yields
                   are to be documented in the COC minutes.29 However, there are no provisions
                   to increase yields for farms with existing crop records.

                   Generally, the COC, [CAO], [SAO], and [                  ] for yield adjustments
                   agreed the 727-pound UPCN yield was originally calculated for crop insurance
                   purposes on new (1996) UPCN farms. The CO sought yields from similar farms
                   in other counties because existing Jackson County UPCN farms were not
                   comparable to the new farms as to land and cultural practices. All agreed [
                   SAO] was involved in determining the similar farms used in assigning the UPCN
                   yields, but [  CAO        SAO] stated they were unaware such increased UPCN
                   yields were applied to farms with established yields.




  29
       FSA Handbook 5-PA (Revision 10), paragraph 147 A, dated September 17, 1993.




USDA/OIG-A/03006-18-Te                                                                     Page 30
                                                SEPTEMBER 2000
                    [    SAO       CAO] said they intended the Monroe County yields be used only to
                    establish yields on four or five new farms, and there was never any discussion
                    about using such yields to increase established UPCN yields. [     SAO] claimed
                    no knowledge of increases to existing yields; [      SAO] said no increases in
                    established yields were authorized in Jackson County or in any other county in the
                    district.

                    The increased 727-pound UPCN yield was assigned to 35 farms in 199630 and
                    documented in the minutes for the March 19, April 16, and July 30, 1996, COC
                    meetings as having been approved "for special cases" according to FSA
                    Handbook 5-PA (Revision 10), paragraph 147 (the three similar farms provisions).
                    The 727-pound yield was also documented and approved by the COC on a Form
                    ASCS-658, Record of Production and Yield, for each farm. We noted employee 7
                    made [       CAO] signature on the March 19, 1996, minutes in which were
                    documented 727-pound assigned yields on the majority (29) of the UPCN farms;
                    [    CAO] signed the April 16, 1996, and July 30, 1996, minutes in which were
                    documented yield increases on 4 farms. The COC [member] did not sign the
                    March 19 or July 30, 1996, minutes, and [    SAO] presence was not documented
                    in the minutes for any of the subject meetings.

                    Employee 2 stated [      SAO] said to set the 727-pound yield "across the board"
                    for all Jackson County UPCN farms. Employee 2 was troubled about adjusting
                    established UPCN yields, but said [ SAO] specifically directed the existing yields
                    be increased, contrary to procedure. [ SAO] said employee 2 was not directed
                    to increase established yields. [ SAO] did not remember employee 2 discussing
                    concerns about changing established yields. In fact, [    SAO] said employee 2
                    asked (both before and after the UPCN yields were set) if the CO could raise
                    yields for producer 2, and [      SAO] replied "no."31 [     SAO] denied being
                    previously aware of the increased UPCN yields; however, [         SAO] recalled
                    having repeatedly told the COC it could not raise yields.

                    COC members 2 and 3 said they were aware established UPCN yields had been
                    increased, but they were under the impression UPCN yields (specifically) could
                    be increased. They believed [     SAO] was at the applicable COC meeting(s) or
                    was at least closely involved in the process of increasing the UPCN yields.
                    However, the COC [member] was unaware established UPCN yields were
                    increased using the Monroe County yields. The [member] believed [ SAO] was
                    present during at least one of the applicable COC meetings.



    30
       The 35 farms include 2 farms for which the increased yields were not documented in the minutes: Farm 12, for which the
increased (727-pound) UPCN was assigned in 1997, after it had been "overlooked" when UPCN yields were previously "reset," and
farm 58.

    31
       We performed a cursory review of the 1996 PFC producer shares for the farms with the increased (727-pound) UPCN yields.
Nothing came to our attention to indicate such increases were for the sole benefit of producers affiliated with producer 2; we noted
only three such affiliated producers who shared in 1996 PFC payments on five increased (727-pound) UPCN yield farms, i.e., producer
33 on farm 159, producer 19 on farms 162 and 164, and producer 36 on farms 161 and 166.




USDA/OIG-A/03006-18-Te                                                                                                  Page 31
                                                    SEPTEMBER 2000
                    Prior to the CO’s issuing revised Forms ASCS-476, Notice of Acreage Bases,
                    Yields, Allotments, and/or Quotas, the STC representative was required to review
                    the yields and concur the yields were established using three similar farms.32 We
                    found nothing in the CO files to showed that an STC representative reviewed the
                    yield increases. The August and September 1997 [SAO] checklists show [
                    SAO] reviewed CAB and yield adjustments for FY’s 1996 and 1997.

                    [       SAO] did not remember whether the CAB/contract acreage and yield
                    adjustment reports were run per the August and September 1997 checklists;
                    copies of the reports should have been filed at the CO.33 Regardless, [
                    SAO] said the CAB and yield adjustment reports for 1996 and 1997 were not
                    reliable when run. [     SAO] did not believe the CAB/contract acreage and yield
                    adjustment reports would have shown the increased UPCN yields for 1996 since
                    the yields were increased before the implementation of AMTA.34 According to [
                      SAO], if the yield increases were on the report, [  SAO] did not notice them.

                    We are not making a separate recommendation concerning overpayments for the
                    improper UPCN yield increases because they are included in Recommendation
                    No. 3 and related exhibit D. However, a determination is needed as to whether
                    administrative action should be taken against responsible personnel.

                             Unauthorized Changes to Automated Farm History Data Base

                    In 1992, unauthorized changes to contract percentages were made in the
                    automated farm history data base affecting reconstitution A20033 involving a large
                    farm (farm 68) associated with producer 2. The unauthorized changes affected the
                    percentages by which the computer system allocated the rice CAB of the parent
                    farm (contribution method) to the nine farms resulting from the reconstitution.
                    (Other issues related to the participation of [  CAO] and a relative concerning
                    this reconstitution are presented on page 14 of Finding No. 1.)

                    Contribution percentages are determined when two or more farms are combined
                    into one farm. Each farm contributes CAB to the new farm. By maintaining this
                    information, if the farm is later divided, FSA can return the CAB to the tract of farm
                    that contributed it.

                    Three tracts of parent farm 68 were divided into eight tracts to enable the producer
                    to divide the farm into nine farms (farms 92, 93, 94, 95, 96, 97, 98, 99, and 100).
                    Sometime during the 6 days between the tract divisions and the farm division, the



   32
        FSA Handbook 5-PA (Revision 10), paragraph 147 B, dated December 22, 1994.

    33
       We were unable to locate any CAB and yield adjustment reports on file at the CO. There were only 1991 and 1996 [SAO] CAB
adjustment review reports on file. (The 1996 report was dated May 23, 1996.)

    34
       FSA National Notice PF-59, dated June 19, 1997, informed county offices that a new software release revised the former CAB
adjustment report to provide a CAB/contract acreage and yield adjustment report.




USDA/OIG-A/03006-18-Te                                                                                               Page 32
                                                   SEPTEMBER 2000
            parent farm’s contribution percentages were changed in the automated system.
            This allowed the parent farm’s 1,847.7-acre rice CAB to be assigned to only one
            of the nine resulting farms (farm 100). In program years 1993 through 1995, rice
            was reported planted or PP on the eight farms that received "zero" rice CAB.
            Because no rice CAB was established on these farms, new rice payment yields
            were established in 1993 using three "similar" farms. All "similar" farms had yields
            higher than the original parent farm.

            By moving all of the CAB to one farm, the farm operator was allowed to build rice
            CAB on the original farm’s excess acreage and at the same time participate in
            ARP on the original parent farm’s rice CAB. In addition, the rice CAB’s and
            increased yields on the eight resulting farms substantially increased the payments
            on those farms, and subsequent farms for future production adjustment and AMTA
            programs.

            A total of 36 farms were affected by this 1 farm reconstitution from 1992 through
            1998. As these subsequent reconstitutions resulted from the original parent farm,
            five farms (farms 133, 163 ([CAO] and a relative participated on this farm), 165,
            166, and 174) have participated in the AMTA program where they have received,
            or are scheduled to receive, $3,280,424 in 1996 through 2002 PFC payments (see
            exhibit D). Expressed in terms of percentages, the five farms account for
            52 percent of the total questioned payments presented in exhibit D. During the
            review, the task force corrected the contribution percentages for farm 68 and
            corrected the resulting farms’ CAB’s. Further, we previously recommended
            (Recommendation No. 2) that FSA determine and recover applicable 1993 through
            1995 deficiency payments resulting from improper CAB and yield adjustments
            which would include these farms. We have not, however, determined the amount
            of questionable ARP payments for the 1993 through 1995 program years resulting
            from these actions, except with regard to [    CAO] and a relative as referenced
            in Finding No. 1.


     RECOMMENDATION NO. 5


            Recover 1993 through 1995 ARP deficiency payments totaling $650,734 for the
            four farms listed on exhibit H. Also, recover 1992 through 1995 ARP deficiency
            payments totaling $399,982 for the two farms listed on exhibit I. (Note: The PFC
            overpayments listed on exhibits H and I are included in Recommendation No. 2
            and exhibit D.)

            FSA Response

            Because of the apparent involvement of CO personnel, FSA will not pursue
            collection of the overpayments unless criminal activity is determined by OIG.




USDA/OIG-A/03006-18-Te                                                                 Page 33
                                    SEPTEMBER 2000
            OIG Position

            The unauthorized base and yield increases that caused the overpayments detailed
            in exhibits H and I are under investigation. Our position on these overpayments
            will be communicated to FSA after the investigation and legal processes are
            completed.


     RECOMMENDATION NO. 6


            Take administrative action against responsible personnel for unauthorized UPCN
            yield increases, questionable approvals of farm reconstitutions and yields, and
            improper P&CP credit for CAB’s.

            FSA Response

            The FSA has taken action to separate two CO employees who were responsible
            for irregularities detailed in the report. Another employee was given a 2-week
            suspension without pay and restored to duty in another CO.

            OIG Position

            Although we are in agreement with the corrective action that has been taken,
            further administrative action may be necessary when the results of the OIG
            investigation of the unauthorized CAB and yield increases are known. Our position
            on this matter will be communicated to FSA after the investigation and legal
            processes are completed.




USDA/OIG-A/03006-18-Te                                                              Page 34
                                   SEPTEMBER 2000
  CHAPTER 2 - DISASTER PROGRAM MANIPULATED TO INCREASE BENEFITS



            As  shown in exhibit K, we identified numerous irregularities associated with
            disaster claims for 1993 and 1994 on 45 farms. These included

            ·      failed or PP RBW on acreages having little or no history of producing rice,

            ·      claims made by producers or entities that did not have any prior interest in
                   the farming operations,

            ·      failed or PP rice losses claimed even though soybeans were initially
                   certified or intended for planting after the wheat,

            ·      reported land preparation on PP RBW indicating levees were not in place,
                   so the rice could not have been planted until after the wheat was
                   harvested, and

            ·      claims based on revised or late filed reports for which late fees were not
                   collected.

            We also found that cultural practices and weather data did not support claims that
            losses were due to excessive moisture. This information, together with the
            circumstances described above concerning the unreasonableness of the claims,
            led us to conclude that producers, with the knowledge and at least tacit approval
            of the CO staff who accepted self-certifications of losses without any verification,
            manipulated the program to claim disaster benefits for failed or PP rice that was
            never planted or intended for production. CO staff also improperly gave producers
            P&CP credit for failed or PP RBW on disaster acreages totaling 3,550 acres, the
            effects of which are included in the adjustments covered in Chapter 1. However,
            producers also incorrectly received P&CP credit for 999 acres of initial PP rice (not
            behind another crop) that is not included in the adjustments covered in Chapter 1
            and exhibit D. As a result of these actions, producers on the 34 farms identified
            in exhibit L received $637,316 in excessive 1993 and 1994 disaster benefits, and
            producers on the 12 farms detailed in exhibit E received, or were scheduled to
            receive, $186,627 in excessive PFC payments during 1996 through 2002.

            Of the $637,316 in questioned disaster payments, $542,460 (85 percent) were
            made to producers on 25 farms associated with entities having connections to
            producer 2 on 6,157.4 acres of the total 6,739.1 acres (91 percent) questioned.
            Included in this amount were all cases where disaster payments were made for
            ghost acres, which were not eligible for disaster benefits. These totaled 1,993.7
            ghost acres on nine farms in 1993 and 608.8 ghost acres on five farms in 1994 for
            which disaster payments totaling $293,650 were made.




USDA/OIG-A/03006-18-Te                                                                  Page 35
                                    SEPTEMBER 2000
                                            Improper     disaster claims on failed or PP rice
                                            should have been detected with adequate
   IMPROPER DISASTER CLAIMS                 verification prior to COC approval. The various
       SHOULD HAVE BEEN                     irregularities we have noted in this report went
           DETECTED                         undetected when processed by the CO because
                                            the COC generally accepted disaster
                                            self-certifications without independent verification
                                            of the losses claimed. As a result, erroneous
          FINDING NO. 4                     benefits totaling about $637,316 for 1993 and
                                            1994 on 6,739.1 acres were paid. (See exhibit L.)

            As presented in Finding No. 2, RBW was not a normal practice in Jackson County.
            This determination was borne out by the data presented in exhibit G, which shows
            only a small percentage (no more than about 7 percent) of the total rice in Jackson
            County for 1989 through 1995 was reported as having been double cropped
            behind wheat. Notwithstanding the rarity of the practice, reported RBW acreage
            increased conspicuously for 1993 and 1994, average RBW acreage for those
            years (5,641.5 acres) was 624 percent of the average for the 4 preceding years
            (904 acres) and 241 percent of the RBW acreage (2,343 acres) reported for the
            subsequent (1995) crop year.

            In general, for each year, 1992 through 1995, the percentages of failed rice and
            of PP rice in Jackson County were notably greater than in adjacent counties.
            Jackson County had about 15,700 acres of failed or PP rice in 1993, while
            Woodruff, Poinsett, and Craighead Counties had about 1,356, 5,907, and
            696 acres, respectively. For 1994, Jackson County had over 4,700 acres, while
            Woodruff, Poinsett, and Craighead Counties had 237, 767, and 6 acres,
            respectively. In addition, we noted PP RBW comprised about 90 percent of the
            PP rice in Jackson County for 1993 and for 1994, and failed RBW likewise
            comprised disproportionately large percentages of the failed rice for the county in
            those years.

            During this audit, as well as during the prior employee misconduct investigations,
            one employee contended rice reported as failed or PP for 1993 and 1994 in
            Jackson County was never planted or was never intended to be planted.
            According to the employee, producers reported PP rice well after the final planting
            dates and after soybeans had been certified on Form ASCS-578, Report of
            Acreage, as planted on the land. The employee said some of the farms did not
            have rice histories.

                             Producers Misrepresented Disaster Claims

            Producers filed claims for failed RBW and/or for PP rice (including both PP RBW
            and initial PP rice) totaling 9,288.9 acres on 41 farms for 1993 and 1994. We
            reviewed each claim and identified several irregularities which corroborated the




USDA/OIG-A/03006-18-Te                                                                Page 36
                                   SEPTEMBER 2000
                   allegations made by the employee and which led us to question the validity of
                   $637,316 in disaster claims totaling 6,739.1 acres on 34 farms. For example, we
                   noted the following.

                   •         Producers claimed failed RBW and PP rice on farms with no histories of
                             rice production in the preceding 3 years.

                   •         Purported failed and PP rice producers had no interests in the preceding
                             and/or succeeding crops farmed on the rice acreages in the same crop
                             year and had no other interests in the farms.

                   •         Producers certified on form ASCS-578 failed RBW and PP rice after
                             soybeans were certified and growing on the acreage.

                   •         Producers reported on form ASCS-574 they intended to grow soybeans
                             (and not rice) on failed wheat acreage where the wheat preceded the failed
                             or PP rice.

                   •         Producers late-filed forms ASCS-574 and ASCS-578 for failed and PP rice
                             and frequently certified and applied for credit on failed rice before PP rice
                             on the same farms.

                   •         Although producers claimed to have intended to plant (prevented) RBW,
                             most reported they disked the ground in preparation for the crop, which
                             indicates the producers had not constructed levees in the fall when wheat
                             was planted or in the spring when wheat was harvested. In these cases,
                             rice could not have been planted until after the wheat was harvested.

                   Exhibit K presents a summary of the irregularities identified by audit for each farm.

                   In discussing our findings with the CO employees during the audit, several said
                   they were aware of the irregularities and expressed reservations about the validity
                   of the claims. The COC members, on the other hand, professed to have been
                   generally unaware of such anomalies. The COC members stated they did not
                   review forms ASCS-578 as part of the forms ASCS-574 approval process and
                   generally accepted the producers’ self-certifications on forms ASCS-574 as
                   evidence of the claimed losses. A COC member told us the STO impressed upon
                   the COC that in a disaster year, the producers should be paid. It was the COC’s
                   understanding that they should not question the validity of claims, except that in
                   obvious cases, the COC was to give applicants the benefit of the doubt for 1993
                   disaster purposes.35




     35
        For the 1994 disaster program in Arkansas, the (former) SED directed [ SAO ] to review each 1994 disaster claim. The [SAO
] ultimately disapproved many of the applications approved by the COC. (The STO decision to review the 1994 disaster program was
a result of an OIG audit of the 1993 disaster program in Bradley County, Arkansas, Audit No. 03600-44-Te.)




USDA/OIG-A/03006-18-Te                                                                                               Page 37
                                                   SEPTEMBER 2000
                                         Purposes of Failed and PP Acreage Credit

                   The purpose of failed acreage credit is to provide planted acres credit for a crop
                   that failed because of natural disaster or other weather-related conditions.36 The
                   purpose of PP credit is to allow P&CP credit for those program crop acres that the
                   producer was unable to plant.37 Failed acreage is eligible for deficiency payment,
                   while PP acreage is not.38

                                                    Cultural Practices for RBW

                   The acreage in question was generally reported by the operator as RBW, failed
                   or PP due to excessive rainfall. For such acreage, harvested wheat was delivered
                   from June 15 to July 12 in 1993, and for the one producer for which we have a
                   harvest record in 1994, wheat was harvested between June 9 and July 21. The
                   county agent confirmed the delivery dates approximate harvest dates, and it
                   seemed apparent the producers could not have intended to plant RBW at such late
                   dates (2 weeks to 2 months after the final (May 31) planting date for rice).
                   However, after our preliminary review, we learned a few producers may have
                   sowed rice in standing wheat, i.e., the standing wheat crop was flooded with water
                   and rice was interseeded via aerial application.

                   The Arkansas Extension Rice Agronomist and the Jackson County Extension
                   Agent said when rice is interseeded in wheat, it is preferable to construct levees
                   in the fall prior to planting wheat. Wheat can be grown right on the levees, which
                   also makes the levees more stable. If producers construct the levees in the
                   spring, it is destructive to the growing wheat crop. The county agent told us the
                   rice is interseeded about 2 weeks before the wheat harvest, which typically occurs
                   June 10 to 15, with some wheat harvest beginning about June 5. The flood is left
                   on the field 2 to 3 days for the rice to germinate; then the field is drained. The
                   county agent estimates a wheat field would dry out in 7 to 10 days, allowing for the
                   wheat harvest.

                   According to the county agent, if a producer elects to conventional-till RBW, the
                   ground can be prepared and the rice can be planted within 1 or 2 days of the
                   wheat harvest. The agent said some of today’s short-season rice varieties may
                   be planted as late as June 15 to 20 and still be successful.

                   We noted for 17 of the PP RBW farms reviewed, producers claimed land
                   preparation included disking, which the county agent agrees indicates levees were
                   neither constructed in the fall nor in the following spring, and the producers did not
                   intend to interseed rice.


  36
       FSA Handbook 5-PA (Revision 10), paragraph 1608 A, dated January 30, 1992, and June 21, 1994.

  37
       FSA Handbook 5-PA (Revision 10), paragraphs 1607 A and B, dated January 30, 1992, and June 21, 1994.

  38
       FSA Handbook 5-PA (Revision 10), paragraph 1609 C, dated January 30, 1992, and December 22, 1994.




USDA/OIG-A/03006-18-Te                                                                                        Page 38
                                                SEPTEMBER 2000
                   Based on our discussions of the methods of doublecropping RBW, we questioned
                   how RBW could have been PP due to excessive rainfall. In those instances where
                   the rice was interseeded in the wheat and levees were constructed in the fall,
                   spring rainfall would have not precluded flooding the wheat and sowing rice seed.
                   It would be wrong for producers to claim excessive moisture prevented their
                   planting RBW in such cases when the fields would be intentionally flooded with
                   water as a routine part of such practice. In those instances where the producers
                   intended to construct levees in the spring, but could not because of excessive
                   rainfall, it seemed the PP was due to the managerial decision to wait and construct
                   the levees in the spring versus constructing the levees in the fall. It also stands
                   to reason such producers would be afforded an additional opportunity to prepare
                   the land and plant the rice after the wheat was harvested, if it was dry enough for
                   producers to harvest their wheat crops, it appears it would have been dry enough
                   to construct levees shortly before or immediately after the wheat harvest. We
                   questioned how it could have been too wet to plant rice at the same time it was
                   not too wet to harvest wheat.

                   Further, according to an [                         ], it is almost impossible to be
                   prevented from planting rice. In addition, the minimal evidential requirements for
                   a PP claim predispose such claims to abuse since a PP claim does not require
                   physical evidence of the crop.

                                              No Evidence of Excessive Moisture

                   We obtained and reviewed actual and normal39 rainfall data from National
                   Oceanic and Atmospheric Administration (NOAA) weather stations in and around
                   Jackson County. We considered data from 11 individual stations and from District
                   No. 3 as shown in exhibit M. As shown in exhibit M, such data fails to reveal a
                   general pattern of excessive precipitation in the months of March, April, or May in
                   1993 or in 1994.

                   For 1993, of the 11 individual weather stations considered, none had above-normal
                   rainfall in March. Although 6 stations reported above-normal precipitation in April,
                   the 11 stations were above average by only 0.18 inches for the month. Only three
                   stations reported above-normal rainfall in May. On average the 11 stations were
                   below normal by 0.09 inches.

                   For 1994, only two stations had above-normal rainfall in March. Although
                   5 stations reported above-normal precipitation in April, on average the 11 stations
                   were below normal by 0.03 inches. In May, all stations reported rainfall below
                   normal by an average of 3.13 inches.




  39
       NOAA defines normal as a 30-year average from 1951 to 1980.




USDA/OIG-A/03006-18-Te                                                                        Page 39
                                                SEPTEMBER 2000
                     In fact, NOAA data for the whole area comprising District No. 3, in which Jackson
                     County is located, did not support the producers’ claims that excessive moisture
                     was the cause of loss for rice in 1993 and 1994.

                             Producers Claimed Rice Losses on Farms With No Rice History

                     Before determining approval of a PP form ASCS-574, the COC is required to
                     consider the history of planting the crop on the farm in the past 3 years.40

                     As shown in exhibits K and N, about 30 percent (14) of the 45 farms on which
                     producers claimed failed RBW or PP rice in 1993 and/or 1994 had no histories of
                     producing rice during at least the preceding 3 years, including 13 farms on which
                     producers claimed PP rice.41 [       CAO] and COC members approved disaster
                     payments for PP rice in the absence of rice histories.

                     In addition, we noted at least one instance in 1993 (farm 57) in which a farm’s rice
                     history was far less than the claimed failed or PP rice acreage42 and three
                     instances (1994 farms 8, 9, and 37) in which the only rice history for a farm was
                     based on questionable failed or PP rice claims from the preceding year. See
                     exhibit N for details.

                     Further, as shown in exhibit N, operators certified all wheat was double cropped
                     with rice on 20 of the farms for 1993 and 1994. Two producers who had farmed
                     RBW and who were former COC members agreed it would not be normal for a
                     producer to double crop rice behind the entire wheat acreage. A current COC
                     member stated (and we confirmed to CO records) producers who had historically
                     double cropped RBW did not plant every wheat acre to rice. For 21 of the farms
                     reviewed, operators certified all rice on the farm had been double cropped behind
                     wheat.

                                        Rice Producers Had No Other Interests in Farms

                     For 24 farms, the purported rice producers did not certify interests in the previous
                     or the subsequent crops grown on the rice acreages, as shown in exhibits K and
                     O. In 18 of the 24 farms, the purported rice producers had no interests in either
                     the preceding or subsequent crops. (In the other 6 cases, the rice producers had
                     no interests in the preceding wheat crops but did show interests in the succeeding
                     soybeans or grain sorghum crops. For example, in 1993, farm 7 composed of
                     41.3 acres cropland, the operator (producer 38) certified the following.



   40
        FSA Handbook 5-PA (Revision 10), paragraph 1607 D, dated January 30, 1992, and June 21, 1994.

   41
        In fact, the farms on which operators claimed PP RBW often had little or no rice P&CP credit within the preceding 5 years.

   42
      For each of the preceding 5 years (1988 through 1992), the farm had 89.5 acres rice P&CP; for 1993, the operator claimed
252.9 acres PP and 1,284.9 acres failed RBW, for a total of 1,537.8 acres.




USDA/OIG-A/03006-18-Te                                                                                                 Page 40
                                                     SEPTEMBER 2000
                   •        Producer 3 had 100-percent interest in 41.3 acres of wheat (the first crop)
                            on field number 1;

                   •        producer 4 had 100-percent interest in 41.3 acres of PP rice (the second
                            crop) on field number 1; and

                   •        producer 3 had 100-percent interest in 41.3 acres of soybeans (the third
                            crop) on field number 1.

                   The COC members stated this type arrangement was not normal for the area, was
                   very unusual for a farming operation, and looked "fishy." In fact, we found the
                   purported rice producers generally did not certify (on forms ASCS-578) interests
                   in any other crops on the farms, and the producers did not disclose their purported
                   leasehold interests in the farms on their farm operating plans (forms CCC-502) on
                   file at the CO.43 The COC members stated such discrepancies in reported
                   interests were not brought to their attention, and agreed such arrangements were
                   questionable. On 22 of 24 farms, the purported rice producers were corporate
                   entities with business ties to producer 2.

                                  Soybeans Were Intended to be Planted Behind Wheat

                   For 11 farms where failed or PP wheat preceded the failed or PP rice, the farm
                   operators reported on forms ASCS-574 that they intended (after the wheat failed)
                   to use the land to farm soybeans only, i.e., as of March or April of the respective
                   crop year, the producers did not intend to plant RBW. (See exhibit K.)

                                          Producers Certified Soybeans Before Rice

                   As shown in exhibit K, for eight farms where failed RBW or PP rice purportedly
                   preceded soybeans, the operators actually certified the soybeans on forms ASCS-
                   578 before they certified the rice. (The soybeans were generally certified about
                   1 month before the rice was certified.) For example, on 1993 farm 7,

                   •        on March 24, 1993, the operator certified the first crop (wheat) on form
                            ASCS-578;

                   •        on June 29, 1993, the operator certified the third crop (soybeans) on form
                            ASCS-578;

                   •        on July 20, 1993, the operator filed form ASCS-574 for the second crop
                            (PP rice); and




    43
       The producers with interests in the preceding and/or succeeding crops on the farms did report such ownership/leasehold
interests on their CCC-502’s.




USDA/OIG-A/03006-18-Te                                                                                           Page 41
                                                 SEPTEMBER 2000
                    •         on August 5, 1993, the operator certified the second crop (PP rice) on form
                              ASCS-578.

                    The sequence of events, specifically the dates rice and soybeans were certified,
                    did not support the producers’ contentions that rice failed or was PP before
                    soybeans. There was no documentation in the CO farm or disaster files explaining
                    why soybeans were certified prior to the rice if, in fact, the producers had failed or
                    PP rice prior to the soybeans.

                        County Office Processing of Late-Filed Certifications and Applications

                    Rice was reported on late-filed forms ASCS-578 for 23 farms, and forms
                    ASCS-574 were late-filed for at least 23 farms. (See exhibits K and P.)

                    Operators are generally required to file rice on forms ASCS-578 and ASCS-574
                    as shown in the following table.


                                     TYPE                                                      FORM ASCS-574
                                     RICE           FORM ASCS-578 DEADLINE                       DEADLINE

                                  Failed          Within 15 calendar days after the date the abnormal
                                                  condition occurred or was obvious, but before physical
                                                  evidence of the crop is destroyed.44

                                  PP              July 31, 1993 (for 1993) and             June 1546
                                                  August 1, 1994 (for 1994)45



                                                        Late-Filed Forms ASCS-578

                    Late-filed forms ASCS-578 may be accepted, and, if all late-filed requirements are
                    met, the acreages will be used for all purposes, including P&CP for establishing
                    CAB’s. If the late-filed requirements are not met, the acreages will be used for
                    disaster purposes only and forms ASCS-578 will be manually processed (i.e., not
                    entered into the automated system) and labeled "for disaster payments program
                    only."47 Late acreage-reporting fees should be charged if the reported acreages




   44
        FSA Handbook 5-PA (Revision 10), paragraph 1608 E, dated July 10, 1992, May 14, 1993, and December 22, 1994.

    45
       Operators are required to file PP rice forms ASCS-578 by the final reporting date. The final July 15 reporting date for rice (a
spring-seeded program crop) was extended to July 31 for 1993 and to August 1 for 1994.

   46
        FSA Handbook 5-PA (Revision 10), paragraphs 1607 A and B, dated January 30, 1992, and June 21, 1994.

   47
        FSA Handbook 1-PAD (Revision 2), paragraph 122 B, dated January 14, 1992;
        FSA Handbook 1-PAD (Revision 3), paragraph 144 B, dated January 10, 1995.




USDA/OIG-A/03006-18-Te                                                                                                    Page 42
                                                     SEPTEMBER 2000
                    will be used for P&CP for establishing CAB’s.48 Also, if physical evidence of the
                    disaster crops is not available, the COC shall require producers to provide
                    evidence to verify the existence and disposition of their crops, e.g., seed receipts,
                    written contracts to produce the crop, receipts from the sales of crops, etc.49

                    For each farm on which disaster payments are requested, producers must report
                    on forms ASCS-578 all cropland and all crops produced on the farm during the
                    disaster year.50 To complete form ASCS-578, the operator is required to report
                    all of the following acreage by tract and field:

                    •         planted crop acreage, including doublecropped acreage;

                    •         intended planted crop acreage if planting will not be completed by the final
                              reporting date;

                    •         PP crop acreage;

                    •         failed crop acreage; and

                    •         other cropland.51

                    Although 17 of the farms for which rice forms ASCS-578 were late-filed were
                    nonparticipating, (i.e., the late-reported rice acreages were used as P&CP for
                    establishing CAB’s), there was nothing in the files to indicate the producers were
                    charged late acreage reporting fees or that the late-filed rice acreages were used
                    for disaster purposes only. Although physical evidence of disaster crops would not
                    have been available, there was no indication the producers provided evidence to
                    verify the existence and disposition of the crops.

                    Also, 7 of the 45 farms reviewed had both failed and PP rice (see exhibit P).52
                    However, for each of the farms, the operators certified and applied for credit on the
                    failed rice in June 1993 but did not certify or apply for PP rice credit until 1 to
                    3 months later (and after soybeans had been certified on the land on two of the
                    farms). There was no documentation in the files to explain why the operators
                    neither timely reported PP rice nor reported it when they reported the failed rice.




  48
       FSA Handbook 1-PAD (Revision 2), paragraph 122 C, dated January 14, 1992;
       FSA Handbook 1-PAD (Revision 3), paragraph 144 C, dated January 10, 1995.

  49
       FSA Handbook 1-PAD (Revision 2), paragraph 122 D, dated November 4, 1992;
       FSA Handbook 1-PAD (Revision 3), paragraph 144 D, dated November 23, 1994.

  50
       FSA Handbook 1-PAD (Revision 2), paragraph 122 A, dated January 14, 1992;
       FSA Handbook 1-PAD (Revision 3), paragraph 144 A, dated January 10, 1995.

  51
       FSA Handbook 2-CP (Revision 14), paragraph 77 A, dated October 20, 1992.

  52
       Two of the farms (1993 farms 53 and 94) contained PP rice and initial failed rice, i.e., the failed rice was not RBW.




USDA/OIG-A/03006-18-Te                                                                                                   Page 43
                                                     SEPTEMBER 2000
                                                    Late-Filed Forms ASCS-574

                    A late-filed form ASCS-574 may be accepted provided it contains sufficient
                    information to determine the PP or claimed loss was due to a recognized disaster.
                    A farm visit is generally required to verify the disaster and determine acreage, but
                    the COC may approve a late-filed form ASCS-574 without a farm visit if the COC
                    has knowledge the disaster condition exists and if (in the case of failed acreage)
                    Risk Management Agency (RMA) verifies evidence of the crop or disaster, if
                    applicable. Otherwise, a late-filed form ASCS-574 may only be approved if the
                    operator pays the cost of the farm visit and evidence of the disaster is still
                    apparent.53

                    The late-filed forms ASCS-574 for 1993 rice crop losses were filed from July 19,
                    1993, through March 25, 1994, making some claims late by almost 1 year. Of the
                    forms ASCS-574 questioned by OIG, three-fourths (15 of 20) were filed on July 20,
                    1993, and approved by the COC on the same day. Further, the corresponding
                    acreage certifications were not filed until about 2 weeks after the COC approved
                    the claims. It is apparent the COC approval process was no more than a
                    perfunctory review of forms ASCS-574.

                                                                Examples

                    We question how, in some cases, rice was both PP and failed on the same farms.
                    (See exhibit P, count numbers 6, 10, 15, 17, 23, 28, and 33 for 1993.) Further,
                    considering the flexibility in options for planting RBW, i.e., constructing levees in
                    the fall or in the spring to interseed rice in the wheat or conventional-tilling rice
                    after the wheat crop is harvested, it appears the true cause of loss in the practice
                    of RBW is the management decision on how and when to plant it.

                    The COC is not to approve a PP form ASCS-574 unless preliminary efforts to plant
                    the crop are evident (e.g., land disked, seed and fertilizer delivered or arranged
                    for, etc.), and the PP was because of disaster rather than managerial decision.54

                    •        The COC approved PP forms ASCS-574 for rice following wheat despite
                             the absence of any evidence showing that efforts had been made to plant
                             the rice.

                    •        The COC accepted operators’ self-certifications as evidence of preliminary
                             efforts to plant PP rice. (There was nothing in the CO records or




    53
       FSA Handbook 5-PA (Revision 10), paragraphs 1607 F and 1608 G, dated May 14, 1993; paragraph 1608 H, dated December
22, 1994; and paragraph 1608 I, dated April 27, 1995.

   54
        FSA Handbook 5-PA (Revision 10), paragraphs 1607 D and E, dated January 30, 1992, and June 21, 1994.




USDA/OIG-A/03006-18-Te                                                                                         Page 44
                                                 SEPTEMBER 2000
                   annotated in the COC minutes to indicate the producers provided additional
                   evidence of their intent to plant rice. Many COC approvals of forms
                   ASCS-574 were not documented in the minutes.)

            •      There was not enough information on forms ASCS-574 to support eligible
                   disaster conditions.

            •      There were questions about the suitability of acreages for the production
                   of rice.

            •      The farms did not have histories of doublecropping RBW.

            •      The producers planted the PP rice acres to soybeans.

            Following are two examples of noted discrepancies in the applications for failed
            RBW and PP rice.

            In 1993 on farm 37, the COC approved form ASCS-574 for 1,130.4 acres of failed
            RBW and PP rice. Although no field visit was performed and the farm had no
            history of planting rice, the COC approved the farm’s total cropland for disaster
            and P&CP credit and paid the tenants $118,381. (See exhibits K and L.) In 1994,
            form ASCS-574 was again filed certifying 1,130.4 acres of PP rice. The CO [
               ] spot-checked this farm and reported that approximately 200 of the reported
            1,130.4 acres could be planted with the expectation of producing a rice crop, but
            that the topography of the remaining 900 or so acres was ridged and rolling.
            Although the COC stated they were confident that the [            ] could accurately
            determine if land was conducive to growing a rice crop, they approved payment
            for losses on 981.7 of the 1,130.4 acres. Later, it was determined that disaster
            benefits were not earned for 1994 losses because the producer could not provide
            sufficient evidence to support the existence of the stated disaster condition. With
            information showing that only 200 acres on the farm could produce rice, the COC
            did nothing to correct the 1993 disaster payments.

            In another case, the operator for the reported cash-rent tenants of farm 52 filed a
            form ASCS-574 on July 20, 1993, for 147.9 acres of PP RBW for a corporate
            entity. Form ASCS-578, dated April 28, 1993, showed the corporate entity had a
            100-percent interest in a wheat crop planted on the same 147.9 acres. However,
            a form ASCS-578, subsequently filed on August 3, 1993, showed the interest in
            the wheat crop belonged to an individual versus the corporate entity. The farm file
            did not contain information resolving the conflicting documentation of the
            ownership interest in the wheat crop and the lease arrangements for the farm.
            The acreage certification that should have been filed in conjunction with the form
            ASCS-574 reporting the PP rice was not filed until August 3, 1993.

            The operator, whose wife had an ownership interest in the farm, told us he leased
            the farm to a relative of the referenced individual on a crop-share basis. He said
            he did not know about another relative, or that the other relative had farmed the




USDA/OIG-A/03006-18-Te                                                                 Page 45
                                    SEPTEMBER 2000
            land. Additionally, he stated that rice had not been planted on the farm in several
            years, and he did not know that the 1993 disaster claim had been filed on the
            farm.

            We concluded that new or different entities were shown to have had interests in
            the disaster acres to prevent the owners and/or operators from receiving the
            disaster payment.

                                    Summary and Staff Comments

            In summary, we questioned the wisdom of approving disaster and P&CP credit on
            crops which were never planted when

            •      there was no evidence the producers intended to plant crops;

            •      there was no evidence conditions prevented the planting of the crops;

            •      the practice of RBW, for which disaster credit was requested, was not
                   normal for the area;

            •      applicants certified no interests in the farms’ operations earlier in the crop
                   year;

            •      crops were not timely reported;

            •      crops were not planted on farms within the past 3 years;

            •      applications for disaster credit were not timely filed;

            •      operators or producers had not provided certifications of all acreages
                   involved in farming operations;

            •      acreages were ineligible for disaster credits (i.e., ghost acres);

            •      neither the operators or producers provided sufficient competent evidence
                   supporting loss claims; and

            •      spot-checks of the operators’ claims had not been performed by the county
                   staff to verify the claimed losses.

            The erroneous payments resulted due to the lack of adequate verifications and
            documentation supporting loss claims. The perfunctory manner in which the CO
            staff processed disaster applications contributed to the overall deficiencies noted
            during our review.       We believe that most of the incorrect or inadequate
            information provided to the CO by producers could have been detected by the CO
            staff with greater due diligence to verify the claims.




USDA/OIG-A/03006-18-Te                                                                  Page 46
                                   SEPTEMBER 2000
            [                                                      ], told us of refusing to take
            one producer’s certifications of PP RBW on several farms because it was obvious
            the producer did not intend to plant rice as demonstrated by the fact that the
            producer had already certified planting soybeans behind the wheat crop. The
            employee also questioned the filing of forms ASCS-574 for PP rice after the June
            15 deadline on farms that had no rice CAB’s or, in the [        ] judgment, were not
            capable of successfully producing rice crops. [                           ] specifically
            remembered the incident because the certified soybean crops would have been
            knee-high and the (rice) crop insurance deadline had passed. When [                    ]
            told [   CAO] about the incident and declined to take the certifications that [
                 ] considered to be false, [ CAO] told [                          ] to discontinue
            taking them. Later, [         ] discovered that PP rice certifications had continued
            because [                    ] saw [     ] CO employees inputting them into the
            automated system.

            [             ] likewise expressed reservations about the validity of failed or PP
            RBW claims. [               ] told us it was CO policy to accept producer claims
            without question, and that the COC was responsible for determining the validity of
            the claims.

            [     CAO] could not recall any CO employees expressing concerns about the
            validity of failed or PP rice disaster claims. [     CAO] instructed the CO
            employees to complete forms ASCS-574 based on information provided by the
            producers. [      CAO] did not remember any instances in which CO employees
            refused to take the disaster applications or acreage reports because they
            questioned the validity of the claims.


     RECOMMENDATION NO. 7


            Determine whether the producers on the farms shown in exhibit L acted in bad
            faith regarding their reported disaster losses.

            FSA Response

            The FSA agreed with OIG that the reported disaster losses were questionable or
            erroneous. All acreage credit which was erroneously given based on the reported
            disaster losses has been corrected. However, FSA will not initiate further review
            of applications for 1993 and 1994 disaster program benefits unless criminal activity
            is determined by OIG.

            OIG Position

            We agree with the management decision.




USDA/OIG-A/03006-18-Te                                                                    Page 47
                                     SEPTEMBER 2000
     RECOMMENDATION NO. 8




            Recover 1993 and 1994 disaster program payments of $637,316 on farms detailed
            in exhibit L.

            FSA Response

            The FSA agreed with the OIG findings. However, FSA will not initiate any action
            to collect known overpayments of disaster program benefits unless criminal activity
            is determined by OIG. The audit revealed that both the producers and CO
            personnel erred in the application and approval processes.

            OIG Position

            An investigation of disaster payments has not been scheduled. For us to reach
            a management decision, we need additional documentation to fully explain the
            rationale behind the decision to forego collection of these overpayments.


     RECOMMENDATION NO. 9


            Take appropriate administrative action against the employees and COC members
            responsible for improper disaster benefits being provided to ineligible producers.

            FSA Response

            The FSA has taken administrative actions as outlined in the response to
            Recommendation No. 6. Other remedies include the reassignment of program
            duties and responsibilities, and when determined appropriate, dismissal and
            termination of agency employment.

            OIG Position

            As mentioned in the OIG position to Recommendation No. 6, further administrative
            action may be necessary when the results of the OIG investigation and criminal
            or civil proceedings are completed. To reach a management decision, we need
            information showing whether action will be taken against the COC, and if not,
            justification for not doing so. Also, we will need to know the results of any
            administrative action taken as a result of the OIG investigation and any resultant
            criminal proceedings.



USDA/OIG-A/03006-18-Te                                                                Page 48
                                   SEPTEMBER 2000
                                             Producers received P&CP credit for crop acreage
                                             represented by erroneous disaster claims. This,
     PREVENTED PLANTED                       in turn, often increased or established CAB’s that
    ACREAGE USED TO BUILD                    otherwise would not have occurred. As a result,
     CROP ACREAGE BASE                       over 6,700 acres of erroneous P&CP credit was
                                             granted, most of which has been accounted for in
                                             Chapter 1 with over $186,000 yet to be recovered
                                             or adjusted. (See the 12 farms identified in the
           FINDING NO. 5                     bottom half of exhibit E.)

            There were 29 farms in 1993 and 5 farms in 1994 where rice acreages claimed
            for disaster benefits were considered P&CP and used to increase the CAB on
            nonparticipating farms or to retain the established base on participating farms.
            The individual farms and amounts of disaster credit acreages are detailed in
            exhibit L.

            The total disaster rice payment acreages for both years were 6,739.1 acres, of
            which 2,602.5 were ghost acres, and P&CP credit adjustments were made as part
            of those detailed in exhibit D. Included in the P&CP credit for the disaster acreage
            was 3,550 acres of failed or PP RBW that are included in exhibit L and
            recommended for adjustment in Finding No. 1 of Chapter 1 (Recommendation
            No. 2). The remaining 586.6 acres of P&CP credit were for initial PP rice that we
            do not consider justified because of the previously mentioned evidence showing
            the claimed disaster losses for PP rice were not disaster related.

            Detailed in exhibit F are 999 acres of initial PP rice acres on farms where disaster
            claims were made. This acreage amount did not agree with the 586.6 acres shown
            in exhibit L because, in some instances, disaster payments were not approved for
            the PP rice, but the CO granted P&CP credit anyway, e.g., 251.6 acres of PP rice
            for farm 146 in 1993 that were not approved for disaster assistance. The P&CP
            credit for the 999 acres of initial PP rice resulted in questioned PFC payments of
            $186,627 on 12 farms detailed in exhibit E. We did not attempt to quantify the
            monetary results of the CAB and yield adjustments under the 1994 and 1995 ARP
            but are recommending that FSA do so.


    RECOMMENDATION NO. 10

                                           Reduce the 1993 P&CP credit for initial PP rice
            on the 12 farms detailed in exhibit E and make appropriate CAB and payment
            adjustments for such acreages regarding 1994 and 1995 acreage reduction and
            1996 through 2002 AMTA programs (OIG quantified the questioned PFC payments
            under AMTA to be $186,627).




USDA/OIG-A/03006-18-Te                                                                 Page 49
                                    SEPTEMBER 2000
            FSA Response

            The FSA has reviewed the farm records associated with these farms and corrected
            the farm records and revised the PFC’s effective for 1998 through 2002. No
            collection action will be initiated regarding the overpayments under the PFC’s
            unless criminal activity is determined by OIG.

            OIG Position

            Our records do not support FSA’s contention that the farm records for the 12 farms
            detailed in exhibit E have been reviewed and corrected. For us to reach a
            management decision, we need evidence that CAB’s and yields for the 12 farms
            have been corrected. Also for the resultant overpayments, we need additional
            documentation to fully explain the rationale behind the decision to forego collection
            of the overpayments.




USDA/OIG-A/03006-18-Te                                                                  Page 50
                                    SEPTEMBER 2000
  CHAPTER 3 - DEFICIENT PROGRAM ADMINISTRATION AND
              INADEQUATE OVERSIGHT


            Deficient program administration at the CO as well as the STO, as discussed in
            the two preceding chapters, allowed program requirements to be manipulated and
            circumvented to obtain millions in unearned or ineligible benefits. Those
            responsible for permitting the use of the reconstitution process and P&CP credit
            for failed or PP rice to build CAB's, the unauthorized changes in the automated
            data bases, and the "approval without question” approach to disaster benefits need
            to be held accountable for their actions or lack of actions. Appropriate
            recommendations have been made in these areas. However, we also noted that
            administrative processes were not properly handled. These included [          CAO]
            improperly approving reconstitutions of farms in which [        CAO] and a relative
            were involved and [       CAO] not reporting all financial interests. Further, COC
            decisions were not always documented in the COC minutes, and the minutes were
            not properly approved or timely submitted to the STO. There was also a major
            problem with backdated, unsigned, incomplete, and nonapproved program
            documents used to process program payments. In addition, we noted problems
            with the processing or handling of checks and producer payments. Current and
            approved farm operating plans, which were required and needed before issuing
            PFC payments, were not always on file. Majority stockholders were not combined
            with corporations for payment limitation purposes, and payment limitation data was
            not properly entered into the computer system. Actions had not been taken to
            correct the overpayment of prompt payment interest (PPI) and PPI payments had
            not been made for a 1993 disaster claim that had been approved for payment.
            We attribute these problems to poor administration and ineffective STO oversight
            of CO operations.

            The STO oversight, which was supposed to assure that FSA procedures are
            properly and consistently applied, was blatantly deficient. Clearly, [         SAO]
            should have been aware of the questionable P&CP credit for double cropping (PP
            and failed) rice when this was not a normal practice for the area. [       SAO] also
            should have assured that necessary reports were generated to determine whether
            bases and yields were proper and that disaster assistance was not being abused.
            Also, a followup review of CO operations by an ACOR was superficial and
            ineffective in that it reported previously identified problems were okay, and did not
            disclose problems reported in the SCOR review and our subsequent joint review.




USDA/OIG-A/03006-18-Te                                                                  Page 51
                                    SEPTEMBER 2000
                                                           [    CAO] approved reconstitutions for farms in
                                                           which [   CAO] had interests, and [        CAO] did
        COUNTY OFFICE ACTIONS                              not properly disclose all financial interests. Other
             IMPROPER                                      administrative deficiencies such as inadequate
                                                           COC minutes and records contributed to many of
                                                           the problems disclosed in this review going
                                                           undetected.      Information concerning these
                 FINDING NO. 6                             problems is discussed below.


                                        [CAO] Improperly Approved Reconstitutions

                   In violation of conflict-of-interest provisions, [ CAO] approved two reconstitutions
                   (A50010 and A50011) for farms in which [            CAO] had interests. (The third
                   reconstitution (A60061) cited by the special COR review was approved by a COC
                   member.) [       CAO] claimed to be unaware of approving reconstitutions for such
                   farms. Additionally, there was no documentation that the COC performed required
                   reviews of [ CAO] decisions. Therefore, there was no assurance that approval
                   of the requests for reconstitution was proper.

                   The extent of benefits accruing to [   CAO] and a relative from rice CAB’s built
                   by improper reconstitutions and P&CP credit totalled about $490,000 as detailed
                   in Finding No. 1 of Chapter 1. The rice CAB’s were built on farms owned by
                   entities associated with producer 2 and cash leased to entities in which [ CAO]
                   had interests. [          CAO] and COC were also instrumental in allowing
                   reconstitutions, improper P&CP credit, and unearned disaster benefits that
                   contributed to over $7.7 million in unearned benefits paid, or scheduled for
                   payment, for other producers, primarily those associated with producer 2.

                   The COC members or employees acting in official capacities are not allowed to
                   sign program documents or participate in any decisions affecting any farms in
                   which they have interests or for which they are representatives or fiduciaries.55


                   The COC reports for farm combinations showed [                            CAO] approved
                   reconstitutions A50010 and A50011 on March 23, 1995.                     A COC member
                   approved reconstitution A60061.

                   [   CAO] and a relative had interests in both farms resulting from combinations
                   A50010 and A50011 as shown in the table below. There was nothing to indicate
                   the COC performed the required reviews of these reconstitutions.




  55
       FSA Handbook 22-PM (Revision 1), paragraph 402 D, dated February 8, 1991.




USDA/OIG-A/03006-18-Te                                                                               Page 52
                                                SEPTEMBER 2000
                                    RECONSTITUTION NO.           RESULTING FARM            [CAO] INTEREST

                                            A50010                       152                    Indirect 1/

                                            A50011                       153                    Indirect 2/

                                    1/       [    CAO] relative and corporation 1, in which [    CAO] and a
                                             relative each had a 50-percent interest, participated in the rice
                                             and/or wheat programs on the farm.
                                    2/       Corporation 1 participated in the rice program on the farm.



                                         [CAO] Did Not Report All Financial Interests

                   [    CAO] did not disclose all financial interests for at least calendar years 1993
                   through 1997. [      CAO] stated the interests were not reported in two farming
                   corporations because of lack of awareness of the requirement to do so. As a
                   result, the SED was not provided complete information on which to base a
                   determination of conflict of interest.

                   All [CAO] are required to file forms ASCS-324, Confidential Statements Regarding
                   Financial Interests and Outside Employment, by January 31 of each year. [
                   CAO] is required to list information on the form indicating holdings, employment,
                   and memberships as of the end of the immediately preceding calendar year and
                   to send the completed form to the SED for review and certification.56 The SED
                   is required to determine whether a conflict of interest or appearance of conflict of
                   interest exists.57

                   Form ASCS-324 requires [            CAO] to disclose on the form all institutions,
                   including corporations, in which [ CAO] has any continuing financial interest as
                   an employee, officer, owner, director, trustee, member, partner, advisor, or
                   consultant, or in the ownership of stock. Likewise, the form requires [  CAO] to
                   disclose all institutions of which [       CAO] is an employee, officer, member,
                   trustee, director, consultant, or advisor, with or without compensation.

                   The STO provided us copies of [        CAO] forms ASCS-324 for calendar years
                   1991 through 1995 and 1997. (An STO official stated the calendar year 1996 form
                   was misplaced.) [     CAO] consistently reported on the forms ASCS-324 that [
                   CAO] no reportable financial interests and no reportable non-ASCS employment.

                   However, our review showed [     CAO] had several reportable financial interests
                   for 1991 to the present as shown in the table below.




  56
       FSA Handbook 22-PM (Revision 1), paragraph 402.5 A, dated February 8, 1991.

  57
       FSA Handbook 22-PM (Revision 1), paragraph 402.5 B, as of February 8, 1991.




USDA/OIG-A/03006-18-Te                                                                                           Page 53
                                                 SEPTEMBER 2000
                                                            DESCRIPTION OF
                                                            [CAO] FINANCIAL             CALENDAR
                                       INSTITUTION             INTEREST                  YEARS

                                     Corporation 1       Secretary                  1993 to present
                                                         Stockholder (50%)

                                     Corporation 2       President                  1993 to present
                                                         Stockholder (50%)




                  Corporations 1 and 2 were farming operations participating in FSA programs in
                  Jackson County. In addition, the minutes of the January 5, 1995, annual meeting
                  of the stockholders of corporation 3 stated the local FSA office "is presently
                  headed by our farm manager." Corporation 3 was a landowner participating in
                  FSA programs in Jackson County and shareleasing its land to corporation 2. [
                   CAO] professed to be unaware of the requirement to report corporate farming
                  interests on form ASCS-324 and said corporation 3’s reference to the FSA office
                  being presently headed by its farm manager was a misnomer.

                  During the audit, FSA initiated administrative action against [                     CAO].

                                                     Inadequate COC Minutes

                  The COC minutes did not contain pertinent information to justify actions of the
                  COC. Noticeably absent were COC actions with respect to peanut quota transfers,
                  reconstitutions, and pay limit person determinations. Also, minutes were not timely
                  prepared, properly approved, or timely submitted to the STO.

                  The minutes are legal and binding records of committee actions.58 [         CAO
                                  ] the COC [                             ] during the meetings and
                  preparing minutes which include the pertinent facts and actions taken for each item
                  discussed.59

                  The minutes are to be reviewed for the previous meeting as the first item of
                  business at the time of the next meeting. After the minutes are reviewed and
                  corrected, as necessary, the [COC member] and [CAO] are to sign them.60 As
                  soon as the minutes are prepared (and usually prior to approval), a copy is to be




   58
      FSA Handbook 16-AO (Revision 1), paragraph 38 A, dated March 17, 1978, and Handbook 16-AO (Revision 2),    paragraphs
194 A, dated May 9, 1996, and July 28, 1997.

   59
      FSA Handbook 16-AO (Revision 1), paragraphs 38 A and B 5, dated March 17, 1978, and June 22, 1993, respectively, and
FSA Handbook 16-AO (Revision 2), paragraph 179 A, dated May 9, 1996, and July 28, 1997, and paragraph 194 B, dated May 9,
1996, and July 28, 1997.

   60
      FSA Handbook 16-AO (Revision 1), paragraph 38 C, dated June 22, 1993, and FSA Handbook 16-AO (Revision 2),
paragraphs 194 B and C, dated May 9, 1996, and July 28, 1997.




USDA/OIG-A/03006-18-Te                                                                                          Page 54
                                                SEPTEMBER 2000
                    sent to the STO.61 The STO administrative management (prior to May 9, 1996)
                    or the SED (effective May 9, 1996) is to circulate informational copies of the
                    minutes received in the STO.62

                                                  Minutes Not Properly Approved

                    There were about 90 COC meetings from January 1, 1993, through June 16, 1998
                    (the last COC meeting date before the audit). We found that the minutes on file
                    at the CO for 47 of those meetings were not approved by [both  CAO] and COC
                    [member] as required. Required signatures were either missing or employee 7
                    signed the names of [     CAO] and COC [member]. Employee 7, generally, did
                    not attend the COC meetings.

                                        Pertinent Facts and Actions Not Documented

                    Transfers of Peanut Quota. We found COC signatures were not obtained for 8 of
                    the 11 peanut quota transfers at the CO for 1996, although the quotas were
                    transferred. In spite of the absence of COC signatures, COC approval was
                    generally indicated by marks in the "approved" blocks on the applicable Forms
                    FSA-375, Transfer of Peanut Quota, and the COC signature blocks were dated.
                    Forms FSA-375 and the fall quota transfer report on file at the CO showed the
                    transfers were approved on June 18, 1996; June 18, 1997; November 13, 1996;
                    and November 11, 1996. However, we were unable to locate COC minutes for the
                    November 13, 1996, or November 25, 1996, COC meetings,63 and the minutes
                    of the June 18, 1996, meeting did not document approval of the corresponding
                    peanut transfers.

                    "Actively Engaged in Farming" and "Person Determinations". The COC minutes
                    did not adequately document actions taken with regard to actively engaged in
                    farming and person determinations. In lieu of including pertinent facts, such as
                    the names of the producers for whom determinations were made and the actual
                    determinations made, the minutes simply stated the COC "reviewed operating
                    plans and made actively engaged in farming and person determinations * * * which
                    are documented on Form CCC-503A." The minutes do not include basic details
                    such as the producers’ names for whom determinations were made.

                    Our joint review with FSA identified about 300 Forms CCC-503A, COC Worksheet
                    for "Actively Engaged in Farming" and "Person" Determinations, that were
                    incomplete, including about 100 on which the actively engaged in farming




   61
       FSA Handbook 16-AO (Revision 1), paragraph 38 D 3, dated June 22, 1993, and FSA Handbook 16-AO
(Revision 2), paragraph 195 A, dated May 9, 1996, and July 28, 1997.

   62
       FSA Handbook 16-AO (Revision 1), paragraph 29 B, dated August 15, 1994, and FSA Handbook 16-AO
(Revision 2), paragraph 195 B, dated May 9, 1996, and July 28, 1997.

   63
        The STO has no record of meetings on these dates.




USDA/OIG-A/03006-18-Te                                                                                  Page 55
                                                  SEPTEMBER 2000
                   determinations were not documented and 50 on which the person determinations
                   were not documented.

                   One of the incomplete forms CCC-503A was for corporation 4, owned by [ CAO]
                   relative. The COC’s actively engaged in farming determination was not
                   documented on the form CCC-503A. Additionally, there was no Form CCC-502,
                   Farm Operating Plan for Payment Limitation Review, on file at the CO for
                   corporation 4 on which the COC could have based its determinations. The entire
                   contents of the payment limitation file for corporation 4 consisted of the incomplete
                   form CCC-503A, articles of incorporation, application for employer identification
                   number, stock certificate, and minutes of the organizational meetings of the board
                   of directors and shareholders of corporation 4.

                   Farm Reconstitutions. The COC minutes generally were inadequately documented
                   with the facts and circumstances of farm reconstitution requests. Program
                   regulations provide that a farm reconstitution can be initiated by the landowner, the
                   COC, or the farm operator.64 In 35 cases, we could not ascertain whether the
                   landowner, the COC, or the farm operator initiated the request. In these cases,
                   CO employees did not obtain signatures from the requesting parties on form
                   ASCS-155 and the COC minutes did not contain detailed information about any
                   reconstitutions that were approved by the COC.

                                             Minutes Not Timely Submitted to STO

                   Also, STO records showed the CO did not timely submit to the STO copies of the
                   COC minutes. We obtained information from the STO about COC minutes
                   submitted to them from 1996 through 1998.          During that time there were
                   39 meetings for which minutes were required. In 18 instances, the STO had no
                   record that minutes were received, and in 15 instances the minutes were received
                   3 or more months after the COC meeting dates.

                                         Recordkeeping Problems Related to PFC’s

                   Program eligibility documents were not always on file to justify making PFC
                   payments. This occurred because of insufficient attention to duty by the [employee
                   no. 6] and ineffective oversight by [   CAO          SAO]. Without the required
                   eligibility documents, improper PFC payments could have been made; however,
                   this situation was corrected by the FSA task force during the audit.

                   The FSA task force discovered required payment eligibility documents were not on
                   file at the CO for 171 of the 1,013 producers receiving 1998 PFC payments. For
                   payments to be made, each producer must have on file (1) an approved form
                   CCC-502, (2) either a completed Form FSA-570, Waiver of Eligibility for
                   Emergency Assistance, or proof of crop insurance, and (3) a certification on Form
                   AD-1026, Highly Erodible Land Conservation (HELC) and Wetland Conservation


  64
       7 CFR 719.5, January 1, 1992, edition; FSA Handbook 2-CM (Revision 3), paragraph 70 A, dated December 5, 1991.




USDA/OIG-A/03006-18-Te                                                                                         Page 56
                                                 SEPTEMBER 2000
            (WC) Certification, for the producer and all affiliated producers. The extent of the
            problem is shown below.

                            MISSING/INVALID FORM             NO. OF CASES

                                   CCC-502                         64

                                    FSA-570                        63

                                    AD-1026                        70


            During the audit, acting CO employees updated the automated system to preclude
            payments to producers for whom there were no valid forms CCC-502, FSA-570,
            and/or AD-1026 on file. The acting CO employees required the producers to file
            or update the applicable forms before payments were made. No further corrective
            action is necessary.

            The present CO staff has corrected the problems cited within the COC minutes.

                   Problems with Dates, Signatures, and Incomplete Documents

            The CO employees predated absent producers’ and COC members’ (approval)
            signatures on program documents and backdated producers’ signatures for several
            different programs. Employee 2 made a signature "witnessing" 18 nonexistent
            producers’ signatures for 7 peanut quota transfers in 1996. The transfers were
            executed in spite of absent producers’ and COC members’ signatures. Likewise,
            the special COR review disclosed another employee did not obtain all required
            producers’ signatures for reconstitutions. Some of the missing signatures had
            been predated. The audit disclosed the employee obtained some of the missing
            signatures subsequent to the special COR review, and the employee or the
            producers backdated those signatures which had not been predated. One such
            backdated signature was that of the COC [member], who denied making the
            signature, approving a 1996 farm reconstitution.

            An employee [                            ] offered no explanation for witnessing
            nonexistent signatures on the transfer documents and predated producers’ and
            COC members’ signatures, but acknowledged it was wrong to have done so.
            Other than problems with the signatures, we found nothing wrong with the
            transfers.

                                    Nonpayment of Disaster Claims

            In response to a complaint by producer 60, we reviewed his disaster claims to
            determine if he was due benefits that were not paid. We found that the producer
            was not paid $3,866 in 1993 disaster benefits that CO records showed as
            approved for payment.




USDA/OIG-A/03006-18-Te                                                                 Page 57
                                    SEPTEMBER 2000
            Our review of the producer’s 1993 disaster file showed that he filed for soybean
            crop losses on seven farms. The COC approved the forms ASCS-574 for six of
            the seven farms and disapproved the seventh because it was late-filed. The COC
            also reduced the established yield on five farms because the producer had
            reported on form ASCS-574 that the soybeans were planted after the final plant
            date. Based on the reduced yield, the recomputation of disaster benefits showed
            that three farms (farms 122, 123, and 127) should have received $3,866 in
            disaster benefits, and two farms should have received none.

            The employee [                              ] did not know why producer 60 had
            not been paid the disaster benefits. This was the only case that came to our
            attention where disaster benefits were not issued to the producer. Information
            about the case was referred to the CO during the audit.


                                         Staff Responsibilities

            [     CAO] was responsible for directing and managing all CO program and
            administrative activities. Primary duties included direction for the establishment
            and maintenance of farm records related to crop histories, reconstitutions, acreage
            bases and yields, and determining producers’ eligibility for disaster assistance.
            Through interviews with the CO employees, we learned that [           CAO] did not
            review their work. However, [       CAO] by virtue of such position, should have
            been aware of most of the problems disclosed by this review. Accordingly, [
            CAO] should have been fully aware that reconstitutions and P&CP acreage credits
            were used to obtain additional benefits. However, [ CAO] did not consider this
            wrong or illegal.

            The standard position description for [employee 2] requires knowledge of all
            programs to coordinate the work activities of other office employees. It also
            defines as primary duties of the position, the review of work in process and
            guidance to others on complex problems. Through interviews with office
            employees, we learned that [employee 2]’s duties were limited to administrative
            operations. Thus, [employee 2] was not responsible for the problems regarding
            reconstitutions, P&CP credits, and disaster claims identified in this review.
            However, [employee 2] was responsible for the problems dealing with the COC
            minutes, processing of CCC checks, and collection of overpaid interest.

            One employee was responsible for processing P&CP acreage credits, cotton
            yields, and the program where unauthorized rice CAB and yield increases were
            made. Another employee was responsible for processing farm reconstitutions and
            the processing of crop acreage reports by producers. Two employees were
            responsible for recordkeeping problems related to the PFC’s. A different employee
            was responsible for processing disaster payments we questioned. However, a
            bigger problem was the approval of such payments by [       CAO] and COC.




USDA/OIG-A/03006-18-Te                                                                Page 58
                                   SEPTEMBER 2000
             The FSA has initiated administrative actions against some employees, and [ ]
             employees are no longer working at the Jackson CO. [ ] employees are working
             at other FSA CO’s in Arkansas, and [           ] employee, although [
                      ] Jackson County, has been [                ] another CO. [       ]
             employee has [                ] Jackson CO [                               ]
             CO during the joint review.




    RECOMMENDATION NO. 11


             Take appropriate administrative action against applicable CO personnel for the
             deficiencies in program administration.

             FSA Response

             The FSA responses to Recommendations Nos. 6 and 9 provided information
             showing the administrative action that has been taken against CO employees.

             OIG Position

          Although we are in agreement with the corrective action that has been taken, as
          previously stated, additional corrective action may be necessary after the results
          of the OIG investigation and related civil or criminal remedies are known.
                                           As discussed in Chapter 1, [ SAO] reviews did
                                           not disclose unauthorized changes in the
    STATE OFFICE OVERSIGHT                 computer system or the questionable nature of
         INADEQUATE                        rice disaster claims. Further, the ACOR review
                                           was superficial and ineffective in identifying and
                                           correcting existing problems. Both of these types
                                           of reviews are a part of the STO oversight
         FINDING NO. 7                     function. Information concerning these problems
                                           is discussed below.

                                         [SAO] Responsibilities

             [     SAO] has responsibility for STO oversight of FSA programs administered
             through the CO. As such, he routinely visits the CO and meets with the COC and
             office staff to discuss problems with program administration. In performing these
             duties, [               SAO] should have been aware of the questionable P&CP
             credit for double cropping rice when this was not normal for the area. Also,
             because required [SAO] reviews were either not made or ineffective, the
             unauthorized rice CAB increases that were made in the automated system were
             not detected.




USDA/OIG-A/03006-18-Te                                                               Page 59
                                    SEPTEMBER 2000
                         Inadequate Review of CO Operations by the ACOR

            A followup review by the ACOR, after release in March 1998 of the SCOR review,
            did not disclose problems with either the reconstitutions or the other issues stated
            in the SCOR report. As a result, the SED concluded that there were no major
            problems needing corrective action in Jackson County. The National office did not
            concur and asked OIG to conduct an audit to determine the extent of problems
            reported by the SCOR. (As previously stated, FSA COR persons assisted us in
            the audit review.)

            Through interviews we learned that the ACOR did not conduct a thorough review,
            but primarily relied upon the testimony of CO employees and completed his review
            in only 2 and one-half days. The ACOR did not make any attempt to determine
            whether CO personnel properly reconstituted farms, performed spot-checks, and
            established yields in accordance with procedure. The review attempted to
            determine whether the situations identified by the SCOR review were unique to
            farms in which [      CAO] or producer 2 had interests.

            The SCOR had prepared a flowchart to demonstrate how reconstitutions were
            used to build CAB since 1992. The ACOR claimed to not understand the flowchart
            and, thus, did not analyze reconstitutions to determine whether farms were
            involved in CAB-building schemes. The ACOR acknowledged [ CAO] approved
            reconstitutions for farms in which [    CAO] had interests. However, the ACOR
            concluded there was no conflict of interest since [ CAO] had likewise approved
            reconstitutions for farms in which [   CAO] did NOT have interests.

            The ACOR reviewed spot-checks for farms operated by [       CAO] and by other
            producers in the county. He found reported and determined acres were equal in
            the majority of cases. A CO employee told him photography, official acreage, and
            past records were used to assist operators in certifying accurately, and aerial
            slides were used in most cases to spot-check farms. The ACOR concluded it did
            not appear unusual that such acres were equal, and determined spot-checks were
            completed properly for [   CAO].

            Likewise, the ACOR reviewed rice yields established using three similar farms for
            farms associated with producer 2 as well as for other farms in the county. It
            appeared to the ACOR the three similar farms were chosen at random, but CO
            employees stated most of the land and cultural practices for rice farms in the
            county were similar. The ACOR noted a rice yield established for a farm not
            associated with producer 2 or with [     CAO] also had a higher yield than was
            transferred in the reconstitution process. The ACOR concluded there was no
            evidence of special consideration for any yields established.

            We found some CO records had been altered subsequent to the SCOR review,
            but prior to the ACOR review. Specifically, signatures missing from forms ASCS-
            155 during the SCOR review were in place (and backdated) at the time of the
            ACOR review.



USDA/OIG-A/03006-18-Te                                                                 Page 60
                                    SEPTEMBER 2000
            •      The ACOR found the COC [member] signed and dated form ASCS-155 for
                   reconstitution A60061. However, a copy of form ASCS-155 obtained by
                   the SCOR during its review clearly showed the signature was not present
                   at the time of the SCOR review.

            •      The ACOR found all parties signed and dated form ASCS-155 for
                   reconstitution A40075. However, a copy of form ASCS-155 obtained by
                   the SCOR during its review clearly showed the producers’ signatures were
                   not present at the time of the SCOR review.

            The ACOR claimed to be unaware of the alterations at the time of the review, and
            [           ] CO employee offered no explanation.

            The SED stated the brief nature of the ACOR review never raised any questions
            about the adequacy of the review. The SED’s understanding was that neither the
            SCOR nor ACOR reviews identified any major problems. According to the SED,
            there were no major problems based on discussions during the SCOR exit
            conference, and further review was only necessary for conflict-of-interest issues
            relative to [   CAO] farming interests which the ACOR reported as satisfactory.
            We concluded that the ACOR review was deficient and distorted the situation in
            that it did not disclose any problems. Our review generally confirmed the
            existence of all the problems reported in the SCOR report.


    RECOMMENDATION NO. 12


            Take appropriate administrative action against applicable STO personnel for
            inadequate STO oversight.

            FSA Response

            A complete review will be conducted regarding the performance of the STO
            personnel identified by this audit as being responsible for the lack of supervision
            and oversight of the Jackson CO operations. Personnel actions will be initiated
            as determined appropriate according to the findings of the review.

            OIG Position

            We are in agreement with the planned corrective action. A management decision
            can be reached with evidence of the review and related personnel actions. (If
            planned personnel action is to be taken, we need evidence of a timeframe for
            completion.)




USDA/OIG-A/03006-18-Te                                                                Page 61
                                   SEPTEMBER 2000
                                             The SCOR reported that a $1,174 check payable
       PROCESSING OF                         to FSA by a producer was not properly deposited
   PAYMENTS AND COMMODITY                    and was left unsecured on an employee’s desk,
     CREDIT CORPORATION                      and that six Forms CCC-184, Sight Drafts, totaling
           CHECKS                            $10,579 were left unsecured on the same
                                             employee’s desk. [                   ] employees
                                             offered no explanation. We concluded that an
                                             absence of any review contributed to the problem.
          FINDING NO. 8

            The six checks were issued as advance 1998 PFC payments. The producer’s
            check was his voluntary repayment of 1998 PFC benefits on acreage that he
            ceased to farm in 1998. After to the SCOR’s discovery of these seven checks, the
            employee processed them. The Kansas City Management Office (KCMO) records
            showed that the six forms CCC-184 were either cancelled or paid, and the
            personal check was overnight-deposited.

            We found that CO personnel retained possession of 24 forms CCC-184 issued
            from August 14, 1995, to May 19, 1998. To determine the extent of this problem,
            we reviewed a query containing over 14,000 check transactions issued from
            September 1, 1996, to July 10, 1998, to determine if the CO had properly retained
            copies of forms CCC-184 associated with each transaction. Our review identified
            25 transactions that did not have copies of corresponding forms CCC-184. An
            employee subsequently provided us with 23 checks and copies of 4 forms
            CCC-184. The four copies of form CCC-184 and six of the checks were on our
            list. Subsequently, a seventh check on the list was found by the task force. Per
            KCMO records, the remaining 14 transactions had been processed in the following
            manner: 9 had been paid, 1 charged off, 1 voided, and 3 reported as lost, stolen,
            or destroyed.

            The 24 checks that were found in the CO totaled $9,491.79 and were dated from
            August 14, 1995, to May 19, 1998, with 19 of the checks issued prior to October
            1, 1996. Five of the checks were issued for administrative expenses, two related
            to refunds of fees, and three related to PFC payments. The remaining 14 were
            associated with processing of claims. Nine were claims payments (three to the
            CCC and six to the Small Business Administration (SBA)) whereas the remaining
            five resulted from incomplete processing or overpayment of claims.

            [                        ] was unaware that the checks were in the file drawer
            where they were found. [          ] did not remember receiving the three CCC
            checks for processing and knew nothing about the excess claim amounts that
            should have been refunded to the producers.

            We obtained a listing of nonnegotiated checks from KCMO for the period October
            1, 1994, to July 31, 1998, to determine if other checks had not been negotiated.
            From this listing, we identified an additional 11 checks totaling $9,792.76 that had
            not been negotiated.



USDA/OIG-A/03006-18-Te                                                                 Page 62
                                    SEPTEMBER 2000
                   Information about the 35 nonnegotiated checks (24 plus 11) were provided to the
                   Jackson CO for corrective action.


        RECOMMENDATION NO. 13


                   Take corrective action relative to 35 checks that have not been negotiated.

                   FSA Response

                   The FSA has contacted personnel in the STO and [            CAO] concerning the
                   status of the referenced checks. To their knowledge, none of these checks remain
                   outstanding and not negotiated.

                   OIG Position

                   We accept the management decision.

                                                            No action had been taken in two cases to correct
       OVERPAYMENT OF PROMPT                                the $1,739.14 in overpayments of PPI that had
          PAYMENT INTEREST                                  been identified by KCMO. Nor had the CO
                                                            executed the required memoranda of justification
                                                            for five overpayments that were less than $35 but
                                                            greater than $10.65 This occurred because CO
                 FINDING NO. 9                              reviews were not performed to detect errors made
                                                            by CO employees.

                   The CO incorrectly calculated the PPI associated with 20 producers who received
                   their 1994 disaster benefits in 1997 and 1998. The 20 producers’ disaster claims
                   were originally denied by the COC, but the denials were overturned through the
                   appeal process. The CO paid the 20 producers PPI totaling $68,634.59, of which
                   $31,078.16 was overpayments that KCMO detected and instructed the CO to
                   collect.

                   Procedures required that overpayments in excess of $35 be collected, but the CO
                   did not establish claims for collection of $85.97 from producer 20 and $1,653.17
                   from producer 62. Of the seven that were not required to be collected, five
                   exceeded $10, but the CO did not execute the required memoranda of justification
                   for them. Memoranda of justification are required of the following five producers:




  65
       FSA Handbook 58-FI (Revision 6), amendment 5, paragraphs 114 A and B, dated April 11, 1995.




USDA/OIG-A/03006-18-Te                                                                               Page 63
                                                 SEPTEMBER 2000
                                                         OVERPAYMENT
                                PRODUCER’S NAME            AMOUNT

                                Producer 9                         $13.88

                                Producer 14                        $10.36

                                Producer 40                        $31.96

                                Producer 44                        $17.42

                                Producer 61                        $12.38




    RECOMMENDATION NO. 14


            Establish claims for $85.97 for producer 20 and $1,653.17 for producer 62, and
            complete memoranda of justification for the identified five producers.

            FSA Response

            The FSA agreed with the findings. However, given the circumstances, FSA will
            not initiate any action to collect these overpayments unless criminal activity is
            determined by OIG. Similarly, we will not require memoranda of justification for
            the identified five producers.

            OIG Position

            This matter is not under investigation. To reach a management decision, we need
            additional documentation to fully explain the decision to forego collection of the
            overpayments.

                                              Producer
                                                    58 and his wife created a fictitious
                                        corporate entity to evade offset of program
   KNOWN IMPROPRIETIES TO               benefits for payment of a prior crop insurance
     EVADE DEBT OFFSET                  debt. When learning of the fictitious entity, CO
                                        staff and the COC did not recover PFC payments
                                        already made to the fictitious entity, determine
                                        whether an individual who replaced the fictitious
                                        entity was entitled to the payments, or properly
       FINDING NO. 10                   report the matter to the appropriate agency. This
                                        happened because of a willingness of the CO
         staff and COC to overlook or at least not correct known abuse.




USDA/OIG-A/03006-18-Te                                                               Page 64
                                   SEPTEMBER 2000
                     Producer 58 was placed on the CO debt record in 1993 for nonpayment of a crop
                     insurance debt of $41,267 that resulted from falsely reported crop losses during
                     1988. Since 1993, the producer created or used other entities, including his wife,
                     to evade payment offset of the crop insurance debt. However, the use of program
                     payment offset to pay the crop insurance debt is no longer an issue because
                     producer 58, based on a settlement with the court, repaid the debt in November
                     1999.

                     In 1996, the producer’s wife used a fictitious corporation (producer 63) to obtain
                     1996 PFC payments of $33,667 under the AMTA program. The wife of producer
                     58 signed the PFC contract as president of producer 63.

                     In January 1997, individual A, who was not a farmer, informed CO employee 2 that
                     his name and social security number had been improperly used by the wife of
                     producer 58 to obtain program payments. Individual A told employee 2 that he
                     was shown as a 100-percent stockholder in producer 63, when in fact he was not
                     a stockholder, and he did not get any program payments. Information about these
                     improprieties were detailed in writing to the CO by individual A’s attorney.

                     In August 1997, the COC approved a PFC modification giving an individual
                     (producer 59) the crop-share interest previously shown for producer 63. We were
                     told that producer 59 was a farmhand for producer 58; however, we made no
                     further inquiry to determine whether he was qualified to receive the PFC payments.
                     We concluded that the contract modification was made to avoid program payment
                     offset of the crop insurance debt.

                     Although the CO was provided information about the fictitious entity, no action was
                     taken to recover the $33,667 in 1996 PFC payments that this entity received66
                     or to determine whether the farmhand was a legitimate farm operator.

                     It should be noted that the wife of producer 58, who signed the FSA program
                     documents for the fictitious corporation, is now deceased; therefore, OIG will not
                     pursue further investigation of her false certifications.


        RECOMMENDATION NO. 15


                     Recover 1996 PFC payment of $33,667, plus interest, made to a fictitious entity
                     that was created to avoid payment offset and determine whether the farmhand
                     (producer 59) was eligible for any payments he may have received.



    66
       Creating a fictitious entity for the purpose of concealing the interest of a person in the farming operation is considered a scheme
or device that requires a refund of all payments, plus interest, received by the scheme or device participant for the year in which the
scheme or device was adopted. 7 CFR 1400.5(a), January 1, 1997, edition.




USDA/OIG-A/03006-18-Te                                                                                                       Page 65
                                                      SEPTEMBER 2000
                   FSA Response

                   The Arkansas STO has been instructed to review the program and payment
                   eligibilities of this producer and any related entities. If determined appropriate,
                   collection will be initiated.

                   OIG Position

                   We are in agreement with the planned corrective action. A management decision
                   can be reached with evidence that any resultant overpayments are collected or set
                   up as accounts receivable or that the appropriate agency relief provisions are
                   followed if a decision is made to grant relief.

                                                           The COC did not properly combine corporations
                                                           with their controlling members having greater than
        PROBLEMS WITH PERSON                               50-percent interest to be one person for payment
         DETERMINATIONS AND                                limitation purposes.      This occurred due to
       RELATED COMPUTER DATA                               ineffective oversight. There was another problem
              ENTRIES                                      in that person determination data was not
                                                           correctly entered into the automated system.
                                                           Even though entities were not properly combined
                                                           and data was not correctly entered into the
                 FINDING NO. 11                            automated system, we found no evidence that
                                                           anyone was overpaid.

                   A member owning more than 50 percent of a corporation is required to be
                   combined with the corporation as one person for payment limitation purposes.67
                   To determine whether this was done, we queried the automated system at the CO
                   to identify corporations which had controlling members for 1998 and/or 1999. We
                   identified 76 corporations as shown in the following table.




  67
       FSA Handbook 1-PL (Revision 1), paragraph 313 B, dated February 17, 1995.




USDA/OIG-A/03006-18-Te                                                                              Page 66
                                                 SEPTEMBER 2000
                                                 76 Corporations With Controlling Members

                 42 corporations were active for 1998 and/or 1999.         34 corporations were inactive for 1998 and 1999.

             31 were not combined with the        11 were combined       28 were not combined        6 were combined with
             controlling member in the system.    with the controlling   with the controlling        the controlling member in
                                                  member in the          member in the system.       the system. (NO
                                                  system. (NO            (NO FURTHER REVIEW.)        FURTHER REVIEW.)
                                                  FURTHER
                                                  REVIEW.)

             20 were not         11 were not
             combined            combined
             because the         because of
             COC made an         data entry
             incorrect (not      error. (See
             combined)           Finding
             determination.      No. 13.)




            For the 31 active corporations which were not combined with their controlling
            members, nothing came to our attention to indicate the corporations and their
            controlling members were issued 1998 PFC payments in excess of the ($40,000)
            limit afforded one person. (Final 1999 PFC payments had not been issued at the
            time of our review.)

            We found that employee 2, [    CAO], and the COC members were generally
            aware of the combined person rule for a corporation with a controlling member.
            The COC [member] said it was just an oversight that corporations were not
            combined with controlling members.

            Our review also disclosed incorrect data entered in the automated system for 11
            of the 31 cases. For six of the cases, member information in the system was not
            the same as the information reflected on the forms CCC-502 and in the payment
            limitation folders on file at the CO. Indications are the member information in the
            automated system has been incorrect since 1992 for one of the corporations, since
            1994 for two of the corporations, since 1996 for two of the corporations, and since
            1997 for another corporation.

            Employee 2, who was primarily responsible for entering the data, told us of
            concern about the reliability of the data in the automated system because the
            automated and physical files were never reconciled at the CO. Employee 2 said
            it was "hit and miss" updating payment limitation data since 1996 (when
            continuous updates were implemented and producers did not have to perform
            annual updates).

            Although the responsible employee stated that the automated and physical files
            were never reconciled, we noted [       SAO] determined in 1997 that the CO
            correctly loaded payment limitation data based on a review of the prepayment
            register and COC minutes. Neither document showed in detail what was in the
            system and, in fact, the COC minutes contained no payment limitation information



USDA/OIG-A/03006-18-Te                                                                                              Page 67
                                               SEPTEMBER 2000
            other than a canned statement that the COC "reviewed operating plans and made
            actively engaged in farming and person determinations." [ SAO] acknowledged
            not writing down everything considered in reviews and stated normally reviews
            looked at the "whole system of things," including form CCC-502 and the
            (automated) entity flags. Notwithstanding [ SAO] claims of reviewing the "whole
            system of things," we questioned whether [    SAO] reviews were effective and
            comprehensive enough to detect program irregularities. This conclusion is further
            supported by the employee comments and the problems we found with the
            accuracy of the computer data.


    RECOMMENDATION NO. 16


            Reconcile the physical farm files with the automated files to ensure that correct
            payment limitation data is entered into the automated system.

            FSA Response

            For 1999, new forms CCC-502 and related agency forms were submitted by every
            producer requesting program benefits. This was to ensure that the respective
            payment eligibility and limitation determinations were based on current information.
            The automated subsidiary and entity files are now reflective of these
            determinations. The STO assisted in making any determinations that were
            complex, questionable, or were required by appropriate procedure.

            OIG Position

            We accept the management decision.




USDA/OIG-A/03006-18-Te                                                                 Page 68
                                    SEPTEMBER 2000
                             GENERAL COMMENTS


Included in this section are five items questioned by the SCOR or the joint FSA/OIG review that
we did not find wrong or have been corrected.

                          Alleged Outside Farming Interest Conflicts

During the audit, it was alleged by one producer that [ CAO] was farming when [       CAO]
should have been working at the CO. The producer could not provide specific dates or times
when this absence occurred, and we were unable to develop other collaborative information to
support the allegation.

                                        Use of Sick Leave

The SCOR reported an employee took 9 hours sick leave on December 17, 1997, and on that
date attended a retirement reception at the STO.

We found the employee took 9 hours sick leave on December 17, 1997, but on that date attended
a retirement reception at the quarterly meeting of the Arkansas Association for State and CO
employees. The employee had two medical appointments (one in the morning and one in the
afternoon) in Little Rock on that date. Little Rock is about 93 miles away (about 2 hours) from
the CO in Newport, Arkansas.

The employee also told us that the medical tests were in the morning, and that the afternoon
appointment was contingent upon the results of the morning tests. The results of the morning
tests did not warrant an afternoon appointment, but the results of the tests were not available until
the afternoon.

The medical services provider confirmed the employee had a December 17, 1997, appointment.
Based on this information, we did not question the use of sick leave.

                         Actively Engaged in Farming Determination

The SCOR reported that there was no documentation on file to support an actively engaged in
farming determination for one producer. We found that, in this case, the COC had not made such
a determination; however, the producer did not receive a farm program payment. For this
reason, the determination was a moot point, and no further action was considered necessary.




USDA/OIG-A/03006-18-Te                                                                      Page 69
                                        SEPTEMBER 2000
                           Record of Landownership Not Updated

As reported by the SCOR, a deceased landowner was still listed on a farm where the farm
operator participated in the farm program based on a cash lease. These records were updated
by the task force during the audit when they discovered required payment eligibility documents
were not on file for processing PFC payments.

                            Questionable P&CP Credit for Wheat

As shown in the Background section of the report, the SCOR identified two cases where
questionable P&CP credit was given for wheat that may not have been planted. The special task
force, in their review, did not find sufficient information to challenge the P&CP credit for wheat,
but on both of the farms the RBW acreage was considered ghost acres, and P&CP credit for
RBW was disallowed.




USDA/OIG-A/03006-18-Te                                                                    Page 70
                                       SEPTEMBER 2000
EXHIBIT A - SUMMARY OF MONETARY RESULTS
      CHAPTER                               DESCRIPTION                                AMOUNT           CATEGORY

                     Payments Resulting from Improper P&CP and Disaster Credit,        A/ $4,760,749     FTBPTBU
                     Improper Reconstitutions, and Unauthorized Increases in
          1                                                                                                QCRR
                     CAB’s and/or Yields                                              B/ 1,555,706

                     Payments Resulting from Improper P&CP Credit for RBW That              C/182,529    FTBPTBU
          1          Did Not Involve Ghost Acres
                                                                                            D/153,289      QCRR

                     Payments Resulting from Improper P&CP Credit for Initial               C/104,012    FTBPTBU
          1          Planted Rice That Was Not Disaster Related
                                                                                             D/82,615      QCRR

                     Unauthorized Rice Yield Increases in 1992                         E/    399,982       QCRR
          1
                     Unauthorized Rice CAB Increases in 1993                           F/    650,734       QCRR

                     Unauthorized UPCN Yield Increases in 1996                        G/                   QCRR

                     1993 Disaster Payments for Rice                                   H/    584,040       QCRR
          2          1994 Disaster Payments for Rice                                  H/       53,276      QCRR

          3          Overpayment of PPI                                                         1,739      QCRR

          3          1996 PFC Payments to a Fictitious Entity                                  33,667      QCRR

                                          Total                                        $8,562,338

FTBPTBU - Funds To Be Put To Better Use, Management or Operating Improvement/Savings

QCRR - Questioned Costs, Recovery Recommended

A/      1998 through 2002 PFC overpayments, including estimated 2000 through 2002 overpayments totaling $1,918,686
        (exhibit D).

B/      1996 through 1997 PFC overpayments (exhibit D).

C/      1999 through 2002 PFC payments (exhibit E).

D/      1996 through 1998 PFC payments (exhibit E).

E/      Resultant 1992 through 1995 deficiency overpayments, and resultant 1996 through 2002 PFC overpayments totaling
        $602,262 ($148,223 QCRR + $454,037 FTBPTBU) are included in the amounts shown for Chapter 1 (exhibit I).

F/      Resultant 1993 through 1995 deficiency overpayments, and resultant 1996 through 2002 PFC overpayments totaling
        $1,370,334 ($337,256 QCRR + $1,033,078 FTBPTBU) are included in the amount shown for Chapter 1
        (exhibit H).

G/      Resultant 1996 through 2002 PFC overpayments totaling $173,349 in exhibit J are included in the amount shown in
        exhibit D.

H/      Exhibit L.




USDA/OIG-A/03006-18-Te                                                                                          Page 71
                                                  SEPTEMBER 2000
EXHIBIT B - CO EMPLOYEES’ AREAS OF
RESPONSIBILITY


                                        JOB DESCRIPTION AS OF:        1/

                   10/11/90                          10/04/95                    07/10/98

       Conservation, production adjustment - wheat and                Conservation
       feed grain

       Production adjustment - cotton and rice, peanuts,              Commodity production,
       common programs - payment limitations                          peanuts, payment limitation
                                                                      [


                                                                             ]

       Compliance - office,                 Compliance - office,      Farm loans,
       common programs - farm               common programs -         sodbuster/swampbuster,
       records and                          farm records and          reconstitutions, farm
       reconstitutions, automation          reconstitutions           records

       (Entered on duty at the CO on December 24, 1995)               Price support

       Compliance - field, crop insurance                             Compliance - field/office,
                                                                      disaster

       Price support - farm-stored          Price support -           Automation
       and warehouse                        warehouse, disaster,
                                            farm programs

       [employee 2], administrative

       Price support and                    Price support - farm-     [
       automation                           stored, automation
                                                                             ]
      1/ Each row represents the duties of a different CO employee.




USDA/OIG-A/03006-18-Te                                                                              Page 72
                                              SEPTEMBER 2000
                 USDA/OIG-A/03006-18-Te




                                                                                                                                                                                        EXHIBIT C - NET PAYMENTS TO PRODUCERS BY
                                                                                                                        CALENDAR YEAR
                                                     PROGRAM
                                                                                1992             1993              1994              1995              1996              1997

                                          DEFICIENCY - WINTER WHEAT        $    283,097.00              $0.00             $0.00             $0.00             $0.00             $0.00

                                          DEFICIENCY - RICE                 11,486,238.49      15,498,991.13      7,577,640.06     19,420,064.85      4,258,570.82          (904.38)

                                          DEFICIENCY - COTTON                     9,171.79         24,177.00         18,167.00           2,048.00       (9,099.75)               0.00




                                                                                                                                                                                                    PROGRAM, 1992 THROUGH 1997
                                          DEFICIENCY - FEED GRAIN               315,285.70       582,466.24        209,731.22        313,824.00        (29,526.89)       (75,761.00)

                                          DEFICIENCY - WHEAT                   1,348,353.82     1,909,653.00      1,049,886.13       612,118.63       (554,299.43)       (21,986.21)

                                          CONSERVATION RESERVE                  102,425.00       108,649.90        113,149.51        109,828.00        112,422.00        103,477.00
                                          (PROGRAM)

                                          LOAN DEFICIENCY                      1,108,723.23     3,030,711.15       535,334.33        152,444.68           5,788.86               0.00
SEPTEMBER 2000




                                          AGRICULTURAL CONSERVATION              61,227.00         90,959.00         51,977.00          55,394.00        42,076.00         19,358.00

                                          WATER BANK                             29,913.00         27,798.00         30,973.00          30,203.00              0.00              0.00

                                          VOLUNTARY DIVERSION - WHEAT           (16,337.68)              0.00              0.00              0.00              0.00              0.00

                                          VOLUNTARY DIVERSION - FEED            (17,075.15)              0.00              0.00              0.00              0.00              0.00
                                          GRAIN

                                          DISASTER PROGRAM CROPS                (37,885.22)              0.00              0.00              0.00              0.00              0.00

                                          INTEREST (PENALTY) PAYMENT(S)           5,009.44               0.00              0.00         15,234.34        12,968.84         68,023.66

                                          DISASTER                             2,536,182.40     4,459,311.23      2,305,110.00       910,986.00        186,741.00        439,452.00

                                          MARKET GAINS                          369,622.91      1,819,432.82       121,308.67        509,551.21                0.00              0.00

                                          RICE MARKETING (EXPENSE)                     0.00      546,725.43           6,793.13              33.82              0.00              0.00

                                          EXTENDED FARM STORAGE                        0.00          514.52                0.00              0.00              0.00              0.00

                                          PRODUCTION FLEXIBILITY                       0.00              0.00              0.00              0.00    14,384,204.00     12,907,773.00

                                          ENVIRONMENT QUALITY INCENTIVES               0.00              0.00              0.00              0.00         9,681.00         15,579.00

                                          NONINSURED ASSISTANCE PROGRAM                0.00              0.00              0.00              0.00              0.00        11,007.00

                                          TOTAL                            $17,583,951.73     $28,099,389.42    $12,020,070.05    $22,131,730.53    $18,419,526.45    $13,466,018.07
                 Page 73
            EXHIBIT D - PFC OVER/UNDERPAYMENTS BASED ON
                         TASK FORCE REVIEW

                                      CONTRACT
                                      ACREAGE                     YIELD                                                   PFC OVER(UNDER)PAYMENTS A/

 (1)          (2)          (3)      (4)           (5)       (6)          (7)       (8)          (9)          (10)              (11)         (12)          (13)          (14)            (15)
                                                 PER                    PER                                                                                                           TOTAL
COUNT        FARM        CROP     PER CO        REVIEW    PER CO       REVIEW     1996         1997         1998 B/          1999 B/       2000 C/       2001 C/       2002 C/       1996-2002

       1            1   Sorghum     193.4         167.1           47        47      $340         $572           $712             $916         $390          $316          $306            $3,552

       2            3   Wheat             3.1       3.5           29        29       (10)             (7)       (11)              (14)             (7)           (5)           (5)           (59)

       *3           5   Rice         55.5          35.5    5,610          5,610     2,638        2,585         4,171            5,378        2,489         2,012         1,946            21,219

                    5   Sorghum           0.0      12.0           0         73      (241)        (405)         (504)             (648)        (276)         (223)         (216)           (2,513)

                    5   Wheat             4.6      12.6           38        38      (226)        (164)         (256)             (330)        (148)         (119)         (116)           (1,359)

       *4           7   Rice         40.2           3.5    3,141          3,141     2,710        2,657         4,286            5,526        2,558         2,068         1,999            21,804

                    7   Wheat        17.6          26.7           41        41      (276)        (199)         (313)             (402)        (179)         (145)         (142)           (1,656)

       5        10      Rice         70.0          69.3    4,129          4,129          68           68         108              140              65            53            51            553

       6        12      UPCN        130.6         130.6      727           438      2,849        2,446         3,925            5,056        2,233         1,809         1,755            20,073

       7        15      Wheat             1.1       0.9           37        37            3            2              4                4            2             1             2                18

       8        16      Rice         25.2          20.9    3,738          3,738      372          365            589              760          351           284           275             2,996

       9        17      Wheat        11.4          10.9           33        33           12            8            13                18            7             6             6                70

   10           18      Sorghum      14.5          12.3           55        55           32           54            67                86           36            30            29            334

  *11           19      Rice         43.4          41.2    3,672          3,672      193          189            305              394          182           147           142             1,552

                19      Wheat        65.3          65.5           37        37           (7)          (5)           (7)           (10)             (5)           (3)           (3)           (40)

   12           20      UPCN        106.4         106.4      727           431      2,376        2,040         3,275            4,218        1,862         1,510         1,464            16,745

   13           22      Rice         31.7          30.8    3,509          3,509          67           66         108              138              64            52            51            546

   14           24      Rice         72.3          86.1    5,044          5,044   (1,632)      (1,599)       (2,581)           (3,328)      (1,541)       (1,246)       (1,204)          (13,131)

   15           25      UPCN        174.8         174.8      727           424      3,999        3,434         5,510            7,096        3,134         2,539         2,463            28,175

   16           29      Sorghum     153.7         142.2           54        54       169          285            355              456          193           157           152             1,767

   17           30      Rice         24.1          16.1    5,271          5,271      991          972          1,568            2,022          935           756           731             7,975

   18           31      Rice        200.8         158.1    4,415          4,415     4,432        4,344         7,010            9,040        4,183         3,382         3,269            35,660

   19           35      Rice         49.8          44.6    3,790          3,790      462          452            729              940          435           352           340             3,710

   20           36      Rice         73.5          36.9    5,505          5,505     4,735        4,640         7,489            9,656        4,468         3,613         3,493            38,094

                36      Wheat       217.7         232.3           39        39      (426)        (307)         (484)             (620)        (277)         (224)         (219)           (2,557)

  *21           37      Rice        938.7           0.0    5,837          5,837   128,802      126,230       203,702          262,674      121,557        98,270        95,010         1,036,245

                37      Sorghum     229.6         423.2           81        81    (4,308)      (7,246)       (9,020)          (11,592)      (4,930)       (3,998)       (3,864)          (44,958)

                37      Wheat       532.1         572.6           47        47    (1,412)      (1,020)       (1,604)           (2,060)        (922)         (743)         (728)           (8,489)

   22           39      Wheat             0.5       0.0           37        37           13            9            15                18            8             7             7                77




            USDA/OIG-A/03006-18-Te                                                                                                                                        Page 74
                                                                            SEPTEMBER 2000
        EXHIBIT D - PFC OVER/UNDER PAYMENTS BASED ON
        TASK            FORCE REVIEW

                               CONTRACT
                               ACREAGE                      YIELD                                                   PFC OVER(UNDER)PAYMENTS A/

 (1)      (2)       (3)      (4)           (5)        (6)          (7)       (8)          (9)          (10)              (11)         (12)          (13)          (14)            (15)
                                          PER                     PER                                                                                                           TOTAL
COUNT    FARM     CROP     PER CO        REVIEW     PER CO       REVIEW     1996         1997         1998 B/          1999 B/       2000 C/       2001 C/       2002 C/       1996-2002

   23       42   Sorghum      13.2          13.1            56        56            2            3              4                6            2             2             2                21

   24       43   Rice         47.0          37.4     5,191          5,191     1,177        1,154         1,862            2,400        1,111           898           868             9,470

            43   Wheat        86.4          89.7            37        37       (91)         (66)         (102)             (132)         (59)          (48)          (47)             (545)

   25       48   UPCN         41.0          41.0       727           430       921          791          1,269            1,632          722           585           567             6,487

   26       49   Rice              5.3        0.0    2,649          2,649      330          323            521              672          311           252           243             2,652

   27       51   Rice        115.9         108.9     4,115          4,115      672          658          1,062            1,368          634           512           496             5,402

   28       54   Rice        318.0         287.3     4,846          4,846     3,497        3,428         5,532            7,132        3,301         2,668         2,580            28,138

   29       58   UPCN         44.2          44.2       727           429       995          854          1,371            1,766          780           632           613             7,011

   30       60   Rice        266.0         258.0     3,810          3,810      717          702          1,134            1,462          677           546           528             5,766

   31       61   UPCN         23.2          23.2       727           430       520          446            716              922          407           330           320             3,661

   32       62   UPCN         20.4          20.4       727           395       510          438            703              906          399           324           314             3,594

   33       64   UPCN         38.0          38.0       727           430       852          732          1,174            1,512          667           541           524             6,002

   34       65   Rice         35.2          27.2     3,560          3,560      670          656          1,059            1,366          632           511           493             5,387

   35       73   Wheat        14.4          11.1            32        32           78           56            89            114              52            42            41            472

   36       77   Rice        160.4         133.8     4,485          4,485     2,803        2,747         4,433            5,718        2,645         2,139         2,068            22,553

   37       81   Rice        168.1         135.8     4,124          4,124     3,136        3,074         4,961            6,396        2,960         2,393         2,313            25,233

            81   Sorghum      12.7          13.4            55        55       (11)         (18)          (22)              (30)         (12)          (10)          (10)             (113)

   38       82   UPCN         78.3          78.3       727           428      1,768        1,518         2,437            3,138        1,386         1,123         1,089            12,459

   39       83   UPCN        241.8         241.8       727           446      5,128        4,403         7,066            9,102        4,019         3,257         3,159            36,134

  *40      104   Rice         51.9          30.4     4,651          4,651     2,353        2,307         3,723            4,800        2,221         1,796         1,736            18,936

   41      105   Wheat        13.0          34.6            32        32      (512)        (370)         (581)             (746)        (334)         (270)         (263)           (3,076)

   42      116   Rice         59.6          39.7     4,246          4,246     1,996        1,957         3,158            4,072        1,884         1,523         1,473            16,063

   43      125   Rice        406.6         366.2     5,165          5,165     4,899        4,801         7,748            9,992        4,624         3,738         3,614            39,416

  *44      133   Corn              0.0        7.4           0         66      (104)        (202)         (234)             (302)        (133)         (108)         (104)           (1,187)

           133   Oats              0.0        5.9           0         49           (8)          (8)       (11)              (14)             (7)           (5)           (5)           (58)

           133   Rice      1,043.2         105.0     4,671          4,454   103,544      101,476       163,756          211,164       97,719        78,999        76,378           833,036

           133   Sorghum     118.7         470.9            52        52    (5,034)      (8,465)      (10,538)          (13,546)      (5,761)       (4,671)       (4,515)          (52,530)

           133   UPCN              0.0        1.9           0        443       (63)         (54)          (87)             (112)         (49)          (40)          (39)             (444)

           133   Wheat     1,450.2        1,479.4           33        33      (715)        (516)         (812)           (1,042)        (467)         (377)         (368)           (4,297)




        USDA/OIG-A/03006-18-Te                                                                                                                                      Page 75
                                                                      SEPTEMBER 2000
        EXHIBIT D - PFC OVER/UNDER PAYMENTS BASED ON
        TASK            FORCE REVIEW

                               CONTRACT
                               ACREAGE                     YIELD                                                  PFC OVER(UNDER)PAYMENTS A/

 (1)      (2)       (3)      (4)           (5)       (6)          (7)       (8)         (9)          (10)             (11)          (12)          (13)          (14)            (15)
                                          PER                    PER                                                                                                          TOTAL
COUNT    FARM     CROP     PER CO        REVIEW    PER CO       REVIEW     1996         1997        1998 B/          1999 B/       2000 C/       2001 C/       2002 C/       1996-2002

   45      140   Oats              0.0       1.1           0         52           (2)         (1)           (2)              (2)           (1)           (1)           (1)           (10)

           140   Rice        442.5         442.5    4,395          4,441    (478)        (469)         (757)            (976)         (452)         (365)         (353)           (3,850)

           140   Sorghum           1.3       1.3           55        57            0          (1)           (1)              (2)           (1)           (1)            0                (6)

           140   UPCN              6.9       7.5      727           416       145          124           199              256          114               92            89          1,019

           140   Wheat       377.3         423.9           41        40    (1,104)       (797)       (1,254)          (1,608)         (720)         (582)         (568)           (6,633)

   46      154   Rice        481.6         406.5    4,680          4,680    8,270        8,105        13,080           16,866        7,805         6,310         6,100            66,536

  *47      155   Rice        184.7          94.2    3,250          3,250    6,912        6,773        10,931           14,096        6,524         5,273         5,098            55,607

           155   Sorghum           0.0      12.1           0         53     (177)        (297)         (370)            (474)         (202)         (164)         (158)           (1,842)

           155   Wheat             4.0      51.2           34        34    (1,191)       (860)       (1,352)          (1,736)         (777)         (627)         (614)           (7,157)

   48      156   Corn         20.1           0.1           85        85       363          702           815            1,050          462           376           361             4,129

           156   Sorghum      75.0          38.0           53        53       539          908         1,130            1,452          618           500           485             5,632

           156   Wheat             0.0     116.8           0         40    (3,471)      (2,506)      (3,941)          (5,060)       (2,264)       (1,827)       (1,787)          (20,856)

  *49      159   Corn         12.9           9.5           95        95           69       134           155              200              88            72            69            787

           159   Oats              2.1      10.5           49        49       (11)         (10)         (16)             (20)          (10)              (7)           (7)           (81)

           159   Rice        700.4          80.9    5,794          3,956   87,862       86,107       138,955          179,184       82,919        67,034        64,811           706,872

           159   UPCN         15.6          11.7      727           441       471          404           649              836          369           299           290             3,318

           159   Wheat       563.8         563.9           37        37           (3)         (3)           (4)              (6)           (2)           (2)           (1)           (21)

   50      160   UPCN         31.9          31.9      727           446       676          580           932            1,200          530           429           417             4,764

  *51      162   Rice        940.4         747.6    5,800          3,956   58,683       57,511        92,807          119,676       55,382        44,772        43,287           472,118

           162   Sorghum     280.4         280.2           52        52            2           3              4                4            2             1             2                18

           162   UPCN         11.4          11.5      727           435       247          213           341              440          194           158           153             1,746

           162   Wheat       668.5         668.0           41        41           14           11           16               22            10             7             7                87

  *52      163   Corn              0.0       4.4           0         62       (58)       (111)         (129)            (166)          (73)          (60)          (57)             (654)

           163   Oats              0.0      10.2           0         49       (14)         (13)         (20)             (26)          (13)              (9)           (9)          (104)

           163   Rice        506.1         135.2    5,480          5,484   47,772       46,818        75,552           97,424       45,085        36,448        35,239           384,338

           163   Sorghum      33.1          52.3           54        58     (344)        (578)         (720)            (926)         (394)         (319)         (308)           (3,589)

           163   UPCN              0.0       7.1           0        447     (238)        (205)         (328)            (422)         (187)         (151)         (147)           (1,678)

           163   Wheat       207.6         241.4           34        34     (853)        (615)         (969)          (1,242)         (556)         (449)         (440)           (5,124)




        USDA/OIG-A/03006-18-Te                                                                                                                                    Page 76
                                                                     SEPTEMBER 2000
        EXHIBIT D - PFC OVER/UNDER PAYMENTS BASED ON
        TASK            FORCE REVIEW

                               CONTRACT
                               ACREAGE                      YIELD                                                   PFC OVER(UNDER)PAYMENTS A/

 (1)      (2)       (3)      (4)           (5)        (6)          (7)       (8)          (9)          (10)             (11)          (12)          (13)          (14)            (15)
                                          PER                     PER                                                                                                           TOTAL
COUNT    FARM     CROP     PER CO        REVIEW     PER CO       REVIEW     1996         1997         1998 B/          1999 B/       2000 C/       2001 C/       2002 C/       1996-2002

  *53      165   Corn         50.5          28.9            85        82       409          791            918            1,184          521           424           408             4,655

           165   Oats        148.2          85.8            49        49           86           79         122              156              78            52            52            625

           165   Rice        953.8         590.4     5,801          4,015    74,342       72,858       117,573          151,612       70,161        56,720        54,839           598,105

           165   Sorghum     162.3         192.3            52        52      (429)        (721)         (898)          (1,152)         (491)         (398)         (385)           (4,474)

           165   UPCN         11.5          12.1       727           436       234          201            322              414          183           149           144             1,647

           165   Wheat       626.0         629.6            41        40       356          258            405              520          232           187           183             2,141

  *54      166   Corn         94.2          63.2            78        78       517         1,000         1,161            1,496          659           535           515             5,883

           166   Oats         38.9          59.2            49        49       (28)         (26)          (40)             (50)          (25)          (17)          (17)             (203)

           166   Rice      1,923.0        1,117.2    5,457          5,452   103,510      101,442       163,702          211,092       97,687        78,973        76,353           832,759

           166   Sorghum     333.1         343.9            54        54      (161)        (270)         (336)            (432)         (184)         (149)         (144)           (1,676)

           166   UPCN         65.1          55.7       727           443      1,710        1,468         2,356            3,034        1,340         1,085         1,053            12,046

           166   Wheat     2,441.6        2,264.3           33        33      4,346        3,137         4,934            6,336        2,834         2,288         2,238            26,113

   55      167   Wheat        11.0          10.8            32        32            6            4              6                8            3             3             3                33

   56      168   Wheat        47.5          43.8            32        32           90           65         102              132              58            47            46            540

   57      169   Rice         57.8          37.0     3,357          3,357     1,634        1,601         2,584            3,332        1,542         1,247         1,206            13,146

   58      170   Rice         10.2            0.0    5,448             0      1,311        1,285         2,073            2,674        1,237         1,000           967            10,547

           170   Wheat        17.3          24.9            35        35      (198)        (143)         (226)            (290)         (130)         (104)         (102)           (1,193)

  *59      171   Rice         13.6            0.0    5,448          5,448     1,748        1,713         2,764            3,564        1,649         1,333         1,289            14,060

           171   Wheat       123.1         137.4            35        35      (373)        (269)         (423)            (544)         (243)         (196)         (193)           (2,241)

   60      172   Wheat       943.6         943.5            50        50            4            4              5                6            3             2             2                26

  *61      173   Corn        192.0         192.9            85        85       (17)         (33)          (39)             (48)          (22)          (17)          (17)             (193)

           173   Oats              8.0        9.3           49        49           (2)          (2)           (2)              (4)           (2)           (1)           (1)           (14)

           173   Rice      1,247.3        1,060.3    5,435          4,822    39,164       38,382        61,938           79,870       36,961        29,880        28,889           315,084

           173   Sorghum     211.5         206.6            52        51       127          214            267              342          145           118           114             1,327

           173   UPCN         27.4          17.0       727           438       941          808          1,296            1,670          737           597           580             6,629

           173   Wheat       698.1         743.2            35        35    (1,172)        (846)       (1,331)          (1,708)         (764)         (616)         (603)           (7,040)




        USDA/OIG-A/03006-18-Te                                                                                                                                      Page 77
                                                                      SEPTEMBER 2000
          EXHIBIT D - PFC OVER/UNDER PAYMENTS BASED ON
          TASK            FORCE REVIEW

                                            CONTRACT
                                            ACREAGE                       YIELD                                                      PFC OVER(UNDER)PAYMENTS A/

   (1)            (2)       (3)           (4)           (5)         (6)          (7)         (8)          (9)           (10)              (11)          (12)          (13)          (14)            (15)
                                                       PER                      PER                                                                                                               TOTAL
 COUNT           FARM     CROP          PER CO        REVIEW      PER CO       REVIEW       1996         1997         1998 B/           1999 B/        2000 C/       2001 C/       2002 C/       1996-2002

    *62            174   Corn              56.9           52.5            76          62        230          443           515               662           292           237           229              2,608

                   174   Oats             117.7           93.7            49          49           33           30             47                60            30            20            20            240

                   174   Rice           2,049.4        1,446.3      5,479          5,454    78,522       76,954        124,183           160,136        74,105        59,908        57,921           631,729

                   174   Sorghum          209.0         198.6             59          58        224          377           470               604           257           208           201              2,341

                   174   UPCN              47.0           39.9        727            443      1,249        1,072          1,721             2,218          979           793           770              8,802

                   174   Wheat          1,629.3        1,565.7            33          33      1,560        1,126          1,771             2,274        1,018           821           804              9,374

     63            175   Corn                   0.0        0.2            0           62           (3)          (6)            (7)           (10)              (4)           (3)           (3)           (36)

                   175   Oats                   0.0        0.3            0           49            0            0             (1)                0             0             0             0                (1)

                   175   Rice                   0.0        3.7            0        5,443      (467)        (457)          (738)             (952)         (440)         (356)         (344)           (3,754)

                   175   Sorghum                0.0        1.2            0           58       (19)         (32)           (39)              (50)          (21)          (17)          (17)             (195)

                   175   UPCN                   0.0        0.2            0          443           (8)          (7)        (11)              (14)              (6)           (5)           (5)           (56)

                   175   Wheat             16.2            8.2            33          33        196          141           223               286           128           103           101              1,178

     64            176   Corn                   0.0        0.6            0           62           (8)      (15)           (17)              (22)          (10)              (8)           (8)           (88)

                   176   Oats                   0.0        1.3            0           49           (2)          (2)            (3)               (4)           (2)           (1)           (1)           (15)

                   176   Rice                   0.0       14.6            0        5,443    (1,867)      (1,829)        (2,952)           (3,806)       (1,762)       (1,424)       (1,377)          (15,017)

                   176   Sorghum                0.0        4.9            0           58       (79)        (132)          (165)             (212)          (90)          (73)          (71)             (822)

                   176   UPCN                   0.0        0.9            0          443       (31)         (27)           (43)              (56)          (25)          (20)          (19)             (221)

                   176   Wheat             64.4           32.8            33          33        773          558           877              1,128          504           406           398              4,644

         Total                          28,568.4       23,577.0    186,715        183,111   $789,294     $766,412     $1,241,319        $1,600,744     $740,770      $598,878      $579,038         $6,316,455


    Crop Count                    130


     Difference                                         4,991.4                     3,604


 Total 1996 and 1997 Over(Under)Payments                                                                                                                                                            $1,555,706


Total 1996 through 1998 Over(Under)Payments                                                                                                                                                         $2,797,025


Total 2000 through 2002 Over(Under)Payments                                                                                                                                                         $1,918,686


Total 1998 through 2002 Over(Under)Payments                                                                                                                                                         $4,760,749



MPA = Maximum Payment Acres

A/ Payment per CO rounded to whole dollars less payment per review rounded to whole dollars. Payment per CO equals (4) x applicable MPA (rounded to one decimal place) x
(6) applicable payment rate. Payment per review equals (5) x applicable MPA (rounded to one decimal place) x (5) x applicable payment rate.

B/ Includes Market Loss Assistance (MLA) payments.

C/ Estimated (based on official low estimated payment rate).

* Farms with ties to producer 2 (15 farms with $5,880,229 in questioned rice PFC payments).




          USDA/OIG-A/03006-18-Te                                                                                                                                                      Page 78
                                                                                      SEPTEMBER 2000
EXHIBIT E - PFC OVERPAYMENTS FOR IMPROPER P&CP

                CREDIT THAT INCREASED RICE CAB’S




USDA/OIG-A/03006-18-Te                             Page 79
                         SEPTEMBER 2000
EXHIBIT F - 1993 THROUGH 1995 RBW THAT WERE GHOST
            ACRES AND/OR FAILED OR PP



                                                             RBW ACRES 1/

        (1)          (2)          (3)           (4)               (5)         (6)            (7)        (8)
                                                                                                     INITIAL
                                                                                           FAILED      PP
                                               GHOST                                       OR PP      RICE
       COUNT       FARM 2/       TOTAL        ACRES 3/          FAILED        PP           (5)+(6)   ACRES

                                                  1993

               1      4      N     126.2               0.0              0.0     126.2        126.2       0.0
                             P

               2      6      N      33.0               0.0              0.0         33.0      33.0       0.0
                             P

               3      7      N      41.3               0.0              0.0         41.3      41.3       0.0
                             P

               4      8      N      36.1               0.0              0.0         36.1      36.1       0.0
                             P

               5      9      N      27.1               0.0              0.0         27.1      27.1       0.0
                             P

               6     13      P      15.9               0.0          15.9             0.0      15.9      48.0

               7     14      P          0.0            0.0              0.0          0.0       0.0       3.2

               8     21      P          0.0            0.0              0.0          0.0       0.0      11.5

               9     27      P      10.0              10.0              0.0          0.0       0.0       0.0

              10     28      P     205.6               0.0         205.6             0.0     205.6       0.0

              11     37      N   1,130.4          348.7            343.6        786.8      1,130.4       0.0
                             P

              12     41      N          0.0            0.0              0.0          0.0       0.0      73.3
                             P

              13     44      P          0.0            0.0              0.0          0.0       0.0       5.4

              14     45      P          0.0            0.0              0.0          0.0       0.0       8.7

              15     52      N     147.9               0.0              0.0     147.9        147.9       0.0
                             P

              16     53      P          0.0            0.0              0.0          0.0       0.0      14.0

              17     54      P      90.0              90.0              0.0          0.0       0.0       0.0

              18     55      P      24.0               0.0          24.0             0.0      24.0       0.0

              19     57      N   1,537.8          253.1            252.9      1,284.9      1,537.8       0.0
                             P




USDA/OIG-A/03006-18-Te                                                                                    Page 80
                                         SEPTEMBER 2000
EXHIBIT F - 1993 THROUGH 1995 RBW THAT WERE GHOST
            ACRES AND/OR FAILED OR PP


                                                             RBW ACRES 1/

        (1)            (2)        (3)           (4)               (5)         (6)            (7)           (8)
                                                                                                        INITIAL
                                                                                           FAILED         PP
                                               GHOST                                       OR PP         RICE
       COUNT       FARM 2/       TOTAL        ACRES 3/          FAILED        PP           (5)+(6)      ACRES

              20       66    N      33.4               0.0              0.0         33.4      33.4          0.0
                             P

              21       67    N          0.0            0.0              0.0          0.0       0.0        140.9
                             P

              22       89    N          0.0            0.0              0.0          0.0       0.0          6.9
                             P

              23       91    N     662.6               0.0              0.0     662.6        662.6        222.0
                             P

              24       92    N      70.0               0.0              0.0         70.0      70.0          0.0
                             P

              25       94    N      33.6               0.0              0.0         33.6      33.6          0.0
                             P

              26       102   P          0.0            0.0              0.0          0.0       0.0         60.4

              27       104   P      49.3              49.3          49.3             0.0      49.3          0.0

              28       106   p          0.0            0.0              0.0          0.0       0.0         20.0

              29       110   N     150.2               0.0              0.0     150.2        150.2          0.0
                             P

              30       112   N     337.8          337.8            327.8            10.0     337.8          0.0
                             P

              31       114   P     162.8          162.8            162.8             0.0     162.8          0.0

              32       117   P      40.0              40.0          40.0             0.0      40.0          0.0

              33       118   P     427.8          427.8            427.8             0.0     427.8          0.0

              34       119   P     271.0          271.0            271.0             0.0     271.0          0.0

              35       121   N     122.9          113.2            113.2             9.7     122.9         58.8
                             P

        TOTAL (1993)             5,786.7        2,103.7          2,233.9      3,452.8      5,686.7        673.1

        COUNT (1993)                    25             11               12           15            23        13

                                                  1994

               1         1   P      45.0              45.0              0.0          0.0       0.0          0.0

               2         2   P      32.6              32.6              0.0          0.0       0.0          0.0




USDA/OIG-A/03006-18-Te                                                                                       Page 81
                                         SEPTEMBER 2000
EXHIBIT F - 1993 THROUGH 1995 RBW THAT WERE GHOST
            ACRES AND/OR FAILED OR PP


                                                             RBW ACRES 1/

        (1)          (2)          (3)           (4)               (5)           (6)           (7)        (8)
                                                                                                      INITIAL
                                                                                            FAILED      PP
                                               GHOST                                        OR PP      RICE
       COUNT       FARM 2/       TOTAL        ACRES 3/          FAILED          PP          (5)+(6)   ACRES

               3      6      N      33.0              33.0              0.0           0.0       0.0       0.0
                             P

               4      7      P      41.3              41.3              0.0           0.0       0.0       0.0

               5      8      N      36.1               0.0          36.1              0.0      36.1       0.0
                             P

               6      9      N      27.1               0.0          27.1              0.0      27.1       0.0
                             P

               7     10      P      22.0              22.0              0.0           0.0       0.0       0.0

               8     19      P      10.0              10.0              0.0           0.0       0.0       0.0

               9     22      P          2.8            2.8              0.0           0.0       0.0       0.0

              10     23      P          6.0            6.0              0.0           0.0       0.0       0.0

              11     26      P      74.7              74.7              0.0           0.0       0.0       0.0

              12     28      P      30.0              27.0              0.0           0.0       0.0       0.0

              13     30      P      24.2              24.2              0.0           0.0       0.0       0.0

              14     31      P     130.0          130.0                 0.0           0.0       0.0       0.0

              15     32      P      18.4              18.4              0.0           0.0       0.0       0.0

              16     33      P          3.0            3.0              0.0           0.0       0.0       0.0

              17     34      P          3.9            3.9              0.0           0.0       0.0       0.0

              18     35      P      30.0              30.0              0.0           0.0       0.0       0.0

              19     36      N     110.0          110.0                 0.0           0.0       0.0       0.0
                             P

              20     37      N   1,130.4          745.4                 0.0   A/ 1,130.4    1,130.4       0.0
                             P

              21     40      P      10.0              10.0              0.0           0.0       0.0       0.0

              22     43      N      31.7              31.7              0.0           0.0       0.0       0.0
                             P

              23     44      P          0.0            0.0              0.0           0.0       0.0       7.4

              24     47      P      21.9              21.9              0.0           0.0       0.0       0.0




USDA/OIG-A/03006-18-Te                                                                                     Page 82
                                         SEPTEMBER 2000
EXHIBIT F - 1993 THROUGH 1995 RBW THAT WERE GHOST
            ACRES AND/OR FAILED OR PP


                                                             RBW ACRES 1/

        (1)          (2)          (3)           (4)               (5)          (6)           (7)        (8)
                                                                                                     INITIAL
                                                                                           FAILED      PP
                                               GHOST                                       OR PP      RICE
       COUNT       FARM 2/       TOTAL        ACRES 3/          FAILED        PP           (5)+(6)   ACRES

              25     49      N      16.0              16.0              0.0          0.0       0.0       0.0
                             P

              26     55      P      11.0              11.0              0.0          0.0       0.0       0.0

              27     56      P          8.0            8.0              0.0          0.0       0.0       0.0

              28     59      P      40.3              40.3              0.0          0.0       0.0       0.0

              29     60      P      32.6              32.6              0.0          0.0       0.0       0.0

              30     63      P      27.0              27.0              0.0          0.0       0.0       0.0

              31     66      N      33.4              33.4              0.0          0.0       0.0       0.0
                             P

              32     69      P     131.0          131.0                 0.0          0.0       0.0       0.0

              33     77      P     100.0          100.0            100.0             0.0     100.0       0.0

              34     78      P          3.5            3.5              0.0          0.0       0.0       0.0

              35     81      P     108.3          108.3                 0.0          0.0       0.0       0.0

              36     90      P      68.0              68.0              0.0          0.0       0.0       0.0

              37     96      N    B/ 40.0             40.0              0.0          0.0       0.0       0.0
                             P

              38    102      P      19.1              19.1              0.0          0.0       0.0       0.0

              39    103      P     127.8          127.8                 0.0          0.0       0.0       0.0

              40    109      P      67.8              67.8              0.0          0.0       0.0       0.0

              41    113      P          9.4            9.4              0.0          0.0       0.0       0.0

              42    114      P     101.3          101.3                 0.0          0.0       0.0       0.0

              43    124      P      26.3              26.3              0.0          0.0       0.0       0.0

              44    126      P      30.0              30.0              0.0          0.0       0.0       0.0

              45    128      P      17.2              17.2              0.0          0.0       0.0       0.0

              46    129      N     203.6          203.6            203.6             0.0     203.6       0.0
                             P

              47    132      N     909.9          149.3                 0.0   C/ 909.9       909.9      66.9
                             P




USDA/OIG-A/03006-18-Te                                                                                    Page 83
                                         SEPTEMBER 2000
EXHIBIT F - 1993 THROUGH 1995 RBW THAT WERE GHOST
            ACRES AND/OR FAILED OR PP


                                                              RBW ACRES 1/

        (1)            (2)         (3)           (4)               (5)         (6)           (7)          (8)
                                                                                                       INITIAL
                                                                                           FAILED        PP
                                                GHOST                                      OR PP        RICE
       COUNT       FARM 2/       TOTAL         ACRES 3/          FAILED        PP          (5)+(6)     ACRES

              48       134   P     195.3           195.3                 0.0         0.0       0.0         0.0

              49       135   P     340.1           340.1                 0.0         0.0       0.0         0.0

              50       143   P   D/ 178.3          178.3             73.2            0.0      73.2         0.0

              51       144   N   E/ 117.0          117.0             53.0            0.0      53.0         0.0
                             P

              52       145   P       69.9              69.9          69.9            0.0      69.9         0.0

              53       146   N           0.0            0.0              0.0         0.0       0.0       251.6
                             P

              54       147   P       56.3              56.3              0.0         0.0       0.0         0.0

        TOTAL (1994)              4,962.5        3,750.7            562.9      2,040.3     2,603.2       325.9

        COUNT (1994)                     52             50                7           2            9         3



                                                   1995

               1         2   P           9.5            9.5              0.0         0.0       0.0         0.0

               2       11    P           0.9            0.9              0.0         0.0       0.0         0.0

               3       16    P       16.1              16.1              0.0         0.0       0.0         0.0

               4       38    P       28.1              28.1              0.0         0.0       0.0         0.0

               5       44    P           7.2            7.2              0.0         0.0       0.0         0.0

               6       51    P       36.6              36.6              0.0         0.0       0.0         0.0

               7       65    P       30.0              30.0              0.0         0.0       0.0         0.0

               8       78    P       65.0              65.0              0.0         0.0       0.0         0.0

               9       81    P     131.3           131.3                 0.0         0.0       0.0         0.0

              10       84    P           3.0            3.0              0.0         0.0       0.0         0.0

              11       101   N       23.4              23.4              0.0         0.0       0.0         0.0
                             P

              12       103   P           4.0            4.0              0.0         0.0       0.0         0.0

              13       157   P       80.0              80.0              0.0         0.0       0.0         0.0




USDA/OIG-A/03006-18-Te                                                                                      Page 84
                                          SEPTEMBER 2000
EXHIBIT F - 1993 THROUGH 1995 RBW THAT WERE GHOST
            ACRES AND/OR FAILED OR PP


                                                                         RBW ACRES 1/

          (1)               (2)              (3)            (4)               (5)         (6)            (7)           (8)
                                                                                                                    INITIAL
                                                                                                      FAILED          PP
                                                         GHOST                                        OR PP          RICE
       COUNT             FARM 2/           TOTAL        ACRES 3/            FAILED        PP          (5)+(6)       ACRES

                14         158     P           95.1               95.1              0.0         0.0        0.0          0.0

          TOTAL (1995)                        530.2           530.2                 0.0         0.0        0.0          0.0

          COUNT (1995)                             14              14                0           0              0         0

      GRAND TOTAL (1993-1995)              11,279.4         6,384.6          2,796.8      5,493.1      8,289.3        999.0

           COUNT (1993-1995)                       91              75               19          17             32        16



      1/ Rice was coded in the automated system as double cropped behind wheat.

      2/ Farms are annotated to indicate whether the rice was participating (P) or nonparticipating (NP) in ARP.

      3/ RBW which was failed or PP.

      A/ For disaster purposes, claimed PP rice acreage was first reduced to 981.7 acres because the COC determined some of the
         land was not conducive to rice production, then denied for various reasons.

      B/ Harvested ghost rice acres.

      C/ For disaster purposes, claimed PP rice acreage was first reduced to 656.7 acres because the COC determined some of the
         land was not suitable for growing rice, then denied for various reasons.

      D/ 178.3 acres of ghost rice (73.2 acres of failed and 105.1 acres of harvested).

      E/ 117.0 acres of ghost rice (53 acres of failed and 64.0 acres of harvested).




USDA/OIG-A/03006-18-Te                                                                                                   Page 85
                                                    SEPTEMBER 2000
EXHIBIT G - SUMMARY OF 1989 THROUGH 1995 RBW
          HISTORY IN JACKSON COUNTY

                                                         REPORTED ACREAGE

                                                                RICE BEHIND WHEAT 1/

                                                     RICE AND WHEAT            WHEAT PP OR         RICE PP OR
                                    TOTAL              SUCCESSFUL               FAILED 2/            FAILED

      YEAR        RICE        ACRES         % 3/     ACRES         % 4/       ACRES     % 4/     ACRES     % 4/

        1989           ND         504.3       ND        341.1      67.64        163.2    32.36       0.0        0.00

        1990           ND         721.0       ND        567.3      78.68          5.0     0.69    148.7     20.62

        1991           ND         788.4       ND        588.0      74.58        200.4    25.42       0.0        0.00

        1992     86,002.6       1,602.3      1.86       388.2      24.23      1,200.0    74.89    124.0         7.74

        1993     84,733.2       5,944.8      7.02       158.1       2.66      2,103.7    35.39   5,686.7    95.66

        1994     94,018.2       5,338.2      5.68       378.7       7.09      3,750.7    70.26   2,603.2    48.77

        1995     84,651.2       2,343.0      2.77     1,812.8      77.37        530.2    22.63       0.0        0.00

 Total 1993-1995 A/            13,626.0               2,349.6                 6,384.6            8,289.9

 Average 1989-1992                904.0

 Average 1993-1994              5,641.5


 ND = No data available.

 1/   Rice was coded in the automated system as doublecropped behind wheat.
 2/   Rice would be considered ghost acres.
 3/   Percentage of total rice reported.
 4/   Percentage of RBW reported.
 A/   Base years for 1996 CAB/contract acreage.




USDA/OIG-A/03006-18-Te                                                                           Page 86
                                             SEPTEMBER 2000
           EXHIBIT H - EFFECT OF UNAUTHORIZED RICE CAB
                        INCREASES IN 1993

                                 CAB                                                           OVER(UNDER)PAYMENTS A/

   (1)         (2)         (3)       (4)           (5)       (6)        (7)         (8)        (9)         (10)        (11)        (12)        (13)         (14)          (15)
             YIELD                  PER
              PER                  REVIEW                                                                                                                               TOTAL
 FARM         CO         PER CO      B/           1993      1994       1995        1996       1997       1998 C/     1999 C/     2000 C/     2001 C/      2002 C/      1993-2002

    115          5,800     975.5        775.5    $ 36,935   $ 37,370   $ 29,882   $ 27,268   $ 26,724    $ 43,125    $ 55,610    $ 25,734     $ 20,804     $ 20,114      $ 323,566

    117          5,800     943.0        643.1      55,379     56,054     44,804     40,903     40,086      64,689      83,416      38,602       31,207      30,171         485,311

    118          5,433   1,528.6       1,228.6     51,896     52,507     41,986     38,315     37,549      60,595      78,138      36,159       29,232      28,263         454,640

    119          5,433   1,686.4       1,186.5     86,471     87,491     69,959     63,843     62,568     100,968     130,198      60,251       48,709      47,093         757,551


         Total           5,133.5       3,833.7   $230,681   $233,422   $186,631   $170,329   $166,927    $269,377    $347,362    $160,746     $129,952    $125,641      $2,021,068


 Total 1993-1995 Overpayments                                                                                                                                            $ 650,734

 Total 1996-1997 Overpayments                                                                                                                                            $ 337,256

 Total 1993-1997 Overpayments                                                                                                                                            $ 987,990

 Total 1998-2002 Overpayments                                                                                                                                           $1,033,078




A/ Payments rounded to whole dollars. Payment (per CO) equals ((3) x applicable MPA) rounded to 1 decimal place x (2) x applicable payment rate. Payment per review equals ((4) x
       applicable maximum payment acres (MPA)) rounded to 1 decimal place x (2) x applicable payment rate.

B/ CAB prior to increase in 1993.

C/ Includes MLA Payments.

D/ Estimated (based on official low estimated payment rate)




           USDA/OIG-A/03006-18-Te                                                                                                                        Page 87
                                                                         SEPTEMBER 2000
                 USDA/OIG-A/03006-18-Te




                                                                                                                                                                                                                                  EXHIBIT I - EFFECT OF UNAUTHORIZED RICE YIELD
                                                                         YIELD
                                                                     (POUNDS/ACRE)                                                            OVER(UNDER)PAYMENTS A/




                                                                                                                                                                                                                                               INCREASES IN 1992
                                            (1)       (2)                        (4)      (5)        (6)        (7)       (8)        (9)       (10)        (11)         (12)        (13)       (14)        (15)        (16)
                                                     CAB/              (3)
                                                   CONTRACT                     PER
                                                   ACREAGE                     REVIEW                                                                                                                                 TOTAL
                                           FAR      PER CO           PER CO      B/       1992      1993       1994       1995      1996       1997       1998 C/      1999 C/     2000 D/    2001 D/     2002 D/    1992-2002
                                            M


                                              80        1,319.1        5,816     3,816    $94,405    $84,001    $84,987   $67,962   $62,015     $60,776     $98,078     $126,470    $58,526     $47,315    $45,745     $830,280


                                              87          546.4        5,238     4,238     19,553     17,397     17,602    14,075    12,844      12,588      20,314       26,194     12,122       9,800      9,475      171,964
SEPTEMBER 2000




                                                             Total                       $113,958   $101,398   $102,589   $82,037   $74,859     $73,364    $118,392     $152,664    $70,648     $57,115    $55,220   $1,002,244


                                           Total 1992-1995 Overpayments                                                                                                                                                $399,982


                                           Total 1996-1997 Overpayments                                                                                                                                                $148,223


                                           Total 1992-1997 Overpayments                                                                                                                                                $548,205


                                           Total 1998-2002 Overpayments                                                                                                                                                $454,039


                                          MPA = Maximum payment acres.


                                          A/ Payments rounded to whole dollars. Payment per CO = ((2) x applicable MPA) rounded to 1 decimal place x (3) x applicable payment rate. Payment per review = ((2) x
                                                applicable MPA) rounded to 1 decimal place x (4) x applicable payment rate.

                                          B/ Yield prior to increase in 1992.

                                          C/ Includes MLA payments.

                                          D/ Estimated (based on official low estimated payment rate).
                 Page 88
     EXHIBIT J - EFFECT OF UNAUTHORIZED UPCN YIELD
                  INCREASES
                                                 YIELD (POUNDS/ACRE)

                                                                  DIFFERENCE                                          OVER(UNDER)PAYMENTS A/

                                         (4)                                  (7)
    (1)            (2)       (3)                    (5)          (6)           %        (8)       (9)       (10)          (11)          (12)       (13)       (14)
                          CONTRACT                 PER                    INCREAS                                                                                         (15)
                          ACREAGE       PER       REVIEW        PER            E                                                                                        TOTAL
 COUNT            FARM     PER CO       CO          B/         ACRE        (6) ÷ (5)   1996      1997      1998 C/       1999 C/       2000 D/    2001 D/    2002 D/   1996-2002

          1          12       130.6        727         438        289             66   $2,849    $2,446     $3,925         $5,056       $2,233     $1,809     $1,755     $20,073

          2          20       106.4        727         431        296             69    2,376     2,040      3,275          4,218        1,862      1,510      1,464      16,745

          3          25       174.8        727         424        303             71    3,999     3,434      5,510          7,096        3,134      2,539      2,463      28,175

          4          48        41.0        727         430        297             69      921       791      1,269          1,632          722        585       567        6,487

          5          58        44.2        727         429        298             69      995       854      1,371          1,766          780        632       613        7,011

          6          61        23.2        727         430        297             69      520       446        716               922       407        330       320        3,661

          7          62        20.4        727         395        332             84      510       438        703               906       399        324       314        3,594

          8          64        38.0        727         430        297             69      852       732      1,174          1,512          667        541       524        6,002

          9          82        78.3        727         428        299             70    1,768     1,518      2,437          3,138        1,386      1,123      1,089      12,459

          10         83       241.8        727         446        281             63    5,128     4,403      7,066          9,102        4,019      3,257      3,159      36,134

          11       140          6.9        727         416        311             75      163       140        225               290       128        104       101        1,151

      *12          159         15.6        727         441        286             65      338       290        465               600       265        214       208        2,380

          13       160         31.9        727         446        281             63      676       580        932           1200          530        429       417        4,764

      *14          162         11.4        727         435        292             67      251       216        347               448       197        160       155        1,774

      *15          165         11.5        727         436        291             67      253       217        349               448       199        161       156        1,783

      *16          166         65.1        727         443        284             64    1,395     1,198      1,922          2,476        1,093        885       859        9,828

      *17          173         27.4        727         438        289             66      599       514        824          1,062          469        379       369        4,216

      *18          174         47.0        727         443        284             64    1,009       866      1,391          1,792          791        641       622        7,112

          Total              1,115.5    13,086        7,779      5,307                 $24,602   $21,123    $33,901       $43,664       $19,281    $15,623   $15,155    $173,349

      Average                              727          432       295

 Total 1996 and 1997 Over(Under)Payments                                                                                                                                 $45,725

 Total 1996-1998 Over(Under)Payments                                                                                                                                     $79,626

 Total 1999-2002 Over(Under)Payments                                                                                                                                     $93,723

 Total 1998-2002 Over(Under)Payments                                                                                                                                    $127,624



A/ Payment (per CO) rounded to whole dollars, less payment per review rounded to whole dollars. Payment (per CO) equals ((3) x.85) rounded to 1 decimal place x (4) x
       applicable payment rate. Payment per review equals ((3) x.85) rounded to 1 decimal place x (5) x applicable payment rate.

B/ Yield prior to increase in 1996.

C/ Includes MLA payments.

D/ Estimated (based on official low estimated payment rate).

* Farms with ties to producer 2 (six farms and $27,093 in questioned payments).




     USDA/OIG-A/03006-18-Te                                                                                                                                    Page 89
                                                                              SEPTEMBER 2000
EXHIBIT K - IRREGULARITIES IN FAILED RBW AND
              PP RICE CLAIMS FOR 1993 AND 1994
                                                               NOTED IRREGULARITIES


                                                   SOYBEAN                             LATE-
                                                       S                               FILED
                           NO RICE   INTERJECTED   CERTIFIED    SOYBEAN     PPRBW       RICE     LATE-FILED
                   TYPE    HISTORY       RICE      PRIOR TO      S WERE     DISKED     FORM      RICE FORM
    COUNT   FARM   RICE       1/     PRODUCER 2/     RICE       INTENDED       3/     ASCS-578    ASCS-574    OTHER


                                                        1993

        1      4   PPRBW                                           A/

       *2      6   PPRBW

       *3      7   PPRBW

       *4      8   PPRBW                                           A/

       *5      9   PPRBW                                           A/

                    IPP                                                                                         E/
        6     13
                   FRBW                                                                              B/

        7     14    IPP                                                                  F/

        8     21    IPP                                                                  F/

        9     28   FRBW                                                                              B/

                   PPRBW                                                                                        E/
      *10     37
                   FRBW                                                                              B/

       11     41    IPP                                                                  F/

       12     44    IPP                                                                  F/

       13     45    IPP                                                                  F/

      *14     52   PPRBW

       15     53    IPP                                                                                         G/

       16     55   FRBW

                   PPRBW     C/                                                                                 E/
      *17     57
                   FRBW      C/                                                                      B/

      *18     66   PPRBW

       19     67    IPP

      *20     89    IPP

                   PPRBW                                           A/
      *21     91
                    IPP

      *22     92   PPRBW                                           A/

      *23     94   PPRBW                                           A/                                           G/

       24    102    IPP                                                                  F/

      *25    104   FRBW                                                                              B/




USDA/OIG-A/03006-18-Te                                                                                    Page 90
                                         SEPTEMBER 2000
EXHIBIT K - IRREGULARITIES IN FAILED RBW AND
              PP RICE CLAIMS FOR 1993 AND 1994
                                                                                               NOTED IRREGULARITIES


                                                                               SOYBEAN                                 LATE-
                                                                                   S                                   FILED
                                             NO RICE       INTERJECTED         CERTIFIED        SOYBEAN     PPRBW       RICE     LATE-FILED
                                 TYPE        HISTORY           RICE            PRIOR TO          S WERE     DISKED     FORM      RICE FORM
        COUNT        FARM        RICE           1/         PRODUCER 2/           RICE           INTENDED       3/     ASCS-578    ASCS-574    OTHER

              26        106       IPP                                                                                    F/

             *27        110      PPRBW                                                             A/

                                 PPRBW                                                                                                         E/ G/
             *28        112
                                 FRBW                                                                                                B/

             *29        114      FRBW                                                                                                B/

             *30        117      FRBW                                                                                                B/

             *31        118      FRBW                                                                                                B/

             *32        119      FRBW                                                                                                B/

                                 PPRBW                                                                                                          E/

             *33        121       IPP                                                                                                           E/

                                 FRBW                                                                                                B/


                     Count                       12              18                 6              7          16         23          20         8


                                                                                        1994

               1          8      FRBW            D/                                                                                  B/

               2          9      FRBW            D/                                                                                  B/

               3         37      PPRBW           D/

               4         44       IPP

               5         77      FRBW                                                                                               ND

              *6         96      FRBW

              *7        129      FRBW                                                                                               B/

                                 PPRBW
              *8        132
                                  IPP

              *9        143      FRBW                                                                                                B/

             *10        144      FRBW                                                                                                B/

             *11        145      FRBW                                                                                                B/

              12        146       IPP


                     Count                       2                6                 2              4           1         0           3          0


                   Grand Count                   14              24                 8              11         17         23          23         8


* - Farms with ties to producer 2 (26 farms with interjected rice producers on 22 farms).




USDA/OIG-A/03006-18-Te                                                                                                                    Page 91
                                                                 SEPTEMBER 2000
EXHIBIT K - IRREGULARITIES IN FAILED RBW AND
              PP RICE CLAIMS FOR 1993 AND 1994
PP = Prevented Planted
ND = No Data
PPRBW = Prevented Planted RBW
FRBW = Failed RBWIPP = Initial Prevented Planted Rice


1/         See exhibit N. Average 3 preceding-year’s rice P&CP history = 0.0 acres.

2/         The reported failed RBW or PP rice producer did not have an interest in the preceding crop (generally wheat) or in the succeeding crop (generally soybeans) on the rice acreage
           during the same crop year.

3/         Rice was PPRBW and land preparation (per form ASCS-574) included disking, which indicated levees were neither pulled in the fall when the wheat was planted nor in the spring.
           Rice could not have been planted until after the wheat harvest.

A/         The operator filed the wheat form ASCS-574 after he certified both the following PP RBW and soybean crops (on form ASCS-578); the form ASCS-574 showed the wheat ground
           was planted to soybeans at the time the wheat form ASCS-574 was filed.

B/         We were unable to determine a date of loss; since form ASCS-578 and form ASCS-574 filing deadlines for failed crops were based upon the date of loss, we were unable to
           determine whether the forms were late-filed.

C/         Average 3 preceding-year’s rice P&CP history was only 89.5 acres, compared with the PPRBW claim of 1,284.9 acres and the FRBW claim of 252.9 acres.

D/         The 3 preceding-year’s history was solely composed of questionable failed and PP RBW acres claimed in 1993.

E/         The operator certified both PP rice and failed RBW on the farm, i.e., producers were able to plant some rice on the farm. Also, the operator certified and applied for credit on
           the failed rice in June 1993, but neither certified nor applied for credit on the PP rice until August and July of 1993, respectively.

F/         The rice was never certified on form ASCS-578. The acreage was shown as grass cover.

G/         The operator certified both PP rice and initial failed rice on the farm, i.e., producers were able to plant some rice on the farm.




USDA/OIG-A/03006-18-Te                                                                                                                                       Page 92
                                                                    SEPTEMBER 2000
EXHIBIT L - FAILED RBW AND PP RICE THAT RECEIVED
             DISASTER PAYMENTS

                                          DISASTER PAYMENT ACRES


                                   FAILED OR PP RICE BEHIND                                         DISASTER PAYMENTS ON
                                      SUCCESSFUL WHEAT                                    (6)         QUESTIONED ACRES
                                                                                        TOTAL
                    (1)          (2)         (3)                  (4)         (5)    QUESTIONE                   GHOST
                                                                TOTAL      INITIAL    D ACRES         TOTAL      ACRES
  COUNT   FARM     GHOST        FAILED       PP                 (2)+(3)    PP RICE    (1)+(4)+(5)   PAYMENTS      ONLY


                                                         1993

     *1    6              0.0      0.0         33.0                 33.0       0.0          33.0     $ 2,019    $        0

     *2    7              0.0      0.0         34.5                 34.5       0.0          34.5       2,883             0

     *3    8              0.0      0.0         36.1                 36.1       0.0          36.1       2,134             0

     *4    9              0.0      0.0         27.1                 27.1       0.0          27.1       1,602             0

      5    13             0.0     15.9             0.0              15.9      48.0          63.9       9,847             0

      6    28             0.0    205.6             0.0            205.6        0.0         205.6      40,937             0

     *7    37       348.7          0.0       781.7                781.7        0.0       1,130.4     118,381        36,521

      8    41             0.0      0.0             0.0               0.0      47.5          47.5       2,808             0

      9    44             0.0      0.0             0.0               0.0       5.4            5.4        813             0

    *10    52             0.0      0.0       147.9                147.9        0.0         147.9       4,512             0

     11    53             0.0      0.0             0.0               0.0      14.0          14.0       2,097             0

     12    55             0.0     24.0             0.0              24.0       0.0          24.0       3,367             0

    *13    57       253.1          0.0     1,284.7              1,284.7        0.0       1,537.8      99,963        16,454

    *14    66             0.0      0.0         33.4                 33.4       0.0          33.4       1,974             0

     15    67             0.0      0.0             0.0               0.0    140.9          140.9      20,216             0

    *16    89             0.0      0.0             0.0               0.0       6.9            6.9        320             0

    *17    91             0.0      0.0       662.6                662.6     222.0          884.6      46,958             0

    *18    92             0.0      0.0         70.0                 70.0       0.0          70.0       4,138             0

    *19    94             0.0      0.0         33.6                 33.6       0.0          33.6       4,475             0

     20   102             0.0      0.0             0.0               0.0      60.4          60.4      11,436             0

    *21   104        49.3          0.0             0.0               0.0       0.0          49.3      10,376        10,376

     22   106             0.0      0.0             0.0               0.0      20.0          20.0       3,335             0

    *23   110             0.0      0.0       150.2                150.2        0.0         150.2       7,595             0

    *24   112       327.8          0.0             0.0               0.0       0.0         327.8      44,554        44,554

    *25   114       162.8          0.0             0.0               0.0       0.0         162.8      12,384        12,384

    *26   117        40.0          0.0             0.0               0.0       0.0          40.0       6,748         6,748




USDA/OIG-A/03006-18-Te                                                                                           Page 93
                                         SEPTEMBER 2000
EXHIBIT L - FAILED RBW AND PP RICE THAT RECEIVED
             DISASTER PAYMENTS


                                                                      DISASTER PAYMENT ACRES


                                                             FAILED OR PP RICE BEHIND                                                   DISASTER PAYMENTS ON
                                                                SUCCESSFUL WHEAT                                           (6)            QUESTIONED ACRES
                                                                                                                         TOTAL
                                            (1)            (2)            (3)              (4)            (5)         QUESTIONE                      GHOST
                                                                                         TOTAL         INITIAL         D ACRES            TOTAL      ACRES
     COUNT              FARM             GHOST           FAILED           PP             (2)+(3)       PP RICE         (1)+(4)+(5)      PAYMENTS      ONLY

         *27          118                   427.8             0.0               0.0              0.0        0.0                427.8      62,925       62,925

         *28          119                   271.0             0.0               0.0              0.0        0.0                271.0      32,888       32,888

         *29          121                   113.2             0.0               9.7              9.7       21.5              A/ 144.4     22,355       17,524

                Total                     1,993.7          245.5        3,304.5              3550.0      586.6               6,130.3    $584,040    $240,374

                                                                                      1994

          *1            96     NP            40.0             0.0               0.0              0.0        0.0                 40.0       3,354        3,354

          *2          129      NP           203.6             0.0               0.0              0.0        0.0                203.6      13,120       13,120

          *3          143      P            178.3             0.0               0.0              0.0        0.0                178.3      16,912       16,912

          *4          144      NP           117.0             0.0               0.0              0.0        0.0                117.0       7,478        7,478

          *5          145      P             69.9             0.0               0.0              0.0        0.0                 69.9      12,412       12,412

                Total                       608.8             0.0               0.0              0.0        0.0                608.8     $53,276     $53,276

            Grand Total                   2,602.5          245.5        3,304.5              3,550.0     586.6               6,739.1    $637,316    $293,650


* Farms with ties to producer 2 (25 farms and $542,460 in questioned payments).

A/ Disaster payment made on 165.2 acres of which 20.8 acres were initial failed and not questioned (165.2 - 20.8 = 144.4).




USDA/OIG-A/03006-18-Te                                                                                                                               Page 94
                                                                    SEPTEMBER 2000
EXHIBIT M - OFFICIAL 1993 AND 1994 RAINFALL DATA
            FROM NOAA WEATHER STATIONS IN AND
             AROUND JACKSON COUNTY


                         ACTUAL RAINFALL IN INCHES                 DEPARTURES FROM NORMAL IN INCHES
     WEATHER
     STATION         MARCH     APRIL     MAY         JUNE          MARCH     APRIL     MAY        JUNE

                                                   1993

  Alicia              M 3.63      4.18      3.77            2.87       NA      -0.41    -1.51       -0.20

  Augusta 1/            3.36    M 5.53      5.56            4.41     -1.93       NA      0.43       0.39

  Batesville            1.46      5.19      6.76            3.44     -3.49      0.75     1.83       0.27

  Beedeville            3.58      5.06      4.93            3.33     -1.39      0.23    -0.06       -0.31

  Black Rock            3.58      4.65      3.97            4.35     -1.56      0.23    -1.31       1.54

  Evening Shade 2/      2.46      5.02      7.50            2.78     -2.63      0.76     2.83       -0.54

  Jonesboro             4.31      5.72      4.37            2.79     -0.51      0.58    -0.69       -0.26

  Lake City             3.45     M 0.0    M 3.50          M 4.00      -1.4       NA          NA      NA

  Newport               4.27      4.80      4.81            2.69     -0.92      0.09    -0.16       -1.00

  Paragould             4.34      4.92      3.87            3.57     -0.92     -0.25    -1.48       -0.12

  Pocahontas          M 2.50      4.08      4.49            8.60       NA      -0.32    -0.76       5.49

           Total       30.81     43.62     50.03           38.83    -14.75      1.66    -0.88       5.26

       Average          3.42      4.85      5.00            3.88     -1.64      0.18    -0.09       0.53

    District No. 3      3.38      4.88      4.81            3.77     -1.78      0.15    -0.43       0.35

                                                   1994

  Alicia                4.16      4.59      1.09            6.89     -0.89       0.0    -4.19       3.82

  Augusta 1/            5.87      5.96      3.28            3.84      0.58      0.94    -1.85       -0.18

  Batesville            4.49      3.75      2.77            1.91     -0.46     -0.69    -2.16       -1.26

  Beedeville            5.45      3.58      2.94           M 0.0      0.48     -1.25    -2.05        NA

  Black Rock            4.76      5.28      1.09            3.72     -0.38      0.86    -4.19       0.91

  Evening Shade 2/    M 3.29      4.33      1.39            4.73       NA       0.07    -3.28       1.41

  Jonesboro             4.01      3.57      1.40            6.58     -0.81     -1.57    -3.66       3.53

  Lake City           M 3.60      5.18      1.47            7.22       NA      -0.04    -3.81       3.76

  Newport               5.02      5.98      3.10            5.65     -0.17      1.27    -1.87       1.96

  Paragould             5.04      4.69      1.14            5.88     -0.22     -0.48    -4.21       2.19




USDA/OIG-A/03006-18-Te                                                                            Page 95
                                         SEPTEMBER 2000
EXHIBIT M - OFFICIAL 1993 AND 1994 RAINFALL DATA
            FROM NOAA WEATHER STATIONS IN AND
             AROUND JACKSON COUNTY


                             ACTUAL RAINFALL IN INCHES                 DEPARTURES FROM NORMAL IN INCHES
     WEATHER
     STATION          MARCH        APRIL       MAY         JUNE       MARCH         APRIL       MAY        JUNE

  Pocahontas               3.19        4.99     M 0.85         3.56       -2.51         0.59          NA      0.45

        Total             41.99       51.90       19.67       49.98       -4.38         -0.30    -31.27      16.59

       Average             4.67        4.72        1.97        5.00       -0.49         -0.03     -3.13       1.66

    District No. 3         5.18        4.78        2.28        5.49          0.02       0.05      -2.96       2.07

  District No. 3 consisted of the counties of White, Jackson, Poinsett, Craighead, Independence, Lawrence, Greene,
  Mississippi, Clay, and Randolph.

  M = Incomplete data for month.
  NA = Not applicable.

  Totals and averages exclude incomplete (M) and not applicable (NA) data.

  1/ Located in NOAA reporting District No. 2 but geographically near Jackson County.

  2/ Located in NOAA reporting District No. 6 but geographically near Jackson County.




USDA/OIG-A/03006-18-Te                                                                                     Page 96
                                              SEPTEMBER 2000
EXHIBIT N - RICE HISTORY AND WHEAT RICE ACRES FOR
            1993 AND 1994 FARMS WITH FAILED RBW
           AND/OR PP RICE

                                   AVERAGE
                                                            TOTAL CERTIFIED ACRES
                                     3-YEAR
                                   RICE P&CP
          COUNT        FARM        HISTORY 1/      WHEAT            RICE            RBW

                                        1993 Crop Year

                  1           4            0.0            126.2        126.2          126.2

                  2           6            0.0             33.0         33.0           33.0

                  3           7           34.5             41.3         41.3           41.3

                  4           8            0.0             36.1         36.1           36.1

                  5           9            0.0             27.1         27.1           27.1

                  6           13         202.6            217.0        192.5           15.9

                  7           14           8.0               0.0       A/ 6.4             0.0

                  8           21          28.7             81.0       A/ 23.0             0.0

                  9           28         424.0            358.9        365.5          205.6

                  10          37           0.0           1,130.4      1,130.4       1,130.4

                  11          41           0.0               0.0        73.3              0.0

                  12          44          12.9             26.3       A/ 10.4             0.0

                  13          45          21.6             19.7       A/ 17.3             0.0

                  14          52           0.0            147.9        147.9          147.9

                  15          53         205.7            119.3        195.4              0.0

                  16          55          25.3             42.0         24.0           24.0

                  17          57          89.5           1,537.8      1,537.8       1,537.8

                  18          66           0.0             33.4         33.4           33.4

                  19          67          47.0               0.0       140.9              0.0

                  20          89           0.0               0.0           6.9            0.0

                  21          91           0.0            662.6        884.6          662.6

                  22          92           0.0             70.0         70.0           70.0

                  23          94          54.0             33.6        195.5           33.6

                  24      102            151.0            112.7      A/ 120.8             0.0

                  25      104             51.9             94.7         49.3           49.3




USDA/OIG-A/03006-18-Te                                                                          Page 97
                                    SEPTEMBER 2000
EXHIBIT N - RICE HISTORY AND WHEAT RICE ACRES FOR
            1993 AND 1994 FARMS WITH FAILED RBW
           AND/OR PP RICE

                                        AVERAGE
                                                                 TOTAL CERTIFIED ACRES
                                          3-YEAR
                                        RICE P&CP
          COUNT          FARM           HISTORY 1/      WHEAT            RICE            RBW

                  26              106          50.0               0.0      A/ 40.0             0.0

                  27              110           0.0            162.8        150.2          150.2

                  28              112          73.3            391.8        337.8          337.8

                  29              114         761.3            540.7        723.2          162.8

                  30              117         943.0            544.2        779.9           40.0

                  31              118       1,528.6           1,593.3      1,222.9       B/ 655.3

                  32              119       1,686.4           1,877.3      1,602.1         271.0

                  33              121          36.0            122.9        202.5          122.9

                          Total                           10,184.0        10,547.6    B/ 5,914.2

                                             1994 Crop Year

                  1                8        C/ 12.0             36.1          36.1          36.1

                  2                9         C/ 9.0             27.1          27.1          27.1

                  3               37       C/ 376.8           1,130.4      1,130.4       1,130.4

                  4               44           12.8             29.6            7.4            0.0

                  5               77          160.4            100.0        160.4          100.0

                  6               96           22.3             40.0          40.0          40.0

                  7               129          90.2            203.6        203.6          203.6

                  8               132         322.6            909.9        976.8          909.9

                  9               143         207.3            231.1        178.3          178.3

                  10              144           0.0            159.5        209.0          117.0

                  11              145          69.9             86.3          69.9          69.9

                  12              146           0.0               0.0       251.6              0.0

                          Total                               2,953.6      3,290.6       2,812.3

                       Grand Total                        13,137.6        13,838.2    B/ 8,726.5




USDA/OIG-A/03006-18-Te                                                                               Page 98
                                         SEPTEMBER 2000
EXHIBIT N - RICE HISTORY AND WHEAT RICE ACRES FOR
            1993 AND 1994 FARMS WITH FAILED RBW
           AND/OR PP RICE

        = All wheat was purportedly double cropped with rice.
        = All rice was purportedly double cropped with wheat.

      A/ Total rice acreage per form ASCS-574; rice acreage was not certified on form ASCS-578.

      B/ Includes 227.5 acres of failed rice on farm 118 which was properly treated as ghost acres by the COC for 1993 for reasons
      undocumented in the CO files.

      C/ History is solely based on questionable acres claimed in 1993.

      1/ 3-year’s P&CP history for rice on the farm as of the respective certification of acreage by the farm operator.




USDA/OIG-A/03006-18-Te                                                                                               Page 99
                                                SEPTEMBER 2000
EXHIBIT O - IRREGULARITIES IN REPORTED RICE
INTERESTS


                                       PRODUCER(S) WITH INTEREST IN CROP PER FORM ASCS-578

      COUNT   FARM      INITIAL (WHEAT) CROP                 SECOND (RICE) CROP                     FINAL CROP 1/

                                                     1993 CROP YEAR

          1      7 3                                  4                                   3

          2      8 5                                  6                                   5

          3      9 5                                  6 A/                                5

          4     28 46, 47, 48                         46                                  46

          5     37 4, 8, 13, 19, 33, 34, 35, 37 B/    7, 8, 13, 19, 33, 34, 35, 37 B/     4, 7, 8, 13, 19, 33, 34, 35, 37

          6     41 No crop                            55 C/                               No crop

          7     52 11 B/                              12                                  12

          8     57 3, 4, 7                            3, 4, 7, 9, 10 B/                   3, 4, 7, 10

          9     66 3                                  13                                  3

         10     91 5, 14, 15, 16, 17, 18, 29, 39      9, 13, 19 B/                        5, 14, 15, 17, 18, 29, 30, 39

         11     92 40                                 9                                   40

         12    104 49                                 25, 27                              25, 27

         13    110 5, 22                              13                                  5, 22

         14    112 24                                 24, 25, 27                          24, 25, 27

         15    114 35                                 26, 37                              26, 37

         16    118 4, 13, 20, 34, 42                  20, 34, 41, 42                      20, 34, 41, 42

         17    119 8, 43                              42, 43, 44, 45                      42, 43

         18    121 19, 24                             19, 25, 27                          19

                                                     1994 Crop Year

          1     96 20                                 56                                  No crop

          2    129 49                                 55                                  55

          3    132 14, 15, 17, 18, 28, 29             9, 13, 19                           28, 29, 30, 31, 32, 57

          4    143 36                                 Corporation 1, [ ]’s [relative to   [ ]’s [relative to MO]
                                                      MO]

          5    144 9, 36                              Corporation 1, [ ]’s [relative to   [ ]’s [relative to MO]
                                                      MO]




USDA/OIG-A/03006-18-Te                                                                                     Page 100
                                            SEPTEMBER 2000
EXHIBIT O - IRREGULARITIES IN REPORTED RICE
INTERESTS


                  6     145 36                                     [ ]’s [     ]                         [ ]’s [relative to MO]

          1/ Soybeans and/or grain sorghum.

          A/ The acreage report showed the rice crop belonged to this producer. However, for an undocumented reason the COC paid the rice
             disaster payment to producer 5.

         B/ Final certification data is shown. Initial certifications by the operators were different from the final certifications. The reasons for
the changes in certified ownership were not documented.

           C/ About 3 months after the end of the crop year, a manual form ASCS-578 was prepared to show producer 55 had 100-percent
interest in the rice; the producer had no prior reported interest in the farm for the crop year.




USDA/OIG-A/03006-18-Te                                                                                                    Page 101
                                                      SEPTEMBER 2000
EXHIBIT P - CERTIFICATION AND APPLICATION DATES FOR
            1993 AND 1994 FAILED RBW AND PP RICE AND
            FOR OTHER CROPS FARMED ON THE SAME
             ACREAGE


                                     INITIAL CROP 1/                          SECOND (QUESTIONED RICE) CROP 2/

                                           FORM ASCS-574                                                               FINAL CROP
                           FORM                                            RICE          FORM            FORM             FORM
                         ASCS-578                       INTENDED          STATUS      ASCS-78 DATE     ASCS-574         ASCS-578
      COUNT       FARM    DATE 3/      DATE 4/          LAND USE            5/             3/           DATE 4/         DATE 3/6/


                                                                   1993

              1      4    05/06/93       09/30/93       A/ Soybeans          PP            07/19/93        07/19/93       07/19/93

              2      6    04/28/93         NA 7/           NA 7/             PP            08/05/93        07/20/93       06/30/93

              3      7    03/24/93         NA 7/           NA 7/             PP            08/05/93        07/20/93       06/29/93

              4      8    04/15/93       09/14/93       A/ Soybeans          PP            08/09/93        07/20/93       06/29/93

              5      9    04/15/93       09/14/93       A/ Soybeans          PP            08/05/93        07/20/93       06/29/93

              6     13    03/05/93         NA 7/           NA 7/          PP/Failed      B/ 06/01/93    C/ 06/01/93       09/01/93

              7     14     No crop            NA            NA               PP                  D/        06/07/93        No crop

              8     21     No crop            NA            NA               PP                  D/        06/15/93        No crop

              9     28    05/24/93         NA 7/           NA 7/           Failed          06/29/93        06/29/93       08/02/93

          10        37    04/01/93       04/01/93        Soybeans         PP/Failed      E/ 06/11/93     F/ 06/11/93      08/03/93

          11        41     No crop            NA            NA               PP          Q/ 03/25/94       03/25/94        No crop

          12        44     No crop            NA            NA               PP                  D/        06/15/93        No crop

          13        45     No crop            NA            NA               PP                  D/        06/01/93        No crop

          14        52    04/28/93         NA 7/           NA 7/             PP            08/03/93        07/20/93       07/01/93

          15        53     No crop            NA            NA               PP          H/ 08/20/93     I/ 08/20/93      08/03/93

          16        55    04/28/93         NA 7/           NA 7/           Failed          08/02/93        08/18/93       08/02/93

          17        57    04/28/93       03/24/93        Soybeans         PP/Failed      J/ 06/09/93    K/ 06/09/93       08/03/93

          18        66    03/24/93         NA 7/           NA 7/             PP            08/05/93        07/20/93       08/05/93

          19        67     No crop            NA            NA               PP            03/18/94        03/18/94       07/08/93

          20        89     No crop            NA            NA               PP            08/05/93        07/20/93       08/05/93

          21        91    04/28/93       09/27/93       A/ Soybeans          PP            08/09/93        07/20/93       08/09/93

          22        92    04/21/93       09/22/93       A/ Soybeans          PP            08/06/93        07/20/93       08/06/93

          23        94    04/27/93       09/22/93       A/ Soybeans          PP          L/ 08/05/93    M/ 07/20/93       07/01/93

          24       102     No crop            NA            NA               PP                   F/       06/04/93        No crop

          25       104    03/28/93       03/29/93      Rice, soybeans      Failed          06/01/93        06/01/93       07/01/93




USDA/OIG-A/03006-18-Te                                                                                            Page 102
                                            SEPTEMBER 2000
EXHIBIT P - CERTIFICATION AND APPLICATION DATES FOR
            1993 AND 1994 FAILED RBW AND PP RICE AND
            FOR OTHER CROPS FARMED ON THE SAME
             ACREAGE


                                     INITIAL CROP 1/                          SECOND (QUESTIONED RICE) CROP 2/

                                           FORM ASCS-574                                                              FINAL CROP
                           FORM                                            RICE          FORM            FORM            FORM
                         ASCS-578                        INTENDED         STATUS      ASCS-78 DATE     ASCS-574        ASCS-578
      COUNT       FARM    DATE 3/      DATE 4/           LAND USE           5/             3/           DATE 4/        DATE 3/6/

          26       106     No crop            NA             NA              PP                  D/        06/02/93       No crop

          27       110    04/22/93       09/22/93       A/ Soybeans          PP            08/09/93        07/20/93      08/09/93

          28       112    05/10/93       05/10/93           Rice          PP/Failed      N/ 06/08/93    O/ 06/08/93      07/01/93

          29       114    04/22/93       04/21/93        Soybeans          Failed          06/08/93        06/08/93      08/06/93

          30       117    04/28/93       04/28/93        Soybeans          Failed          06/08/93        06/08/93      08/09/93

          31       118    04/28/93       04/28/93        Soybeans          Failed          06/07/93        06/07/93      08/09/93

          32       119    05/12/93       04/28/93        Soybeans          Failed          06/07/93        06/07/93      08/09/93

          33       121    05/10/93       05/10/93           Rice          PP/Failed      P/ 06/08/93    O/ 06/08/93      08/09/93


                                                                   1994

              1      8    04/04/94         NA 7/           NA 7/           Failed          08/01/94     Q/ 08/01/94      07/07/94

              2      9    03/10/94         NA 7/           NA 7/           Failed          08/01/94     Q/ 08/01/94      07/07/94

              3     37    04/04/94       04/04/94        Soybeans            PP            06/14/94        07/06/94      07/12/94

              4     44     No crop            NA             NA              PP            07/28/94        07/28/94       No crop

              5     77    03/10/94       03/10/94           Rice           Failed          07/21/94              ND       No crop

              6     96    04/12/94       04/12/94      Rice, soybeans     Low Yield        07/26/94        03/13/95       No crop

                                                       Rice, soybeans,
              7    129    04/12/94       04/12/94      grain sorghum       Failed          06/14/94        06/14/94      07/12/94

              8    132    03/18/94       04/12/94        Soybeans            PP            06/14/94        06/14/94      07/26/94

              9    143    04/04/94       04/04/94        Soybeans          Failed          06/24/94        06/14/94      07/21/94

          10       144    04/04/94       04/04/94        Soybeans          Failed          06/14/94        06/14/94      07/14/94

          11       145    04/04/94       04/04/94        Soybeans          Failed          06/14/94        06/14/94      07/13/94

          12       146     No crop            NA             NA              PP            06/10/94        06/10/94       No crop




USDA/OIG-A/03006-18-Te                                                                                            Page 103
                                            SEPTEMBER 2000
EXHIBIT P - CERTIFICATION AND APPLICATION DATES FOR
            1993 AND 1994 FAILED RBW AND PP RICE AND
            FOR OTHER CROPS FARMED ON THE SAME
             ACREAGE

  = Form was late-filed.
  = PP rice was reported after the final crop was reported on the acreage.
NA = Not applicable.
ND = No data available.

1/   Failed or PP wheat, except as noted.
2/   Rice questioned by OIG. See exhibit L for acreages.
3/   The date the applicable crop acreage was first reported on the farm.
4/   The date the producer applied for credit on the respective (failed, PP, or low yield) crop.
5/   Reported status of questioned rice acreage. Status is either failed, PP, or low yield.
6/   Soybeans and/or grain sorghum.
7/   Wheat was not reported as failed, PP, or low yield.
A/   The operator filed the wheat form ASCS-574 after he reported both the following PP RBW and soybean crops (on form ASCS-578); form ASCS-574 shows the wheat ground
    was planted to soybeans at the time the wheat form ASCS-574 was filed.
B/ Producer reported initial failed rice (not behind wheat) on June 1, 1993; on September 1, 1993, the producer reported initial PP rice and reported that part of the initial failed
  rice was actually failed RBW. The initial failed rice is not in question.
C/ Producer applied for credit for failed rice on June 1, 1993, and for PP rice on September 1, 1993.
F/ The questioned rice was not reported on form ASCS-578; the affected acreage was reported as a grass cover for conservation use.
E/ Producer reported failed rice on June 11, 1993, and PP rice on August 3 1993.
F/ Producer applied for credit for failed rice on June 11, 1993, and for PP rice on July 20, 1993.
G/ Producer reported initial failed rice (not behind wheat) on June 14, 1993, and PP rice on August 20, 1993. The initial failed rice is not in question.
H/ Producer applied for credit for initial failed rice (not behind wheat) on June 14, 1993, and for PP rice on August 20, 1993. The initial failed rice is not in question.
I/ Producer reported failed rice on June 9, 1993, and PP rice on August 3, 1993.
J/ Producer applied for credit for failed rice on June 9, 1993, and for PP rice on June 20, 1993.
K/ Producer reported initial failed rice (not behind wheat) on June 7, 1993, and PP rice on August 5, 1993. The initial failed rice is not in question.
L/ Producer applied for credit for initial failed rice (not behind wheat) on June 7, 1993, and for PP rice on July 20, 1993. The initial failed rice is not in question.
M/ Producer reported failed rice on June 8, 1993, and PP rice on August 9, 1993.
N/ Producer applied for credit for failed rice on June 8, 1993, and for PP rice on July 20, 1993.
O/ Producer reported failed rice on June 8, 1993, and PP rice on August 3, 1993.
P/ COC disapproved form ASCS-574.
Q/ The (initial) PP rice was certified on a March 25, 1994, manual form ASCS-578 for disaster purposes only. The acreage was previously certified on a July 26, 1993,
automated form ASCS-578 as grass cover.




USDA/OIG-A/03006-18-Te                                                                                                                             Page 104
                                                                 SEPTEMBER 2000
2EXHIBIT Q - FSA RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/03006-18-Te                    Page 105
                         SEPTEMBER 2000
EXHIBIT Q - FSA RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/03006-18-Te                    Page 106
                         SEPTEMBER 2000
EXHIBIT Q - FSA RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/03006-18-Te                    Page 107
                         SEPTEMBER 2000
EXHIBIT Q - FSA RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/03006-18-Te                    Page 108
                         SEPTEMBER 2000
EXHIBIT Q - FSA RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/03006-18-Te                    Page 109
                         SEPTEMBER 2000
EXHIBIT Q - FSA RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/03006-18-Te                    Page 110
                         SEPTEMBER 2000
                             ABBREVIATIONS


            AMTA         -    Agricultural Market Transition Act
            ACOR         -    Arkansas County Operations Reviewer
            ARP          -    Acreage Reduction Program
            CAB          -    Crop Acreage Base
            CAO          -    County Agricultural Official
            CCC          -    Commodity Credit Corporation
            CFR          -    Code of Federal Regulations
            CO           -    County Office
            COC          -    County Committee
            COR          -    County Operations Reviewer
            CU           -    Conserving Uses
            FACTA        -    Food, Agriculture, Conservation, and Trade Act of 1990
            FSA          -    Farm Service Administration
            FY           -    Fiscal Year
            HELC         -    Highly Erodible Land Conservation
            KCMO         -    Kansas City Management Office
            MLA          -    Marketing Loss Assistance
            MPA          -    Maximum Payment Acreage
            NAD          -    National Appeals Division
            NOAA         -    National Oceanic and Atmospheric Administration
            OIG          -    Office of Inspector General
            P&CP         -    Planted and Considered Planted
            PFC          -    Production Flexibility Contract
            PP           -    Prevented Planted
            PPI          -    Prompt Payment Interest
            PT           -    Program Technician
            RBW          -    Rice Behind Wheat
            RMA          -    Risk Management Agency
            SAO          -    State Agricultural Official
            SBA          -    Small Business Association
            SCOR         -    Special County Operations Reviewer
            SED          -    State Executive Director
            STC          -    State FSA Committee
            STO          -    Arkansas State FSA Office
            UPCN         -    Upland Cotton
            USDA         -    United States Department of Agriculture
            WC           -    Wetland Conservation




USDA/OIG-A/03006-18-Te                                                            Page 111
                               SEPTEMBER 2000
           FORM NUMBERS AND DESCRIPTIONS


            AD-1026      -      Highly Erodible Land Conservation (HELC) and Wetland
                                Conservation (WC) Certification

            ASCS-155     -      Request for Farm Reconstitution

            ASCS-324     -      Confidential Statements Regarding Financial Interests and
                                Outside Employement

            ASCS-476     -      Notice of Acreage Bases, Yields, Allotments, and/or Quotas

            ASCS-480     -      Documenting Corrections for CAB’s

            ASCS-574     -      Application for Disaster Credit

            ASCS-578     -      Report of Acreage

            ASCS-658     -      Record of Production and Yield

            CCC-184      -      CCC Check

            CCC-502      -      Farm Operating Plan for Payment Limitation Review

            CCC-         -      COC Worksheet for "Actively Engaged in Farming" and "Person"
             503A        Determinations

            FSA-375      -      Transfer of Peanut Quota

            FSA-570      -      Waiver of Eligibility for Emergency Assistance




USDA/OIG-A/03006-18-Te                                                              Page 112
                                 SEPTEMBER 2000
                          GLOSSARY OF TERMS


            Common Ownership   Tracts within a farm that have identical owners are a common
                               ownership.

            Farm           -   Comprised of tracts that have in common all of the following
                               elements: operator, cropping practice, labor, equipment, and
                               accounting system.

            Feed Grains    -   Barley, corn, grain sorghum, and oats.

            Ghost Acres    -   A second crop following a first crop which was not harvested
                               because of PP or failed conditions due to damaging weather or
                               related conditions, where the second crop is not normally planted
                               in a double-cropping situation in the area after the first crop is
                               harvested. Such later crop acreage is not considered planted for
                               P&CP credit, deficiency payments, or eligible for price support.
                               To be considered ghost acres, the crop must be planted on the
                               same acreage as the program crop that failed or was prevented
                               from being planted.

            Operator       -   A person or entity who is in general control of the farming
                               operation during the program year.

            Producer       -   An individual or entity that is eligible to participate in FSA
                               programs as a participant, applicant, or borrower.

            Reconstitution -   A change in the identity of land by combining or dividing tracts or
                               farms.

            Tract          -   A unit of contiguous land that is under one ownership and is
                               operated as a farm or part of a farm.




USDA/OIG-A/03006-18-Te                                                                Page 113
                                SEPTEMBER 2000
